<html>
<title> - THE STATE OF THE AMERICAN CHILD: THE IMPACT OF FEDERAL POLICIES ON CHILDREN</title>
<body><pre>[Senate Hearing 111-1156]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 111-1156

 
                   THE STATE OF THE AMERICAN CHILD: 
               THE IMPACT OF FEDERAL POLICIES ON CHILDREN

=======================================================================

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON CHILDREN AND FAMILIES

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                                   ON

 EXAMINING THE STATE OF THE AMERICAN CHILD, FOCUSING ON THE IMPACT OF 
                      FEDERAL POLICIES ON CHILDREN

                               __________

                             JULY 29, 2010

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions


      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                  U.S. GOVERNMENT PRINTING OFFICE
78-036                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2e495e416e4d5b5d5a464b425e004d414300">[email&#160;protected]</a>  


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                       TOM HARKIN, Iowa, Chairman

CHRISTOPHER J. DODD, Connecticut     MICHAEL B. ENZI, Wyoming
BARBARA A. MIKULSKI, Maryland        JUDD GREGG, New Hampshire
JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             RICHARD BURR, North Carolina
JACK REED, Rhode Island              JOHNNY ISAKSON, Georgia
BERNARD SANDERS (I), Vermont         JOHN McCAIN, Arizona
ROBERT P. CASEY, JR., Pennsylvania   ORRIN G. HATCH, Utah
KAY R. HAGAN, North Carolina         LISA MURKOWSKI, Alaska        
JEFF MERKLEY, Oregon                 TOM COBURN, M.D., Oklahoma
AL FRANKEN, Minnesota                PAT ROBERTS, Kansas        
MICHAEL F. BENNET, Colorado          
CARTE P. GOODWIN, West Virginia      


                    Daniel E. Smith, Staff Director

                  Pamela Smith, Deputy Staff Director

     Frank Macchiarola, Republican Staff Director and Chief Counsel

                                 ______

                 Subcommittee on Children and Families

               CHRISTOPHER J. DODD, Connecticut, Chairman

JEFF BINGAMAN, New Mexico            LAMAR ALEXANDER, Tennessee
PATTY MURRAY, Washington             JUDD GREGG, New Hampshire
JACK REED, Rhode Island              JOHN McCAIN, Arizona
BERNARD SANDERS (I), Vermont         ORRIN G. HATCH, Utah
SHERROD BROWN, Ohio                  LISA MURKOWSKI, Alaska
ROBERT P. CASEY, JR., Pennsylvania   TOM COBURN, M.D., Oklahoma
KAY R. HAGAN, North Carolina         PAT ROBERTS, Kansas
JEFF MERKLEY, Oregon                 MICHAEL B. ENZI, Wyoming (ex 
TOM HARKIN, Iowa (ex officio)        officio)                      


                   Tamar MagarikHaro, Staff Director

               David P. Cleary, Republican Staff Director

                                  (ii)

  
?



                            C O N T E N T S

                               __________

                               STATEMENTS

                        THURSDAY, JULY 29, 2010

                                                                   Page
Dodd, Hon. Christopher J., Chairman, Subcommittee on Children and 
  Families, opening statement....................................     1
Merkley, Hon. Jeff, a U.S. Senator from the State of Oregon......     5
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................     5
    Prepared statement...........................................     6
Rouse, Cecilia Elena, Ph.D., Member, Council of Economic 
  Advisers, Washington, DC.......................................     9
    Prepared statement...........................................    11
Harris, Seth, Deputy Secretary, U.S. Department of Labor, 
  Washington, DC.................................................    22
    Prepared statement...........................................    24
Hansell, David A., Acting Assistant Secretary, Administration for 
  Children and Families, U.S. Department of Health and Human 
  Services, Washington, DC.......................................    31
    Prepared statement...........................................    32
Melendez de Santa Ana, Assistant Secretary, Office of Elementary 
  and Secondary Education, U.S. Department of Education, 
  Washington, DC.................................................    40
    Prepared statement...........................................    42
Koh, Howard K., M.D., M.P.H., Assistant Secretary for Health, 
  U.S. Department of Health and Human Services, Washington, DC...    45
    Prepared statement...........................................    47

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Senator Coburn...............................................    76
    KellyAnn Day, MSW, Executive Director, New Haven Home 
      Recovery, Inc..............................................    77
    Beth Mattingly, Director, Research on Vulnerable Families, 
      The Carsey Institute.......................................    82

                                 (iii)

  


                    THE STATE OF THE AMERICAN CHILD:
                   THE IMPACT OF FEDERAL POLICIES ON
                                CHILDREN

                              ----------                              


                        THURSDAY, JULY 29, 2010

                                       U.S. Senate,
                     Subcommittee on Children and Families,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:04 a.m. in 
Room SD-430, Dirksen Senate Office Building, Hon. Christopher 
J. Dodd, chairman of the subcommittee, presiding.
    Present: Senators Dodd, Casey, and Merkley.

                   Opening Statement of Senator Dodd

    Senator Dodd. The committee will come to order.
    Let me welcome all of you here this morning. I will give 
you a minute here to get settled. I thank our witnesses. I 
thank our guests in the audience. And I see my colleague from 
Oregon here as well. Senator Merkley, thank you for joining us 
here this morning.
    I have been told, before beginning with my opening 
comments, that we will have a vote somewhere around 10:40-10:45 
this morning. I believe there are several other members who 
will be coming by this morning to participate in the hearing, 
and so we will try and keep a continuum going and try and 
stagger. So as soon as that vote occurs, Senator Merkley, I 
might skip right out myself and make the vote and hand the 
gavel to you for a few minutes and come right back and try to 
work it in a way so we allow our witnesses to continue and the 
questions to proceed.
    What I will do this morning is make a few minutes of 
opening remarks myself and then I will ask my colleague from 
Oregon if he has any opening comments he would care to make. 
Then we will turn to our very distinguished panel of witnesses 
who are here this morning and we are very grateful to them and 
their Departments for their willingness to participate in this, 
the third, of our hearings on The State of the American Child: 
The Impact of Federal Policies on Children. So again, brief 
opening comments and then colleague comments and then turn to 
our witnesses.
    First of all, let me welcome everyone here this morning, 
including our very distinguished panel, as I have said, to 
this, the third, in a series of hearings on the State of the 
American Child.
    This subcommittee, Children and Families, is, I believe, 
the Senate's only body specifically focused on addressing the 
needs of children and their families in our Nation. This series 
of hearings is historic in both its scope and its purpose. In 
fact, I am not aware of any recent efforts in Congress to 
explore so deeply the factors that underlie the well-being of 
America's children.
    As the parent of two young daughters, I understand the 
weight of wanting to see your child reach his or her full 
potential. Sometimes this weight is too heavy for a single 
parent, as we all have learned, trying to maintain a job while 
caring for an ill child. Sometimes the weight is too heavy for 
a family, making the very difficult decision as to whether or 
not to send that child who has done everything right over the 
years off to college or to maintain those mortgage payments on 
the house that you have lived in for a long time. And sometimes 
this weight is far too heavy even for a school district, 
striving to provide nutritious meals for children, but lacking 
the resources because of the conditions economically in the 
county or community in which they reside. Without support, 
these weighty challenges, of course, I think as all of us 
appreciate, in very many instances become absolutely 
insurmountable both for children, for families, and for 
communities.
    Parents do the best they can. In fact, they want the very 
best for their children. Almost without exception in this 
country, that is a given. But what we have come to realize is 
that a broad array of support systems at the local, State, and 
Federal levels do exist to help families and children thrive. 
And as I have said before, the most rewarding work that I have 
ever done in my 35 years in the Congress of the United States 
has been helping shape these family support systems at the 
Federal level. In many ways, the success of our Nation can be 
measured by, of course, the success of our own children, and we 
have fought to improve the quality of life of every child. We 
have made our society, I think, stronger, more productive, and 
just.
    Too many parents had to chose between the job they need, 
and the children they love during a child's illness. For this 
reason, of course, we fought for the Family and Medical Leave 
Act. Since it was signed into law in February 1993, over 50 
million Americans have taken up 12 weeks of job-protected, 
unpaid leave in order to care for a child or a family member.
    We have strengthened and expanded Head Start programs 
across the Nation, helping some of the most vulnerable children 
develop the cognitive and social and emotional skills required 
to launch them on a path to maximizing their potential.
    And we have strengthened child care and afterschool 
programs as well.
    We know that a child who lacks health insurance fares far 
worse than a child who is insured when it comes to a host of 
crucial medical services, including doctor visits, dental care, 
vision care, and prescription drugs. And so we expanded health 
insurance coverage through the CHIP program and Medicaid to 
millions of uninsured children and passed health reform which 
extends insurance coverage of proven preventative services like 
routine immunizations and regular pediatric visits at no cost 
to millions more.
    And yet, our work is far from over, and the results 
certainly have not demonstrated that we have taken care of 
every child in this Nation.
    This subcommittee held its first hearing in this series in 
June. Our witnesses highlighted pressing issues affecting kids, 
including their health, education, and family and community 
lives. Not surprisingly our conversation turned to the impact 
of the current economic crisis on our children and their 
families. As Dr. Harry Holzer, an economist at Georgetown 
University, outlined, the current economic crisis will have 
long impacts on children even when the economy improves. Most 
worrisome, even as unemployment is forecasted to fall over the 
next several years, child poverty is expected to steadily rise 
to nearly 25 percent by the year 2012.
    But even though the current crisis has heightened our 
awareness of the problems of children, many of these problems, 
like poverty, were worsening before 2008, before this economic 
crisis even hit us. This week, the Annie E. Casey Foundation 
released their Kids Count Databook which showed--and I quote--
``overall improvements in child well-being that began in the 
late 1990s stalled in the years before the current economic 
crisis downturn.''
    Therefore, I think it is imperative that we take a hard 
look at what we need to do in order to help all American 
children succeed and maximize their potential.
    On Monday, the Subcommittee on Children and Families held 
its second hearing in this series at the Yale Child Study 
Center in New Haven, CT where we examined State and local 
efforts aimed at addressing the changing needs of our families 
before and during this economic crisis. Fortunately, the 
individuals and organizations at the State and local level are 
doing incredibly innovative work at a time when their own 
organizations are making very difficult budgetary adjustments. 
Many of these efforts are enhancing the very Federal programs 
that we have built over the years. We have learned about unique 
programs aimed at improving the social and health outcomes of 
children enrolled in Head Start, such as collaboration of 
dentists, providing oral health services and a training program 
for fathers.
    We learned about a successful pilot program called Help Me 
Grow that began in Hartford, CT and has been expanded statewide 
and replicated in seven other cities across the United States 
to link families to a variety of health, developmental, and 
community services.
    We heard testimony on the successes of an afterschool 
program in the low-income community in Bridgeport, CT. The 
success of this program, the Bridgeport Lighthouse program, 
which I have been involved with for a number of years, is 
consistent with the studies that have shown that students 
enrolled in afterschool programs perform better on tests 
compared to other students in the same district who do not have 
the advantage of afterschool programs.
    The proven benefit to children who participate in 
afterschool programs is well-studied and tremendously well-
documented, and as a result, I was deeply disappointed to see 
the Senate appropriations bill change the 21st Century 
Community Learning Center program in such a way that it will 
split funding for afterschool programs with other costly 
initiatives. Local and State initiatives can and are having a 
tremendous impact like the afterschool program in Bridgeport, 
but they need consistent support at the national level in order 
to remain effective.
    Today we are going to hear from our witnesses about the 
impact and success of the programs they oversee while looking 
at opportunities to expand or align them with the tremendous 
work being done at the State and local level. History has shown 
us that the Federal Government does play a critical role in 
improving the lives of children and families. With more than 
one in five children living in poverty in the early 1990s, 
various policies enacted under the Clinton administration 
helped reduce child poverty by a rate of more than 25 percent.
    The same was true, I might add, in the 1960s where efforts 
were made on the anti-poverty programs. We had staggering rates 
of poverty, and yet, as a result of those efforts in the early 
1960s, we reduced those numbers tremendously in those years. 
And then when we backed away from them, we began to see those 
numbers climb again.
    In the 1980s, we did the studies on the commission looking 
at the status of children. As a result of those studies, you 
saw the child care tax credits, a lot of innovative programs, 
and we reduced the numbers again. Then we backed away from it 
again. Once again, we see the numbers beginning to rise.
    The pattern is as clear as anything you can imagine. So 
once again, as we enter this phase when I know there is a lot 
of talk about cutting back on a lot of these programs, 
understand what the cost will be, understand what the price 
will be if we make the kind of decisions which deprive these 
children and their families the support systems that they 
absolutely must have if they are going to succeed at all.
    So with more than one in five children living in poverty in 
the early 1990s, as I said, various policies enacted under the 
Clinton administration helped reduce the child poverty rate by 
more than 25 percent. The rate is still too high, of course, 
but no one could argue about the difference the child tax 
credit, work incentives, and expanded health insurance for low-
income children made in the lives of millions of children. So 
we must continue to improve and strengthen existing programs 
that work and give us the kind of results that we have seen in 
the past.
    Before the committee today is a panel of experts from the 
Departments of Labor, Health, Education, as well as an 
economist from the White House. And I look forward to their 
testimony.
    Our work on behalf of children is never done at all, of 
course. Over 20 years ago, as I mentioned a moment ago, the 
National Commission on Children was established which laid out 
a plan to address the needs of children. Out of that effort 
came many vital programs such as the Earned Income Tax credit 
and the Children's Health Insurance Program. Much has changed 
in the field of children in the last 20 or 22 years, and for 
this reason, I think it is time that we take another look at 
the status of children and their families in our country and 
outline promising new directions for policy and programs. More 
importantly, this is not something we should do every 20 years. 
It should be done every year, and I plan to introduce 
legislation in the coming days which will do just that: provide 
an annual, permanent basis by which we can judge the status and 
the condition of the American child.
    So I look forward to hearing from our witnesses today and 
taking their lessons and learning from them as we move forward 
in our fight to improve the condition of one out of four 
Americans, those children who are under the age of 18 in our 
country, and to see to it that we leave them in far better 
shape than the presence circumstances would indicate.
    With that, I want to turn to my colleagues briefly to see 
if they have any opening comments. Senator Merkley arrived here 
first, so you get the first arrived/first up opportunity, and 
then I will turn to Senator Casey.

                      Statement of Senator Merkley

    Senator Merkley. Mr. Chair, thank you very much and thank 
you for your emphasis on the status of children and programs 
that will improve their lives. What we all have come to learn 
time and time again is that the issues faced in childhood very 
much set a course for a person's life and disproportionately 
so, so that they deserve a great deal of our attention.
    And many of the issues about which you all will be 
testifying are issues certainly of great concern to me and 
great concern to my constituents back in Oregon. I look forward 
to your comments this morning. Thank you.
    Senator Dodd. Thank you, Senator.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thanks so much, Mr. Chairman. I want to 
thank our witnesses who are here. I will have a longer 
statement for the record.
    But I do want to say that often when you have a successful 
program or public policy, a lot of people can stand up and 
claim credit, as is often the case. But few, if any, of U.S. 
Senators in the last 50 years have done more, have labored 
longer in the vineyard of helping children and standing up for 
their rights, for their well- being, and for their health and 
safety and really their future--few have done more, and I 
cannot think of any who have done more, than Senator Chris 
Dodd. We are eternally grateful for that kind of leadership and 
commitment. We need to draw inspiration from his example, all 
of us, in the wake of his leaving in the early part of January 
2011. So we are grateful for that leadership. We are especially 
grateful he called this series of hearings to examine a set of 
issues that candidly, even in the party I am a member of, we do 
not spend enough time on. So I want to thank him for his 
leadership and for his continuing efforts to put a spotlight on 
a whole range of important issues as it relates to children.
    I want to thank this committee for the work it has done, 
and also President Obama and his administration, not just 
because you are here today but because of what has been a 
really focused and determined effort by President Obama to put 
dollars and resources and focus and energy behind programs to 
help our children. We are grateful for that, and I think we are 
looking forward to this hearing today.
    Thank you very much.
    [The prepared statement of Senator Casey follows:]

                  Prepared Statement of Senator Casey

    Thank you, Chairman Dodd, for calling this third in a 
series of hearings on the state of the American Child--and 
thank you for your continued outstanding leadership on 
children's issues. I would also like to thank the panelists who 
have taken time out of their busy days to share with us the 
Administration's activities and programs that are improving the 
lives of children.
    This is a critically important time for us as a committee, 
as a Congress and as a Nation to be assessing the state of the 
American child. We've had a rough few years, with economic toil 
and high levels of unemployment. Families are suffering, and 
children cannot help but be affected. As we chart our way out 
of the recession, it is essential that we reassess our 
priorities as they relate to children.
    While we have made many strides in the right direction--the 
State Children's Health Insurance Program, investments in home 
visitation and early education--children are still losing out. 
As an overall share of the budget, our Federal investment in 
children has been falling steadily. Though children make up a 
quarter of our population, out of every dollar spent by the 
Federal Government, less than a dime goes to children, 
according to a report released earlier this month by First 
Focus. And because children are also disproportionately helped 
by programs that rely on Congress to act to fund them year 
after year, they are more vulnerable to swings in politics, 
economics, and public opinion.
    Congress acted to help children through the American 
Recovery and Reinvestment Act (ARRA). Federal spending on 
children hit a record high of 2.3 percent of GDP in 2009, 
largely as a result of the recession and increased investments 
under ARRA. The children's share of ARRA was more than twice as 
large as the children's share of the Federal budget as a whole. 
But, much of the Recovery Act's spending substituted for or 
cushioned spending cuts in States and localities, hard-hit by 
the recession.
    We cannot afford to let a generation get swept away in this 
recession. The economic downturn has raised the child poverty 
rate in this country to levels not seen in the last 20 years. A 
new study by the Foundation for Child Development, which was 
released in June, evaluated the well-being of children in the 
United States and the impact of the recession. It found that 
one in five children live in poverty. This rate of nearly 22 
percent is up from 17 percent from before the recession began 
in 2006. This rate places the United States the highest among 
its peer nations.
    We must act to ensure the extensions in early childhood 
investment included in the Recovery Act are continued--and that 
this support becomes the new baseline for children. I was 
gratified by the Labor/Health/Education Subcommittee markup 
earlier this week, which has set aside funding for critical 
programs such as Head Start and Child Care Development Block 
Grant at Recovery Act levels.
    In Pennsylvania, the ARRA funding has helped to improve the 
quality of child care and ensure more children have access to 
care. Over the past year in the State's quality child care 
program--a nationally recognized approach known as Keystone 
STARS--nearly 30 percent of the child care programs in this 
initiative moved up a STAR level. The child outcome data for 
this program is showing exceptionally positive results, on par 
with those obtained for the State's PA Pre-K Counts program as 
well as its State investment in Head Start. The ARRA funding 
has also helped to bring the waiting list for child care to 
zero.
    Quality must be a core focus of our investment in early 
childhood programs. The research is irrefutable--investing in 
quality programs for our children in their earliest years 
greatly improves their life outcomes in so many areas. 
Conservative estimates of early childhood education programs 
put the savings to our economy at about $7 for every $1 we 
invest. Analyses of other early childhood programs have 
produced estimated benefits of up to $13 for every dollar 
spent. If this were the stock market, we'd all be buying these 
stocks.
    Just in the last few weeks, several articles and reports 
have appeared that further highlight the importance of 
investing in children, especially when it comes to early 
childhood education.

    <bullet> In May, an article in the journal Child 
Development found that participating in high-quality child care 
early in life can give children an academic leg up for years to 
come. Researchers conducting this longitudinal study found that 
the positive effects of high-quality child care can have 
lasting effects on cognitive development and academic success.
    <bullet> Earlier this week, the College Board recently 
issued a series of recommendations which they refer to as ``10 
recommendations so important they cannot be ignored.'' It's a 
part of their ``College Completion Agenda'' to provide a 
roadmap to ensure that 55 percent of all adults ages 25 to 34 
have an associate degree or higher by 2025. The first 
recommendation: Make voluntary preschool education available to 
all children in low-income families.
    <bullet> And only yesterday, the New York Times ran an 
article called ``The Case for $320,000 Kindergarten Teachers,'' 
which discussed a study that was recently presented at a 
conference, although it has not yet been reviewed. However, 
this study found that high-quality kindergarten teachers are 
worth about $320,000 a year; students who had learned more in 
kindergarten were, as adults, more likely to go to college, 
less likely to become single parents, more likely to be saving 
for retirement, and were earning more than comparable peers.

    Such investments speak to a philosophy rooted in the 
fundamental principle of what it means to be an American--and 
that is that every person, and every child, has the opportunity 
to succeed. When America supports high quality child care, we 
encourage children, families and our Nation to reach their full 
potential.
    I look forward to hearing from the witnesses today about 
all the Federal programs that are making a difference for 
children--and how we can strengthen those programs.

    Senator Dodd. Thank you, Senator Casey. And if you have a 
longer set of comments about my record, I would be pleased to 
take it.
    [Laughter.]
    Thank you very much, Senator Casey.
    I have said this before, by the way, and there will be 
others I hope who will join us today. And as I do get ready to 
leave after 30 years in the Senate, I cannot begin to tell you 
what a sense of confidence and comfort it is to know that there 
are people like Bob Casey and Jeff Merkley who are going to be 
here, I hope, for a long time, who care deeply about the 
issues, have brought, just in the short time they have been 
here, tremendous interest and support for these efforts. So I 
leave with a great sense of comfort knowing that there are 
going to be people here who will continue the efforts, as there 
were before I arrived in the Senate, people like Hubert 
Humphrey and George McGovern. Bob Dole did a lot of work on 
nutrition issues with children over the years. So this has been 
a continuum over the years that people have made an effort. And 
as I said a little while ago, nothing, no set of issues have 
given me a greater sense of joy or pleasure to work on over the 
past 3 decades than this cluster of issues, but I am very 
comfortable knowing that there are some people sitting at this 
very dais who are going to carry on the effort. So I thank both 
of you very much for your efforts.
    Let me introduce our witnesses, and then I will ask you to 
try and keep your remarks, if you can, somewhere--I am not gong 
to gavel people down. Obviously, this is important. But do not 
filibuster like Senators are inclined to do, and we may get 
through the hearing here this morning.
    Dr. Cecilia Rouse currently serves as a member of the 
Council of Economic Advisers, received her doctorate in 
economics from Harvard, currently on leave from Princeton 
University where she is a Theodore Wells Class of 1929, I guess 
it is in the title of this thing, Professor of Economics and 
Public Affairs. She has been a senior editor of the future of 
children in the Journal of Labor Economics and served on the 
National Economic Council under President Clinton from 1998 to 
1999, and her research focuses on labor economics and the 
economics of education. We thank you for being with us.
    Seth Harris, whom I have known for a long time, is the 
Deputy Secretary of Labor, the 11th person to hold this 
position since it was created in 1986. Mr. Harris served as a 
professor of law at the New York Law School and director of its 
labor and employment law programs. During this time, he was the 
senior fellow at the Life Without Limits Project of the United 
Cerebral Palsy Association and a member of the National 
Advisory Commission on Workplace Flexibility. He graduated from 
NYU where he was editor-in-chief of the Law Review as well.
    David Hansell is the Acting Assistant Secretary for the 
Administration for Children and Families within the Department 
of Health and Human Services. Prior to his work at HHS, he 
served as the Principal Deputy Assistant Secretary at the 
Administration for Children and Families. He also served as 
commissioner of the New York State Office of Temporary and 
Disability Assistance and as chief of staff of the New York 
City Human Resources Administration. He is also a graduate of 
Yale Law School in my hometown of Connecticut. You are very 
familiar with Yale Child Study Center, I presume, as well.
    Dr. Thelma Melendez is the Assistant Secretary for 
Elementary and Secondary Education. In that capacity, she 
serves as the principal advisor to the U.S. Secretary of 
Education on all matters related to pre-K, elementary, and 
secondary education. She earned her doctorate from the 
University of Southern California where she was in the Rossier 
School of Education program, specializing in language literacy 
and learning. Prior to arriving at the Department of Education, 
Dr. Melendez served as the superintendent of the Pomona Unified 
School District in California.
    And Dr. Howard Koh is the Assistant Secretary for Health at 
the Department of Health and Human Services. In that role, Dr. 
Koh oversees the HHS Office of Public Health and Science, the 
commissioned corps of the U.S. Public Health Service in the 
Office of the Surgeon General. He also serves as the senior 
public health advisor to the Secretary. And in keeping with the 
great tradition of the panel, Dr. Koh is also a graduate of 
Yale College and the Yale School of Medicine. You are beginning 
to think there is some pattern in all of this.
    [Laughter.]
    And I would be remiss if I did not point out that his 
brother is a great friend of mine as well and is actively 
involved with the State Department. So, Dr. Koh, we thank you 
for joining us as well.
    And with that, let me turn to our witnesses. Again, I 
presume some of you may have supporting data for some of the 
testimony you are going to provide for us this morning. I will 
just make the unanimous consent that all supporting data and 
information and materials that you think would help give us a 
solid foundation on which to draw some conclusions in this 
committee will be included in the record as well.
    With that, Dr. Rouse, you are on.

  STATEMENT OF CECILIA ELENA ROUSE, Ph.D., MEMBER, COUNCIL OF 
               ECONOMIC ADVISERS, WASHINGTON, DC

    Ms. Rouse. Good morning, Chairman Dodd, Senators Merkley 
and Casey. I am very pleased to represent the Council of 
Economic Advisers this morning at this important hearing, and I 
thank you very much for your strong commitment to improving the 
lives of children and their families.
    In my written testimony, I document the status of children 
in America in three areas: economic status, health, and 
education. To the extent possible, I assembled data that 
reflect their status since the beginning of the recession, 
although at this point such data are often unavailable.
    Let me begin with trends in economic status. Between 1990 
and 2007, expansions in the economy brought increases in family 
income and with that decreases in the percentage of children 
living below the poverty level. Along many dimensions, the 
biggest gains over the past 20 years occurred during the 
economic expansion of the 1990s. The bottom line is that a good 
economy is good for everyone, especially children.
    Unfortunately, the recent recession has had a negative 
impact on this progress. The median income for families with 
children has decreased, and as a result, the percentage of 
children living in poverty has also increased. In 2008, the 
most recent data available, 19 percent of children lived in 
poverty and 8.5 percent, or over 6 million, lived in extreme 
poverty.
    As far as child health is concerned, there has been 
progress in some dimensions such as rates of infant mortality, 
exposure to environmental hazards, and health insurance 
coverage largely due to the Children's Health Insurance 
Program.
    Unfortunately, trends in the area of childhood diseases 
offer a more mixed picture. The percentage of children with 
cavities, the most common chronic disease among children, has 
declined, but the prevalence of asthma has increased.
    Most importantly, the rate of childhood obesity has 
increased significantly. In the late 1970s, 5.5 percent of 
children were considered obese. Today that number has increased 
to 17 percent. And unfortunately, childhood obesity has been 
associated with a variety of immediate and future health 
problems. Many of the future health problems stem from the fact 
that these obese children are more likely to become obese 
adults. A recent estimate suggests that overall obesity is 
responsible for almost 10 percent of total annual medical 
expenditures, or nearly $150 billion per year. The direct 
medical costs of obesity have been estimated to be similar in 
magnitude to those associated with smoking.
    Finally, I document that along some dimensions, U.S. 
student educational achievement has improved. However, the 
level of achievement is not nearly as impressive. Proficiency 
on national tests is low and our standings in international 
comparisons have slipped.
    So what has been and what will likely be the impact of the 
recession on well-being of American children? A vast academic 
literature has generally found that children from wealthier 
families have higher educational attainment, are healthier, and 
are more likely to go on to have successful labor market 
outcomes than their poorer counterparts. Given this 
relationship, the impact of the current recession on children 
is of great concern. While it is too early to know for certain, 
by all expectations it will set us back.
    Recognizing that my colleagues will speak about many of the 
Federal Government's efforts in several initiatives supported 
by the administration, I would like to briefly underscore four 
areas that I believe are important for improving the well-being 
of children.
    First, given the importance of family circumstances on 
child well-being, an important short-run change is a solid and 
timely economic recovery. This is why the HIRE Act and 
extension of unemployment benefits were so important.
    In addition, the President has continued to call for 
additional support for small businesses, as well as for funding 
to help retain teachers.
    Second, with the alarming increase in childhood obesity, it 
is important that we find a way to improve nutrition and 
healthy lifestyles among American children. A notable step is 
to expand and improve the Federal nutrition program. In 
addition, the First Lady's Let's Move! campaign calls upon 
everyone who has an effect on children's health to act together 
to end the epidemic of childhood obesity within a generation.
    Third, the competitiveness of the U.S. economy depends on 
the productivity of its workers. The Federal Government's 
investments in education and training have moved in the right 
direction. Further, reauthorizations of the Elementary and 
Secondary Education Act and the Workforce Investment Act, as 
well as making the Early Learning Challenge Fund a reality, 
will enable the Federal Government to continue these efforts.
    Finally, one of the biggest changes that impacts the lives 
of children is that an increased proportion are raised in 
households in which all parents work in the labor market. While 
many employers have adapted to the changing family 
circumstances of U.S. workers by providing flexibility in the 
workplace, too many do not. Wider adoption of such practices 
may well benefit more firms' workers in the U.S. economy as a 
whole, including children whose parents can more fully attend 
to their health care, schooling, and other needs.
    The Federal Family and Medical Leave Act was a historic 
first step toward helping workers balance the responsibilities 
to their families, as well as to their employers. As of 2007, 
82 percent of all workers in the private sector had access to 
unpaid family leave. We very much appreciate your leadership, 
Senator Dodd, on the FMLA, and the Administration supports 
further efforts in this area.
    In sum, the well-being of children has improved along many 
dimensions over the past 2 to 3 decades. While it has improved, 
there is still work to be done especially in light of the 
recent recession. The Federal Government has played and must 
continue to play a significant role in maintaining and 
accelerating progress. Such efforts include sound economic 
strategies that enable parents to provide for their children, 
improved access to quality health care, and high quality 
education from cradle to career. These investments are critical 
as our future prosperity depends on ensuring that American 
children from all backgrounds have the opportunity to become 
productive workers.
    Thank you for your dedication to these issues and for 
holding this important hearing. I would be happy to address any 
questions that you may have.
    [The prepared statement of Ms. Rouse follows:]

            Prepared Statement of Cecilia Elena Rouse, Ph.D.

    Good afternoon Chairman Dodd, Ranking Member Alexander, and 
distinguished members of the subcommittee.
    I am very pleased to represent the Council of Economic Advisers 
(CEA) at this important hearing and thank you for your strong 
commitment to improving the lives of children and their families. I 
focus my remarks on documenting the status of children in America in 
three areas: economic status, health, and education. To the extent 
possible, I have assembled data that reflect their status since the 
beginning of this recession although at this point such data are often 
unavailable. I conclude by suggesting four areas in which it is 
particularly important to bring change in order to improve the well-
being of children.
    The bottom line is that a good economy is good for the well-being 
of all, and especially children. Along many dimensions, the biggest 
gains over the past 20 years occurred during the economic expansion of 
the 1990s, as poverty rates in families with children dropped 
dramatically as did some important measures of health, such as rates of 
infant mortality. Given the link between the economy and child well-
being, we must remain vigilant to maintain these gains in the wake of 
the recent recession, as investments in children are investments in the 
future prosperity of America.

                    THE STATE OF CHILDREN IN AMERICA

Trends in Economic Status
    Between 1990 and 2007, U.S.-real gross domestic product grew at an 
average annual rate of 3.0 percent, and unemployment averaged 5.4 
percent; growth was particularly strong during the 1990s. Not 
surprisingly, the resources available to children improved during this 
time as family incomes also rose. As evidence, the median income of 
families with children increased by 12 percent during this period 
fueled by an increase of 16 percent between 1990 and 2000. Consistent 
with this economic growth, the percentage of children living below the 
poverty level decreased from 21 percent to 18 percent between 1990 and 
2007, as shown in Table 1.\1\
---------------------------------------------------------------------------
    \1\ The official poverty measure estimates poverty rates by 
comparing a household's cash income to a threshold that accounts for 
family size and inflation. Noncash benefits, such as food stamps, are 
not included as income.
---------------------------------------------------------------------------
    Unfortunately, the recent recession has had a negative impact on 
this progress. In 2008, the median income for families with children 
decreased by 2.3 percent from the previous year and the percentage of 
children living in poverty increased to 19 percent. Moreover, 8.5 
percent of children (over 6 million) lived in extreme poverty (defined 
as having family income less than 50 percent of the poverty threshold). 
The percentage of children in food-insecure households jumped to 22.5 
percent in 2008, up from 16.9 percent in 2007, and is the highest 
percentage since data collection began in 1995.\2\ According to the 
2010 KIDS COUNT Data Book recently released by the Annie E. Casey 
Foundation, most experts expect the child poverty rate to increase 
significantly over the next several years.\3\
---------------------------------------------------------------------------
    \2\ A household is defined as ``food-insecure'' if it was unable at 
times to acquire adequate food for active, healthy living for all 
household members due to insufficient money or other resources for 
food.
    \3\ Annie E. Casey Foundation. 2010 KIDS COUNT Data Book: State 
Profiles of Child Well-Being. 2010.
---------------------------------------------------------------------------
Trends in Child Health
    Before the recession the United States had also witnessed 
improvements in child health along many dimensions. For example, the 
rate of infant mortality--which serves as an important indicator of the 
health of a nation as it reflects a number of other measures, including 
maternal health, quality of healthcare, and socioeconomic conditions--
decreased from 9.2 infant deaths per 1,000 live births in 1990 to 6.7 
in 2007. Similarly, the proportion of children covered by health 
insurance increased from 87 percent in 1990 to 89 percent in 2007 (see 
Table 1).
    Progress has also been made in reducing the impact of environmental 
hazards, such as lead poisoning and unsafe drinking water, on child 
health over the past two decades. Lead poisoning can cause a multitude 
of health problems from learning disabilities and behavioral problems 
to seizures, coma, and death. Young children and children living below 
the poverty line in older housing are particularly at risk. 
Fortunately, blood lead levels have decreased in recent decades; for 
example, the percentage of young children (ages 1-5) with more than 10 
micrograms of lead per deciliter of blood dropped from 8.6 percent 
between 1988 and 1991 to 1.4 percent between 1999 and 2004.\4\ Access 
to safe drinking water is another important environmental measure of 
health since children are especially sensitive to certain contaminants 
in drinking water, which have the potential to cause illness, 
developmental disorders, and cancer. The positive news is that the 
percentage of children served by community water systems that did not 
meet all applicable health-based drinking water standards has dropped 
from 18 percent in 1993 to 6 percent in 2008, although estimates have 
fluctuated during that time period.
---------------------------------------------------------------------------
    \4\ Jones, Robert L., et al. ``Trends in Blood Lead Levels and 
Blood Lead Testing Among U.S. Children Aged 1 to 5 Years, 1988-2004.'' 
Pediatrics (March 2009): E376-85.
---------------------------------------------------------------------------
    While there has been some progress in terms of child health over 
the past 20 years, trends in the area of childhood diseases offer a 
more mixed picture. The most common chronic disease among children is 
dental caries (cavities). And, the percentage of children (ages 5-17) 
with untreated cavities has declined from 24.3 percent in the late 
1980s and early 1990s to 16.3 percent in more recent years. In 
contrast, the prevalence of asthma, another very common chronic 
childhood disease, increased in past decades (1980s and 1990s). More 
recent data show that in 2008, 9.5 percent of children (under 18) had 
asthma, an increase from 8.8 percent in 2001.
    Asthma is a major cause of childhood disability and can be very 
burdensome in terms of both medical and indirect costs. For example, in 
2003, 12.8 million school days were missed due to asthma among those 
who reported at least one asthma attack in the previous year.\5\ In 
addition, even after controlling for higher asthma prevalence, minority 
children have much greater rates of adverse outcomes, which include 
emergency department visits, hospitalizations, and death.\6\
---------------------------------------------------------------------------
    \5\ Akinbami, Lara J. ``The State of Childhood Asthma, United 
States, 1980-2005.'' Advance Data from Vital and Health Statistics, no. 
381 (2006). Hyattsville, MD: National Center for Health Statistics.
    \6\ Akinbami, Lara J., et al. ``Status of Childhood Asthma in the 
United States, 1980-2007.'' Pediatrics, American Academy of Pediatrics 
(March 2009): S131-45.
---------------------------------------------------------------------------
    Depression is another important medical condition with 8.3 percent 
of youth (ages 12-17) reporting at least one ``major depressive 
episode'' in the past year in 2008. Depression negatively impacts 
development and well-being of adolescents; however, not all youth are 
affected equally.\7\ For example, in 2008, female adolescents were 
almost three times as likely as males to have had a major depressive 
episode in the past year. The prevalence of this condition among all 
youth has not changed in recent years.
---------------------------------------------------------------------------
    \7\ Federal Interagency Forum on Child and Family Statistics. 
America's Children in Brief: Key National Indicators of Well-Being, 
2010. Washington, DC: U.S. Government Printing Office. July 2010.
---------------------------------------------------------------------------
    Most importantly, the rate of childhood obesity has increased 
significantly from the past. Child obesity is defined as a body mass 
index (BMI) at or above the 95th percentile for children of the same 
age and sex. In the second half of the 1970s, 5.5 percent of children 
(ages 2-19) were considered obese. This proportion increased to 17 
percent of children in the most recent data available (2007-8). When 
including overweight children (with a BMI between the 85th and 94th 
percentiles), this number nearly doubles to 32 percent.\8\ Childhood 
obesity has been associated with a variety of immediate and future 
health problems including high cholesterol and high blood pressure, 
both risk factors for cardiovascular disease, as well as asthma, 
diabetes, and psychological stress such as low self-esteem.
---------------------------------------------------------------------------
    \8\ Ogden, Cynthia L., et al. ``Prevalence of High Body Mass Index 
in U.S. Children and Adolescents, 2007-8.'' Journal of American Medical 
Association 303, no. 3 (2010): 242-49.
---------------------------------------------------------------------------
    Researchers estimate that direct medical costs for children with 
elevated BMI are estimated to be $3 billion per year.\9\ In addition, 
many of the future health problems stem from the fact that obese 
children are more likely to become obese adults. And, obesity across 
all age groups is costly in terms of both direct medical costs and 
indirect costs that arise from losses in productivity, absenteeism, and 
premature death. Estimates suggest that obesity is responsible for 
almost 10 percent of total annual medical expenditures, or about $147 
billion per year in 2008.\10\ Another study found that between 1987 and 
2001, increases in the proportion of, and spending on, obese people 
relative to people of normal weight account for 27 percent of the rise 
in inflation-adjusted per capita spending.\11\ Conservative estimates 
find that the direct medical costs of obesity are similar in magnitude 
to those associated with smoking.\12\
---------------------------------------------------------------------------
    \9\ Trasande, Leonardo, and Samprit Chatterjee. ``Corrigendum: The 
Impact of Obesity on Health Service Utilization and Costs in 
Childhood.'' Obesity 17, no. 9 (2009): 1473.
    \10\ Finkelstein, Eric A., et al. ``Annual Medical Spending 
Attributable to Obesity: Payer- and Service-Specific Estimates.'' 
Health Affairs (2009): W822-31.
    \11\ Thorpe, Kenneth E., et al. ``Trends: The Impact of Obesity on 
Rising Medical Spending.'' Health Affairs (2004): W4-480-6.
    \12\ Stein, Cynthia J., and Graham A. Colditz. ``The Epidemic of 
Obesity.'' Journal of Clinical Endocrinology & Metabolism (2004): 2522-
25.
---------------------------------------------------------------------------
                          TRENDS IN EDUCATION

    Along some dimensions U.S.-student achievement has improved over 
the past 30 years, particularly as measured by the National Assessment 
of Education Progress (NAEP), the Nation's Report Card. For example, as 
shown in Figure 1, the performance of 9-year-olds (who are typically 
enrolled in 4th grade) and 13-year-olds (typically 8th grade) improved 
in mathematics between 1978 and 2008. Nearly three-quarters of 13-year-
olds in 2008 scored above the 1978 median, with similar gains 
throughout the distribution. The performance of 17-year-olds (typically 
12th graders) has also improved, although the gain was smaller.
    Despite this progress, the level of achievement is not nearly as 
impressive. In the most recent tests, only 32 percent of 8th graders 
were proficient in reading and only 34 percent in math, where a student 
is deemed ``proficient'' if he or she demonstrates age- or grade-
appropriate competency over challenging subject matter and shows an 
ability to apply knowledge to real-world situations.\13\
---------------------------------------------------------------------------
    \13\ National Assessment of Educational Progress. ``The Nation's 
Report Card: Grade 8 National Math and Reading Achievement Levels.'' 
2009.
---------------------------------------------------------------------------
    This low level of attainment, which is observed at both the 
secondary and post-secondary levels, is underscored in international 
comparisons. Among the cohort born between 1943 and 1952 (that largely 
completed its education by the late 1970s), the United States has the 
highest percentage with at least a bachelor's degree (or the 
equivalent) compared to other developed nations. However, that 
percentage has not grown in the United States while increasing 
substantially in other countries. The OECD data suggest that only 40 
percent of Americans born between 1973 and 1982 have completed 
associate's degrees or better which is lower than that in 11 other 
countries (led by Canada and Korea, where up to 56 percent completed 
some post-secondary degree or extended certificate program).\14\ High 
school graduation rates show a similar pattern as the United States has 
slipped from the top to the middle in recent cohorts.
---------------------------------------------------------------------------
    \14\ Organisation for Economic and Co-operation and Development. 
``Education at a Glance.'' 2009.
---------------------------------------------------------------------------
    These relatively low rates of educational attainment have costs to 
both the individual and to society. As one example, individuals who 
have not graduated from high school earn less than those with a high 
school degree and are significantly less likely to be employed at a 
stable full-time job or one that pays benefits much less at all. As a 
result of their relatively poorer labor market prospects, these workers 
contribute less in taxes and are more likely to draw on public 
assistance. By one estimate, high school dropouts earn approximately 
$300,000 less over their lifetime than high school graduates (with no 
further education and in present discounted value terms) and contribute 
about $70,000 less in taxes.\15\
---------------------------------------------------------------------------
    \15\ The figures in the text have been inflated to 2009 dollars. 
Rouse, Cecilia E. ``Consequences for the Labor Market.'' In The Price 
We Pay: Economic and Social Consequences of Inadequate Education, 
edited by Clive Belfield & Henry M. Levin, pp. 99-124. Washington, DC: 
Brookings Institution Press, 2007.
---------------------------------------------------------------------------
    And so there is work to be done to strengthen the education and 
training of American workers and as we do so, it is important to 
emphasize that the task of improving later educational outcomes begins 
before elementary school. School readiness which involves both 
cognitive skills--as measured by vocabulary size, complexity of spoken 
language, and basic counting--and social and emotional skills--such as 
the ability to follow directions and self-regulate--is critical to 
later educational and labor market success. Children who arrive at 
kindergarten without these skills lack the foundation on which later 
learning will build. And yet relatively recent research indicates that 
as many as 45 percent of entering kindergartners are ill-prepared to 
succeed in school.\16\ Because investments in the youngest members of 
U.S. society generate better-prepared students and healthier workers 
that earn higher wages, economists have estimated that the long-run 
benefits outweigh the costs of a high-quality pre-school. Steven W. 
Barnett and Leonard N. Masse estimate that a dollar investment in one 
program produced $2.50 in long-run savings for taxpayers.\17\ James 
Heckman, Nobel Laureate in Economics, and his colleagues estimated even 
higher savings of $7 from another program.\18\
---------------------------------------------------------------------------
    \16\ Hair, Elizabeth, et al. ``Children's School Readiness in the 
ECLS-K: Predictions to Academic, Health, and Social Outcomes in First 
Grade.'' Early Childhood Research Quarterly 21, no. 4 (2006): 431-54.
    \17\ Barnett, W. Steven, and Leonard N. Masse. ``Comparative 
Benefit-Cost Analysis of the Abecedarian Program and Its Policy 
Implications.'' Economics of Education Review 26, no. 1 (2007): 113-25.
    \18\ Heckman, James J., et al. ``The Rate of Return to the High/
Scope Perry Preschool Program.'' Mimeo, University of Chicago. April 
2009.
---------------------------------------------------------------------------
THE IMPACT OF FAMILY CIRCUMSTANCES ON CHILD WELL-BEING AND IMPLICATIONS 
              FOR THE IMPACT OF THE RECESSION ON CHILDREN

    A vast academic literature has attempted to explain the role of 
family economic resources on child well-being and has generally found 
that children from more advantaged families have better outcomes than 
those from less advantaged backgrounds. Children from wealthier 
families have higher educational attainment, are healthier, and are 
more likely to go on to have successful labor market outcomes than 
their poorer counterparts.
    More specifically, studies have found that income is associated 
with a number of education-related outcomes such as a child's cognitive 
abilities and school achievement. One study found that children in 
families with incomes below 50 percent of the poverty line scored 
significantly lower on a set of cognitive tests than children in 
families with incomes at 150-200 percent of the poverty line.\19\ 
Another study estimated that on average, children who had experienced 
poverty during some or all of their adolescence completed between 1.0 
and 1.75 fewer years of schooling than children who had not.\20\ 
Similarly, proficiency rates on the NAEP assessments are much lower for 
those whose family incomes make them eligible for a free or reduced-
price lunch, as shown in Figure 2. The low achievement in these 
subgroups is also reflected in low attainment as measured by high 
school completion, college enrollment, and college completion.
---------------------------------------------------------------------------
    \19\ Smith, Judith R., Jeanne Brooks-Gunn, and Pamela K. Klebanov. 
``The Consequences of Living in Poverty for Young Children's Cognitive 
and Verbal Ability and Early School Achievement.'' In Consequences of 
Growing Up Poor, edited by Greg J. Duncan and Jeanne Brooks-Gunn, pp. 
132-39. New York: Russell Sage Foundation, 1997.
    \20\ Teachman, J.D., et al. ``Poverty during Adolescence and 
Subsequent Educational Attainment.'' In Consequences of Growing Up 
Poor, edited by Greg J. Duncan and Jeanne Brooks-Gunn, pp. 382-418. New 
York: Russell Sage Foundation, 1997.
---------------------------------------------------------------------------
    There is a similar relationship between family circumstances and 
health outcomes. For example, researchers in one study that controlled 
for maternal education and family structure found that children in 
families facing long-term poverty had more behavioral problems than 
children who had never dealt with poverty.\21\ In another, average 
blood lead levels were found to be 60 percent higher for children (ages 
1-5) in lower-income families than for those in higher-income 
families.\22\ Similarly, poverty remains a significant factor in the 
prevalence of cavities with 26 percent of children in poverty having 
untreated cavities compared to just 11.8 percent of children with 
family incomes at or above 200 percent of the poverty threshold.
---------------------------------------------------------------------------
    \21\  Duncan, Greg. J., Jeanne Brooks-Gunn, and Pamela K. Klebanov. 
``Economic Deprivation and Early-Childhood Development.'' Child 
Development 65 (1994): 296-318.
    \22\ Jones (2009).
---------------------------------------------------------------------------
    Given the relationship between family circumstances and child well-
being, of great concern is the impact of the current recession on 
children. Since December 2007, total private employment decreased by 
7.9 million, and the current unemployment rate remains unacceptably 
high at 9.5 percent. Children have also been adversely affected as the 
percentage of children living in a household with at least one 
unemployed parent more than doubled between 2007 and 2009 such that now 
1 in 10 children live in a household with at least one unemployed adult 
(see Figure 3). Further, over 2 million homes were foreclosed in 2008 
and the number of people in families that were homeless rose by 9 
percent that year. According to one study, more than 450 school 
districts had an increase of at least 25 percent in the number of 
homeless students between the 2006-7 and 2007-8 school year \23\ In the 
2008-9 school year, the U.S. Department of Education reported a 20 
percent increase in the number of homeless students.\24\
---------------------------------------------------------------------------
    \23\ Duffield, Barbara and Phillip Lovell. ``The Economic Crisis 
Hits Home: The Unfolding Increase in Child & Youth Homelessness.'' 
National Association for the Education of Homeless Children and Youth 
(December 2008).
    \24\ United States Interagency Council on Homelessness. ``Opening 
Doors: Federal Strategic Plan to Prevent and End Homelessness.'' 2010.
---------------------------------------------------------------------------
    While it is too early to know for certain the impact of this 
recession on children, by all expectations, it will set us back. 
Homeless children are, generally speaking, more likely to suffer from 
health and mental health problems and to perform poorly in school, than 
children in stable housing.\25\ Job loss not only affects the workers 
who lost their jobs, but also has a lasting impact on their children. 
In one important study, economists followed the lives of children whose 
fathers lost their jobs due to plant closings and those whose fathers 
had not been displaced. The researchers found that, as adults, the 
annual earnings of children whose fathers had been displaced were 9 
percent lower than those whose fathers had not been displaced; they 
were also 3 percentage points more likely to ever receive public 
assistance.\26\
---------------------------------------------------------------------------
    \25\ Duffield and Lovell (2008).
    \26\ Oreopolous, Philip, Marianne Page, and Ann H. Stevens. ``The 
Intergenerational Effects of Worker Displacement.'' Working Paper 
11587. Cambridge, MA: National Bureau of Economic Research (August 
2005).
---------------------------------------------------------------------------
    The recession also has had a negative impact on older youth: the 
unemployment rate for youth (ages 16-24) was 18.2 percent last month, 
nearly double the national unemployment rate. This weak labor market 
will likely adversely impact their future labor market outcomes as 
well. One study found that students who graduated during a recession 
experienced persistent lower wages than those who graduated during 
better times.\27\ Specifically, a 1 percentage point increase in the 
national unemployment rate decreased initial wages by 6 percent. Even 
10 years after graduation, the wage loss was still present at 4 
percent. I note that this difficulty that young adults are having 
gaining exposure to the world of work, is one reason that the President 
has joined with Members of Congress to support funding for summer youth 
employment.
---------------------------------------------------------------------------
    \27\ Kahn, Lisa. ``The Long-Term Labor Market Consequences of 
Graduating from College in a Bad Economy.'' Mimeo, Yale University. 
August 2009.
---------------------------------------------------------------------------
    Given the current length of this recession, it is important to look 
not only at impacts of transitory poverty but also at the impact of 
longer-term poverty on child well-being. Persistent poverty status 
affects a plethora of outcomes, ranging from adult earnings to criminal 
behavior to health. Researchers estimate that the total difference in 
lifetime earnings between children who lived in persistent poverty and 
children who did not amounts to about 1.3 percent of 2008 GDP.\28\ 
Children living in poverty are more likely to be involved in criminal 
activity, which will cost society at least $170 billion annually. And 
due to the incidence of poor health in poorer children, direct 
expenditures on health care are estimated to cost an additional $22 
billion a year.
---------------------------------------------------------------------------
    \28\ Holzer, Harry J., et al. ``The Economic Costs of Childhood 
Poverty in the United States.'' Journal of Children and Poverty 14, no. 
1 (2008): 41-61.
---------------------------------------------------------------------------
    While family income plays a big role in these adverse outcomes, 
there are also indirect channels through which the recession will 
affect children. For example, one study found that job loss is 
associated with increased divorce rates.\29\ Children in unstable 
families have poorer school performance and increased behavioral 
problems, and unemployment can also cause stress for parents, which can 
affect their behavior with their children.\30\ This, in turn, can 
affect children's emotional adjustment.\31\
---------------------------------------------------------------------------
    \29\ Charles, Kerwin K., and Melvin Stephens, Jr. ``Job 
Displacement, Disability, and Divorce.'' Working Paper 8578. Cambridge, 
MA: National Bureau of Economic Research (November 2001).
    \30\ Cavanagh, Shannon, and Aletha C. Huston. ``Family Instability 
and Children's Early Problem Behavior.'' Social Forces 85, no. 1 
(2006): 551-81; Morris, Pamela, Greg J. Duncan, and Christopher 
Rodrigues.``Does Money Really Matter? Estimating Impacts of Family 
Income on Children's Achievement with Data from Random-Assignment 
Experiments.'' Unpublished manuscript, Northwestern University 
(February 2004).
    \31\ Kalil, Ariel. ``Unemployment and job displacement: The impact 
on families and children.'' Ivey Business Journal (July/August 2005).
---------------------------------------------------------------------------
    Finally, it is important to highlight one indicator of child well-
being that, thanks to the Federal Government, has not suffered during 
the recession--health insurance coverage for children. Given that over 
one-half of Americans obtain their health insurance through their 
employer, hard economic times can bring increases in the numbers of 
children without health insurance coverage. Not surprisingly, the 
proportion of children covered by private health insurance has 
continued to decrease since the start of the recession. Fortunately, 
the increase in the proportion of children covered by public health 
insurance more than compensated for the decline in private insurance. 
According to the Census Bureau, about 10 percent of children were 
without health insurance in 2008. A more recent estimate from the 
National Health Interview Survey suggests that in 2009, 8.2 percent of 
children were without health insurance, the lowest level on record. 
These positive developments will continue as a result of the historic 
expansion of the Children's Health Insurance Program, which extended 
coverage to 2.6 million additional children in fiscal year 2009, and 
the Patient Protection and Affordable Care Act of 2010, which will end 
limits on pre-existing conditions, extend the period of time during 
which children can stay on their parents' health insurance, and make 
health insurance more affordable for all.

             WHAT HAS TO CHANGE FOR CHILDREN TO DO BETTER?

    Recognizing that my colleagues will speak about many of the Federal 
Government's efforts and several initiatives supported by the 
Administration, I would like to underscore four general areas that I 
believe are important for improving the well-being of children.
A Speedy Economic Recovery
    First, given the importance of family circumstances on child well-
being, an important short-run change is a solid and timely economic 
recovery. The CEA estimates that by the middle of the second quarter of 
2010, the American Recovery and Reinvestment Act of 2009 (ARRA) had 
raised the level of real GDP by 2.7 to 3.2 percent and the level of 
employment by 2.5 to 3.6 million relative to what they would have been 
without it.\32\ However, unemployment remains at 9.5 percent, and 
recent economic data indicate that while a recovery is starting to take 
place, much stronger job gains are needed to put the millions of 
Americans who have lost their jobs since the start of this recession 
back to work. This is why the HIRE Act, the jobs tax credit that 
provides an incentive for small businesses to hire unemployed workers, 
is so important to this economy, as is extension of unemployment 
benefits. In addition, the President has continued to call for 
additional support for small businesses as well as for additional 
funding to help retain teachers as we head into the next school year. 
When parents have jobs that provide the resources to put nutritious 
food on the table and a safe and stable place to live, it is reflected 
in the well-being of their children.
---------------------------------------------------------------------------
    \32\ Council of Economic Advisers. ``The Economic Impact of the 
American Recovery and Reinvestment Act of 2009, Fourth Quarterly 
Report.'' July 2010.
---------------------------------------------------------------------------
A Commitment to Healthy Children
    Second, with the alarming increase in childhood obesity and the 
associated health and economic consequences that ensue, it is important 
that we find a way to improve nutrition and healthy lifestyles among 
American children. A notable step is to expand and improve the Federal 
nutrition program. Two bills currently awaiting floor votes--the 
Healthy, Hunger-Free Kids Act in the Senate and the Improving Nutrition 
for America's Children Act in the House--aim to increase children's 
access to healthier meals by providing additional funds to child 
nutrition programs, including the National School Lunch Program. The 
improved child nutrition program will not only assist schools in 
meeting meal requirements and enrolling eligible children but also 
support nutrition education in schools to promote healthy eating 
habits. In addition, the First Lady's Let's Move! campaign calls upon 
everyone who has an effect on children's health (from parents to 
teachers to political leaders) to act together to end the epidemic of 
childhood obesity within a generation. To assist in achieving this 
goal, a White House Task Force on Childhood Obesity was established by 
the President and is implementing a series of 70 recommendations.

A Commitment to a World-Class Education
    Third, the competitiveness of the U.S. economy depends on the 
productivity of its workers. A growing share of jobs requires workers 
with greater analytical and interactive skills, which are typically 
acquired with some post-secondary education. And yet students cannot 
succeed in post-secondary education and training programs if they are 
ill-prepared. While the current U.S. education and training system has 
been shown to provide valuable labor market skills to participants, it 
could be more effective at encouraging completion and responding to the 
needs of the labor market. As detailed in the CEA report, ``Preparing 
the Workers of Today for the Jobs of Tomorrow,'' a comprehensive 
strategy must include a solid early childhood, elementary, and 
secondary system that ensures students have strong basic skills; 
institutions and programs that have goals that are aligned and 
curricula that are cumulative; close collaboration between training 
providers and employers to ensure that curricula are aligned with 
workforce needs; flexible scheduling, appropriate curricula, and 
financial aid designed to meet the needs of students; and incentives 
for institutions and programs to continually improve and innovate; and 
accountability for results.\33\
---------------------------------------------------------------------------
    \33\ Council of Economic Advisers. ``Preparing the Workers of Today 
for the Jobs of Tomorrow.'' (July 2009).
---------------------------------------------------------------------------
    The Federal Government's investments in these areas have moved in 
the right direction particularly with some of the innovative 
investments in the ARRA and the Health Care and Education 
Reconciliation Act of 2010. The Reauthorizations of the Elementary and 
Secondary Education Act of 1965 and the Workforce Investment Act will 
enable the Federal Government to continue these efforts so that the 
U.S. education and training system can once again be first in the 
world. The Administration also remains committed to working with 
Congress to make the Early Learning Challenge Fund a reality. This 
proposal, if enacted, would challenge States to establish model systems 
of early learning and ensure that more children enter school ready to 
learn and succeed.

Workplaces That Recognize Changes in Family Economic Structure
    Finally, as documented in the CEA report, ``Work-Life Balance and 
the Economics of Workplace Flexibility,'' one of the biggest changes 
that impacts the lives of children is the growing participation of 
women in the labor force. For example, while in 1968, 48 percent of 
children were raised in households where the father worked full-time, 
the mother was not in the labor force, and the parents were married; by 
2008, only 20 percent of children lived in such households. As a 
result, an increased proportion of children are raised in households in 
which all parents work in the labor market (for single-parent 
households, this means that the one parent works; for two-parent 
households, both parents work). In 1968, 25 percent of children lived 
in households in which all parents were working full-time; 40 years 
later, that percentage had nearly doubled.\34\
---------------------------------------------------------------------------
    \34\ Council of Economic Advisers. ``Work-Life Balance and the 
Economics of Workplace Flexibility.'' (March 2010).
---------------------------------------------------------------------------
    In addition, compared with 1965, in 2003 women spent more time on 
market work and significantly less time on non-market work such as food 
preparation, kitchen cleanup, and washing clothes. For men, the 
patterns were reversed as they spent substantially fewer hours on 
market work and somewhat more hours on non-market work.\35\ With men 
and women both performing non-market and market work, often one or both 
of them need the ability to attend to family responsibilities such as 
taking children to doctors' appointments. And while many employers have 
adapted to the changing family circumstances of U.S. workers by 
providing flexibility in the work place (most commonly by allowing 
workers to periodically change when they work), many do not.
---------------------------------------------------------------------------
    \35\ See Table II in Aguiar, Mark, and Erik Hurst. ``Measuring 
Trends in Leisure: The Allocation of Time Over Five Decades.'' 
Quarterly Journal of Economics 122, no. 3 (2007): 969-1006.
---------------------------------------------------------------------------
    While the costs and benefits of adopting flexible work arrangements 
vary by employer, the benefits of adopting such management practices 
can outweigh the costs by reducing absenteeism, lowering turnover, 
improving the health of workers, and increasing productivity. As such, 
to the extent employers may not have accurate information about the 
costs and benefits of these practices and because benefits may extend 
beyond the individual employer and its workers, wider adoption of such 
policies and practices may well benefit firms, workers, and the U.S. 
economy as a whole, including children whose parents can more fully 
attend to their health care, schooling, and other needs.

                               CONCLUSION

    While the well-being of children has improved along many dimensions 
over the past two to three decades, there is still work to be done 
especially in light of the recent economic recession. The Federal 
Government has played, and must continue to play, a significant role in 
maintaining and accelerating progress through improved access to sound 
economic strategies that enable parents to provide for their children, 
quality health care, and high quality education from cradle to career. 
These investments are critical as our future prosperity depends on 
ensuring that American children from all backgrounds have the 
opportunity to become productive workers.
    Thank you for your dedication to these issues and for holding this 
important hearing. I would be happy to address any questions that you 
may have.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Senator Dodd. Thank you very much, Dr. Rouse. It was very 
helpful.
    Mr. Harris, welcome.

        STATEMENT OF SETH D. HARRIS, DEPUTY SECRETARY, 
            U.S. DEPARTMENT OF LABOR, WASHINGTON, DC

    Mr. Harris. Mr. Chairman, Senators Casey and Merkley, thank 
you so much for inviting me to testify about the Labor 
Department's efforts to improve the lives of children in 
America.
    Mr. Chairman, it is a special honor and a distinct pleasure 
to reflect on your 30-year career as one of this Nation's 
leading advocates for America's workers and children. Because 
of your service, working parents and their children are more 
prosperous, they are healthier, and they live in a fairer 
world. You were motivated by a simple but fundamental 
principle: Workers do not merely work. They are people, whole 
people. And our workplace policies must value their 
contributions in the workplace while respecting the realities 
of their everyday lives. Workers' families need both their 
economic support and their loving care. Your dedication to this 
vision has helped to humanize the American workplace so that 
millions of workers can satisfy both of these needs.
    Mr. Chairman, your departure at the end of this Congress 
will mark the end of an era and a great loss for America. At 
the Labor Department, we share your values and we are committed 
to carrying on your work.
    Secretary Solis has laid out a simple and straightforward 
vision for the Labor Department: good jobs for everyone. Good 
jobs are found in safe and healthy workplaces. They provide 
opportunities to acquire the skills workers need for the jobs 
of the future and to ensure workplace flexibility for family 
and personal caregiving.
    Mr. Chairman, we believe this vision nicely reflects your 
life's work on behalf of working families. The Family and 
Medical Leave Act, which the Labor Department administers, has 
helped more than 50 million Americans balance the demands of 
work with the needs of their families and their own health. In 
doing so, the FMLA promoted the economic security of American 
working families. Mr. Chairman, without your hard work, as Dr. 
Rouse said, the FMLA would not have become the law of the land.
    While the FMLA is essential to workplace flexibility, you 
know well, Mr. Chairman, that the FMLA provides eligible 
workers only with unpaid job-protected leave, and many families 
simply cannot afford to miss a paycheck. The Obama 
administration has endorsed your Healthy Families Act to assure 
workers get at least 7 days of paid sick leave. This 
fundamental workplace standard will assure that workers can 
stay home if they or their children are sick and do so without 
fear of losing their job or income.
    As important as the rights protected by the FMLA are, they 
can be frustrated when a family cannot afford good quality 
health care. The Patient Protection and Affordable Care Act 
will completely change the quality of life for the millions of 
American families who live in fear of doctors' bills or a 
notice from the insurance company canceling their policy. 
Again, Mr. Chairman, your leadership was essential in getting 
this landmark health insurance reform law passed.
    Again, workers are pillars of our economy and their 
families. This is especially true for nearly 9 million working 
women who are also heads of household. Simply the financial 
health of families increasingly depends upon women. Both women 
and men must be able to secure their families' places in the 
middle class and this means that all workers must earn wages 
that can support a family. However, gender wage inequality 
stubbornly persists. For this reason, we thank you, Mr. 
Chairman, for championing the Paycheck Fairness Act.
    Good jobs for everyone includes assuring that young people 
have the skills they need to compete in the rapidly changing 
global economy. The Department administers several programs 
that benefit young adults entering the workforce. Under the 
Workforce Investment Act, the Department administers youth 
activities funds with our State and local partners that deliver 
job training, work experience, and job placement services to 
low-income youth who experience barriers to employment. Many 
eligible young people do not have basic skills and the 
population we serve frequently includes homeless youth, 
runaways, pregnant or parenting teens, ex-offenders, school 
dropouts, or foster children. These young people are, indeed, 
fortunate that you and your colleagues in the Senate fought to 
ensure that the Recovery Act included $1.2 billion or the WIA 
youth funds. This funding enabled more than 325,000 youth 
across the United States to experience employment during the 
summer of 2009.
    The Labor Department also prepares older children and young 
adults to become productive contributors to our economy through 
programs like Job Corps and Youth Build. By taking low-income 
youth and placing them on a career pathway with job training 
and support, the Department helps them lay the foundation for 
lifetime income security and, when they start families, a 
better future for their children.
    Mr. Chairman, I have only skated over the surface of the 
Labor Department's work on behalf of children. We enforce the 
FLSA's child labor protections. We support transitional jobs as 
part of the President's Fatherhood Initiative, among many other 
activities I would be delighted to talk about during Q&A.
    Let me close by saying, Mr. Chairman, your absence from the 
Senate will be a great loss for America's working families and 
children. In tribute to your legacy and in full recognition of 
the work yet to be done, we will fight to ensure that your 
vision of a humanized labor market and compassionate workplaces 
continues to guide the work of the Department of Labor.
    Thank you again for inviting me to testify today, and I 
look forward to our questions.
    [The prepared statement of Mr. Harris follows:]

                  Prepared Statement of Seth D. Harris

    Good morning Chairman Dodd, Ranking Member Alexander, and members 
of the subcommittee. Thank you for inviting me to testify about the 
Labor Department's role in improving the state of America's children.
    Mr. Chairman, it is my great honor and distinct pleasure to have 
this opportunity to reflect on your 30-year career as one of this 
Nation's leading advocates for America's workers and children. Because 
of your service, the lives of working parents and their children are 
more prosperous, healthier, and more fair. You have fought for the 
rights of women, minorities, children, and those whose voices are not 
always heard. These Americans may not know your name. But they know the 
products of your endeavors. And your efforts, very simply, have made 
their lives immeasurably better.
    Your impressive accomplishments in the House of Representatives and 
in the U.S. Senate were motivated by a simple but fundamental 
principle: workers don't merely work. They are more than economic 
inputs into America's economy or costs on an employer's ledger. They 
are people--whole people--and our workplace policies must value their 
contributions in the workplace while respecting the realities of their 
everyday lives. Workers are also parents, spouses, and adult children 
of aging parents. Their families need both their economic support and 
their loving care. Your dedication to this vision has helped to 
humanize the American labor market and American workplaces so that 
millions of workers can satisfy both of these needs. As you reminded 
your colleagues just a few years ago,

          ``When we talk about a more compassionate America, nowhere is 
        that more evident than in our caregiving leave policies. No one 
        should have to choose between work and family.''

    To that, Mr. Chairman, we would add only a resounding ``Amen.''
    Your departure at the end of this Congress will mark the end of an 
era and a great loss for America, but your work will live on. At the 
Labor Department, we share your values and we are committed to carrying 
on your work. We also fully expect that we will hear from you, even 
after your retirement, if we stray from the path you have laid out.
    On behalf of Secretary Solis, the 17,000 men and women of the U.S. 
Labor Department, and the millions of working Americans whom we serve, 
thank you for your outstanding leadership and service.

           SECRETARY SOLIS' VISION AND GOOD JOBS FOR EVERYONE

    Secretary Solis has laid out a simple and straightforward vision 
for the Labor Department: Good Jobs for Everyone. We are the Department 
of Good Jobs for Everyone. Good jobs can be found in safe and healthy 
workplaces, and in fair and diverse workplaces. Good jobs support a 
family by increasing incomes and narrowing the wage gap, while 
providing opportunities to acquire the skills and knowledge that 
workers will need for the jobs of the future, particularly in high-
growth and emerging industry sectors like ``green'' jobs. Good jobs 
help middle-class families remain in the middle class. They also 
provide upward mobility and a pathway to the middle-class for low-wage 
workers and those disenfranchised from the labor market. Good jobs 
facilitate the return to work for those individuals who experienced 
workplace injuries or illnesses and are able to work, while providing 
sufficient income and medical care for those who are unable to do so. 
Good jobs ensure that workers have a voice in their workplaces, and 
provide health care coverage and retirement security. And finally, good 
jobs provide workplace flexibility for family and personal care-giving. 
Mr. Chairman, we believe that this vision nicely reflects your life's 
work on behalf of working families.
    In the remainder of my testimony, I will discuss how Secretary 
Solis' vision of Good Jobs for Everyone seeks to address the concerns 
of working families and children from birth through the beginnings of 
adulthood. The Labor Department administers programs that help ensure 
good jobs for parents and, in doing so, provides access to a better 
childhood for their offspring. Simply put: children have the greatest 
opportunities when their parents can provide them with economic 
security and family stability. But the Labor Department also assures 
that children have the opportunity to acquire the education and develop 
the skills they need to become productive contributors in the new 
American economy and, in turn, the economic bulwarks for their 
families. Just as you have advised, Mr. Chairman, our goal and the goal 
of our partners in the agencies testifying here today is to help 
workers succeed as whole people, in the workplace and in the home.

   WORKPLACE FLEXIBILITY AND LEAVE: FAMILIES BALANCING LIFE'S DEMANDS

    The right to take job-protected leave to care for a child who is 
sick is absolutely essential to the concept of a ``good job.'' It 
recognizes the dual role that working parents play. The seemingly 
never-ending juggling act that parents face in trying to balance work 
life and family life begins as soon as a baby arrives, continues beyond 
that first call home a school nurse makes when a child has a fever or a 
broken bone, and remains when a call comes from a nursing home to 
resolve a health issue for an ailing parent. That is why one of the 
tenets of Secretary Solis' definition of Good Jobs for Everyone is that 
a good job ``provides workplace flexibility for family and personal 
care-giving.''
    You know better than anyone, Mr. Chairman, that the Family and 
Medical Leave Act (FMLA) provides this necessary flexibility. The 
passage of the FMLA was the most important legislative event of its 
time for the lives of working families. This landmark law gave working 
Americans the right to take unpaid leave to be there for their families 
when it counts: when a child, parent, or spouse has a serious illness, 
or when a baby is born or adopted. The FMLA has helped more than 50 
million Americans balance the demands of the workplace with the needs 
of their family and their own health, and in doing so promoted the 
financial stability and economic security of American working families. 
As President Clinton noted when he made FMLA the first legislation he 
signed into law, your bill set a long overdue standard of fairness in 
the workplace. Mr. Chairman, there can be no doubt that without your 
hard work and persistence, the FMLA would not have become the law of 
the land, and countless American workplaces would be void of the basic 
standard of fairness it mandates.
    The impact that the FMLA has on the health and well-being of our 
Nation's children cannot be overstated. More mothers and fathers have 
the opportunity to bond with their newborns. Employees recuperate more 
quickly and completely from illness resulting in greater productivity 
upon their return. Children are healthier, infection rates in childcare 
facilities decrease, and parents are less likely to postpone or skip 
their children's vaccination schedules all because their parents are 
provided job-protected sick leave.\1\
---------------------------------------------------------------------------
    \1\ Vicky Lovell, Ph.D., ``No Time To Be Sick: Why Everyone Suffers 
When Workers Don't Have Paid Sick Leave,'' Institute for Women's Policy 
Research, 2004.
---------------------------------------------------------------------------
    Guided by Secretary Solis, the Department of Labor has recommitted 
itself to the enforcement of the FMLA. The Department's Wage and Hour 
Division (WHD) ensures that workers' FMLA rights are protected. In one 
instance, WHD was able to successfully assist a working mother who was 
a manager at a Dollar General store near Houston, TX. She needed to 
leave from work for the birth of her child and notified her employer 2 
months before she was to give birth. The employer, however, failed to 
properly notify the employee of her rights and responsibilities under 
the FMLA, and subsequently terminated her employment while she was on 
leave for the birth of her child. Fortunately, a WHD investigator was 
able to recover several thousand dollars in back wages for this new 
mother. Such gross violations of the law are inexcusable and will not 
be tolerated.
    As you know, Mr. Chairman, family life is constantly changing, and 
the rules and regulations that govern workplace flexibility must keep 
pace. The Department is committed to ensuring that all working parents 
have the tools they need to balance work and family life--even if their 
families do not fit the ``traditional'' definition. The Department 
recently updated FMLA guidance to respond to the ever-increasing 
diversity in modern American families. Seventeen years after the 
enactment of the FMLA, the Wage and Hour Division published a new 
Administrator's Interpretation clarifying that the definition of a 
``son or daughter'' includes the concept of in loco parentis--that is, 
the person who has day-to-day responsibility for a child is entitled to 
take job-protected leave to care for that child who is seriously ill. 
Under this interpretation, the brother who receives a call in the 
middle of the night that his sister and her infant daughter have been 
in a serious car wreck; the woman who is awaiting the birth of her 
same-sex partner's biological child; or the grandmother who is the sole 
guardian of a grandchild forced to stay home from school because of an 
asthma attack, are entitled to take the necessary leave because they 
have assumed the role of a parent.
    More than 100,000 children growing up with same-sex parents can 
benefit from this important interpretation of the FMLA, while countless 
children being parented by grandparents, domestic partners, and other 
extended family members will also benefit. The specific make-up of a 
family should have no effect on the life of a child, nor does it change 
the pivotal role a caregiver plays in that child's development. The 
Labor Department's updated FMLA guidance is yet another small step 
towards ensuring that all children, regardless of the family they come 
from, are properly cared for.
    While the FMLA is essential to the workplace flexibility needed by 
today's working families, Mr. Chairman, you have acknowledged that it 
has its limitations. As it stands, the FMLA provides eligible workers 
only with unpaid leave, and many families simply cannot afford to miss 
a paycheck. In 2008, the Department's Bureau of Labor Statistics (BLS) 
found that only 61 percent of private-sector employees are offered paid 
sick leave for their own illness or injury. Only 23 percent of the 
lowest 10 percent of wage earners had access to paid sick leave, and 
only 17 percent of that group had access to personal leave. The 
Administration supports your efforts to secure more access to paid 
leave for American workers. As you know, the President's budget 
included an initiative to encourage States to set up paid leave funds.
    In addition, at a hearing about the H1N1 flu pandemic you chaired 
last year, I was proud to announce the Administration's strong 
endorsement of your Healthy Families Act. Your great friend Senator 
Edward M. Kennedy introduced this important legislation, and I applaud 
you for continuing to champion this bill. The Healthy Families Act 
would provide workers with 7 days of paid sick leave. This fundamental 
workplace benefit will assure that workers can stay home if they or 
their children are sick, and do so without fear of losing their job or 
critical income. We look forward to continuing your fight to get this 
important legislation enacted.

                              HEALTH CARE

    For decades, as health care costs rose astronomically, insurance 
companies imposed more and more restrictions on health insurance 
policies, and fewer employers offered health benefits, American workers 
found it harder and harder to provide for their families' most basic 
need for health care. As important as the rights protected by FMLA are, 
they can be substantially frustrated when a parent who takes FMLA-
protected leave to care for a sick child cannot afford to take that 
child to a doctor. The Patient Protection and Affordable Care Act 
(Affordable Care Act) will completely change the quality of life for 
the millions of American families who live in fear of doctors' bills or 
a notice from the insurance company that their policy had been 
canceled.
    Mr. Chairman, you have been a true leader in the fight for 
guaranteed health care for children and were instrumental in the 
passage of health care reform. Throughout your career, you have fought 
for health care reform based on your deep belief that quality, 
affordable and accessible health care for every single American should 
be a right, not a privilege. Passage and enactment of the Affordable 
Care Act has secured your place in history as a champion for the 
ordinary working Americans, all of whom will benefit from this new law.
    The benefits this law will provide for working families are 
immense. Even low-income workers will have the peace of mind that comes 
with having quality health care coverage for the whole family. Workers 
will decide what job works best for their families based on relevant 
factors, like pay, location, career advancement opportunities, and job 
satisfaction. No longer will workers be held hostage to a job simply 
because they cannot afford to lose the health care benefits that come 
with it. Now, all workers will have access to quality affordable 
coverage. Simply removing the pre-existing condition limitation will 
have a profound effect on American workers. Workers with chronic 
medical conditions will not be tied to one job for the rest of their 
lives. As workers find jobs that better match their skills, employers 
will benefit as well.
    At the Department of Labor, we are proud to be one of the lead 
agencies implementing the Affordable Care Act. The Department has 
worked with the Departments of Health and Human Services and Treasury 
to issue regulations on coverage of preventive services, pre-existing 
condition exclusions, lifetime and annual limits, rescissions, patient 
protections, grandfathered health plans, and most relevant to this 
hearing, the extension of coverage for adult children. I will talk more 
later about how the Department helps ease young adults' transition into 
the workplace, but I would like to note that the Affordable Care Act's 
requirement that health plans and insurance companies extend coverage 
for adult children up to the age of 26 significantly helps young adults 
make good decisions about their first jobs, instead of being driven 
into a job just for health care coverage or risking living without care 
while they job hunt.

                            INCOME SECURITY

    As I mentioned earlier, the Department of Labor views workers as 
pillars of the economy and their families. To support a structure, a 
pillar must be strong and grounded on a solid foundation. In human 
terms, workers must earn wages that allow them to support their 
families and have the necessary skills to keep those jobs. Poverty is 
antithetical to a safe and secure family. My former colleague Dr. Harry 
Holzer testified at the first hearing of this series on the ``State of 
the American Child'' about how unemployed parents and childhood poverty 
are linked to negative long-term consequences for the future employment 
and earnings of children. When parents struggle to provide for their 
children's needs, children suffer in both the short- and long-term, and 
recognition of this link magnifies the implications of the current 
economic crisis. As witnesses at that first hearing discussed, the 
recent recession and continuing unemployment crisis will have lasting 
impacts on today's American children.
    That is why the Labor Department helps families by fighting for 
wage earners to get the pay that they are entitled to and providing 
them with a solid foundation of training so they can secure the jobs 
that will help them secure or find their place in the middle class.

                           ENSURING FAIR PAY

    The growing number of female breadwinners in this country means 
that the financial health of families increasingly depends on women. 
With nearly 9 million working women who are also heads-of-household, 
the Labor Department is committed to making sure that pathways out of 
poverty are open to women as much as they are to men. Often, however, 
the mere opportunity is not enough. As the Chairman knows well, gender 
wage inequalities stubbornly persist, and women of color often bear a 
disproportionate share of this burden.
    For this reason, Mr. Chairman, thank you for championing the 
Paycheck Fairness Act for the last seven Congresses. You have been at 
the very forefront of this fight, and it is a fight this Administration 
has pledged to continue. Enacting this important legislation would 
enhance the Equal Pay Act and bring economic justice to America's 
working women; in doing so, this country would take another step 
towards ensuring that many fewer mothers would have to choose between 
paying the bills and caring for their loved ones.
    Though President Obama affirmed his commitment to equal pay for 
women by signing the Lilly Ledbetter Fair Pay Act into law, Secretary 
Solis, this Administration, and you, Mr. Chairman, all agree that more 
must be done. As a result, the President established the National Equal 
Pay Enforcement Task Force. The Department's Office of Federal Contract 
Compliance Programs is working with other agencies across the 
government to ensure that the promise of equal pay for women is 
fulfilled.

                     FATHERS AND TRANSITIONAL JOBS

    Responsible fathers are also crucial to the economic security of 
families. The President is firmly committed to promoting and supporting 
responsible fatherhood. As part of this commitment, the Labor 
Department's Employment and Training Administration (ETA) is working 
closely with the Department of Health and Human Services' (HHS) 
Administration for Children and Families (ACF) to launch a new 
initiative to test and evaluate transitional jobs. Transitional jobs 
typically provide subsidized employment, supportive services and job 
placement assistance to participants with little work history. These 
opportunities help vulnerable workers overcome substantial barriers to 
work, build a resume, and move into long-term, unsubsidized employment. 
ACF has provided technical assistance on how child support enforcement 
would affect program approaches in the Labor Department's Transitional 
Jobs demonstration projects for low-income non-custodial parents. We 
believe that stable employment for fathers will have long-term 
beneficial effects for their children.

        JOB TRAINING FOR THE YOUTH OF TODAY, PARENTS OF TOMORROW

    The Department of Labor invests in job training for all workers. It 
is another tenet of Good Jobs for Everyone that a good job provides 
opportunities to acquire the skills and knowledge for the jobs of the 
future. Secretary Solis and Assistant Secretary for Employment and 
Training Jane Oates have testified before the HELP Committee numerous 
times on the Department's full array of job training programs and how 
they support the economic security of America's families through 
lifelong job training, knowledge, and skills acquisition. I will not 
take the committee's time to go over these programs again. As I 
mentioned earlier, however, these programs are critical to helping 
families reach and remain in the middle class in a 21st century 
economy.
    Instead, I would like to focus on the Department's job training 
programs that benefit young adults who are just leaving childhood and 
entering the world of work. The Secretary's vision of Good Jobs for 
Everyone includes ensuring that young people have access to careers in 
high-growth industries and the skills they need to compete in the 
global economy. This vision aligns with your determination, Mr. 
Chairman, to improve life opportunities for our children and youth. In 
due time, children become adults and have their own children. Putting 
these young adults on a track to gainful, skilled employment early in 
life is the best way to ensure not only their own success, but the 
future success of their children. Research suggests paid work 
experience may improve educational and employment outcomes for at-risk 
youth.\2\
---------------------------------------------------------------------------
    \2\ Edwards, K., and A. Hertel-Fernandez. 2010. ``The Kids Aren't 
Alright: A Labor Market Analysis of Young Workers.'' EPI Briefing Paper 
#258, Economic Policy Institute.
---------------------------------------------------------------------------
    Under the Workforce Investment Act of 1998 (WIA), the Department 
administers Youth Activities funds allocated to State and local areas 
to deliver a comprehensive array of youth workforce investment 
activities. These activities help ensure that youth obtain the skills 
and knowledge needed to succeed in a knowledge-based economy, and 
emerging industry sectors such as healthcare and ``green'' jobs. WIA 
authorizes services to low-income youth, ages 14 to 21, who experience 
barriers to employment. Many eligible young people are deficient in 
basic skills, and are frequently homeless, runaways, pregnant or 
parenting, criminal offenders, school dropouts, or foster children.
    As you know, Mr. Chairman, WIA programs serve both in-school and 
out-of-school youth, including youth with disabilities and other youth 
who may require additional assistance to complete an educational 
program or to secure and hold employment. By providing them with access 
to tutoring, alternative secondary school services, summer employment, 
occupational training, work experience, supportive services, leadership 
development opportunities, mentoring, counseling, and follow-up 
services, participants are prepared for both post-secondary education 
and ultimate employment. The WIA Youth program typically serves between 
250,000 and 300,000 youth per year.
    These young people are indeed fortunate that you and your 
colleagues in the Senate fought to ensure that the American Recovery 
and Reinvestment Act (Recovery Act) included increased funding for WIA 
programs. The Recovery Act provided an additional $1.2 billion in WIA 
Youth funds, with an emphasis on summer employment. The Recovery Act 
also allowed the Department to increase the age of eligibility for 
youth services to 24 years of age. DOL's ETA is encouraging summer 
youth programs to develop work experiences that would expose young 
people to jobs in the emerging ``green'' economy. For example, in 
Philadelphia, PA, many youth received a combination of post-secondary 
training with worksite experiences in green jobs. Some of these youth 
participated in a partnership with Temple University, which provided 
them with Environmental Research Internships and experience working 
with researchers in the field. The summer work experiences described 
above are especially critical for low-income youth. This Recovery Act 
funding enabled more than 325,000 diverse youth to experience 
employment during the summer of 2009. Of these youth, approximately 
159,000 were African-American, 7,000 were American Indian or Alaska 
Native, 6,000 were Asian, and 87,000 were Latino.\3\
---------------------------------------------------------------------------
    \3\ Mathematica Policy Research, Inc., ``Reinvesting in America's 
Youth: Lessons from the 2009 Recovery Act Summer Youth Employment 
Initiative.'' Contract Number DOLU091A20968. February 26, 2010.
---------------------------------------------------------------------------
    Recovery Act funding also enabled ETA and ACF to promote subsidized 
summer employment opportunities for similar low-income youth. To date, 
we are aware of at least 15 States that will be using the Temporary 
Assistance for Needy Families (TANF) Emergency Contingency funding 
provided in the Recovery Act for summer employment programming, giving 
youth access to a multitude of support services and occupational skills 
training.
    Unfortunately, the summer youth programs have not yet been funded 
this summer. Funding these programs is essential, even at this late 
date. We hope that Congress will still act so we can help students this 
summer and into the fall.
    In addition to the WIA services described above for low-income 
students enrolled in high school, the Labor Department also provides 
alternative pathways to successful employment for disconnected youth 
and those who do not graduate from high school. One such initiative is 
the Department's YouthBuild program, which provides job training and 
educational opportunities for low-income or at-risk out-of-school youth 
ages 16 to 24. By providing these youth with the opportunity to acquire 
academic and work-related credentials while constructing or 
rehabilitating affordable housing for low-income or homeless families 
in poor communities, the YouthBuild program creates opportunities to 
re-engage out-of-school youth in education, skills training, and 
leadership development while serving their community. Many YouthBuild 
program graduates continue on in community or 4-year colleges to gain 
the education and skills that they need to be productive in the 21st 
Century economy.
    Recently, YouthBuild programs have begun providing training in 
green construction techniques, which will help youth compete for jobs 
in a changing construction sector. The Lake County YouthBuild program 
in northern Chicago trains its young people in green construction and 
has begun installing solar water heating and solar electricity in the 
low-income housing that it builds in its community. In addition, the 
Department has introduced a new Apprenticeship Training Program, 
designed specifically for YouthBuild, to support the transition of our 
young people into apprenticeship opportunities in high-growth, emerging 
sectors of the economy. In Portland, OR, YouthBuild created a 
registered apprenticeship program with the Laborers Union to train its 
students in weatherization skills, and created green career tracks in 
several fields for its YouthBuild graduates in partnership with 
Portland Community College.
    The Labor Department's most intensive program that assists youth 
with employment is Job Corps. Established 46 years ago to help fight 
the War on Poverty, Job Corps helps at-risk youth with education and 
job training in an effort to halt the perpetual cycle of poverty that 
claims the livelihood and future success of far too many American 
children. By providing a foothold for graduates to ascend beyond low-
wage jobs through training and education, Job Corps gives many of its 
graduates a pathway to the middle-class. Job Corps students and 
graduates earn academic credentials, such as a High School Diploma or 
GED, and industry-recognized certifications, State licensures, or 
apprenticeships in their career technical training area. These 
credentials ensure that graduates have attained the skills and 
knowledge necessary to compete in today's labor market, including 
emerging industries, like green jobs. By operating 123 centers in 48 
States, Puerto Rico, and the District of Columbia, Job Corps provides 
training and education opportunities to young men and women nationwide. 
Additionally, on-site daycare services at 28 of these centers, allow 
students who may be parents to fully participate in the program
    We have heard numerous success stories from impressive Job Corps 
alumni. Some years ago, James Sollome thought he was on the verge of 
starvation. His father was in prison and he was an unemployed high 
school dropout who had been living out of his car for 4 months. While 
job-hunting at a local unemployment office, James was informed of the 
opportunities available at the Excelsior Springs Job Corps Center. In a 
little more than a year after joining Job Corps, James graduated with 
his GED and earned his certificate of completion in painting. He went 
on to college, and in the coming year, he is expecting to graduate with 
a Ph.D. in pharmacology and toxicology from the University of Arizona.
    Another success story comes from a woman in the Chairman's home 
State of Connecticut. Roccina Blash, a native of Waterbury, graduated 
at the top of her class in the Emergency Medical Training (EMT) program 
at New Haven Job Corps Center. In May 2010, Roccina accepted a full-
time position with American Medical Response Ambulance Service. She is 
not alone in her success. There are thousands of Job Corps students who 
have launched thriving careers with the assistance of the Department of 
Labor.
    It is programs like these that typify the Department of Labor's 
role in maintaining and promoting the state of the American child. By 
taking often disenfranchised, low-income youth and placing them on a 
career pathway with job-training and support, the Department of Labor 
helps them on the path to lifelong income security and economic 
stability and a better future for their children.

             MAKING SURE FIRST JOBS ARE SAFE AND SUCCESSFUL

    While the Department helps youth transition into the working world, 
it is also part of our mission to ensure that youth are employed only 
in jobs that are safe and age appropriate. Part of building a long-
lasting and productive relationship between young people and work is 
making sure their early experiences are positive ones. An unsafe or age 
inappropriate job is unlikely to be a successful job. A good job is a 
safe job--no matter how old or young you are.
    Towards this end, the Department vigorously enforces the child 
labor provisions of the Fair Labor Standards Act. The Department 
recently published new child labor rules governing the employment of 
youth in nonagricultural industries, which became effective on July 19, 
2010. These changes, which represent the most sweeping revisions to our 
child labor rules in over 30 years, are crafted to improve the 
occupational safety and health of the workplaces of the 21st Century 
and the realties faced by working youth and their employers. These 
rules reflect the hard work and commitment of the Labor Department's 
Wage and Hour Division and Occupational Safety and Health 
Administration, along with our partners at the Department of Health and 
Human Services' National Institute for Occupational Safety and Health. 
The new regulations give employers clear notice that there are certain 
jobs children are simply not allowed to perform. They also expand 
opportunities for young workers to gain safe, positive work experience 
in fields such as advertising, teaching, banking and information 
technology, as well as through school-supervised work-study programs. 
With the completion of these rules, DOL staff have turned their 
attention to strengthening the regulatory protections for children 
working in agriculture.
    These strategies work. Last year, Wage and Hour investigators found 
children working in the blueberry fields of North Carolina. While we 
assessed civil money penalties against those farmers and farm labor 
contractors for the violations, our staff also engaged the local 
community, local departments of social services, and State migrant 
education consultants, to provide alternatives to children whose 
parents are in the fields and to provide education on child safety. 
This year, when we sent investigators back into the fields unannounced, 
we found no children working in the blueberry fields of North Carolina. 
We strongly believe that our efforts to prevent young workers from 
being employed in unsafe occupations and industries will lead to fewer 
injuries and fewer deaths.

                               CONCLUSION

    Mr. Chairman, your absence from the Senate will be a great loss for 
America's working families and children. As President Obama said on the 
announcement of your retirement, ``You have worked tirelessly to 
improve the lives of children and families, but your work is not 
done.'' In tribute to your legacy and in full recognition of the work 
yet to be done, we will fight to ensure that your vision of a humanized 
labor market and compassionate workplaces lives on at the Department of 
Labor.
    My testimony illustrates the ways that the Labor Department enables 
America's children to succeed and thrive across various life-stages. We 
are hard at work to realize Good Jobs for Everyone--for today's workers 
and their families, as well as the workers of the future. Thank you for 
inviting me to testify today. I would be happy to answer any questions 
the committee may have.

    Senator Dodd. Well, thank you very, very much, Mr. Harris. 
It is very helpful. I am anxious to ask you some questions 
about the Department of Labor. So we thank you for being here 
today.
    Yes, Mr. Hansell. How are you?

  STATEMENT OF DAVID A. HANSELL, ACTING ASSISTANT SECRETARY, 
 ADMINISTRATION FOR CHILDREN AND FAMILIES, U.S. DEPARTMENT OF 
           HEALTH AND HUMAN SERVICES, WASHINGTON, DC

    Mr. Hansell. Good morning. Chairman Dodd, Senator Casey, 
Senator Merkley, I am pleased to appear before you to discuss 
the state of children in America.
    But I would first like to join my administration colleagues 
in taking this opportunity to express our appreciation to you, 
Mr. Chairman, for your longstanding commitment to improving the 
lives of our Nation's children. From expanding child care and 
strengthening Head Start, to addressing child abuse and 
domestic violence, this subcommittee, under your leadership has 
made enormous contributions to children across the country.
    While many children in our Nation are thriving, as you 
indicated, statistics show that far too many children are 
growing up in poverty without adequate family support and 
without access to quality care and education. The President and 
Secretary Sebelius have established a number of priority 
initiatives to address these challenges.
    Recognizing that children's early experiences are critical 
in shaping the foundation for long-term growth and development, 
one of the Secretary's highest priorities is early childhood 
development. The early childhood programs administered by the 
Administration for Children and Families both provide enriching 
experiences that promote the long-term success of disadvantaged 
children and assist low-income working parents with the 
availability and cost of child care. Child care subsidies are 
provided to 1.6 million children nationally, and Head Start 
funds 1,600 grantees in our poorest neighborhoods to serve 
nearly 1 million children in poverty.
    The Recovery Act included a $2 billion increase in child 
care funding, allowing providers to serve 200,000 more children 
than would otherwise have been possible and make quality 
improvements to the program. The President's fiscal year 2011 
budget requests another $1.6 billion to sustain this Recovery 
Act investment and outlines a set of principles for child care 
reauthorization, focusing on serving more low-income children 
in safe, healthy, nurturing child care settings that will 
promote learning, child development, and school readiness.
    The Recovery Act also invested $2.1 billion in expansions 
to Head Start and Early Head Start programs, expansions that 
the President's budget would sustain in fiscal year 2011.
    We also continue to improve Head Start using the tools 
provided by Head Start reauthorization. We will be 
significantly increasing the expectations for what Head Start 
programs should achieve by strengthening Head Start program 
performance standards. We will be providing the necessary 
supports to meet those expectations by reinventing the training 
and technical assistance system, and we will be strengthening 
accountability by implementing a system that injects 
competition into the Head Start program for poor performing 
grantees as envisioned by this subcommittee in the Head Start 
reauthorization.
    The administration is committed to working with States to 
reduce the incidence of child abuse and neglect and provide 
safe and permanent homes for all of America's children. Our 
efforts to prevent the maltreatment of children, to mediate 
children's exposure to violence, to find permanent placements 
for those children who cannot safely return to their homes, and 
to provide transitional services for older youth are all 
critical to ensuring that America's children grow into healthy, 
stable adults.
    We have been working closely with the subcommittee on 
reauthorization of two programs offering critical support for 
these children and young adults: the Child Abuse Prevention and 
Treatment Act and the Family Violence Prevention and Services 
Act.
    We are also committed to investing in proven programs and 
strategies to positively impact children's safety, permanence, 
and well-being or in programs that show significant promise in 
that regard. A new $20 million grant program will be funded 
shortly to support innovative strategies for moving to 
permanent homes children who have been in foster care the 
longest.
    There is no question that families should be the core 
support for children. Children's well-being depends on 
financial and emotional support from both parents, and parental 
employment is the key to long-term economic security for 
families. Bolstered by the $5 billion provided in the Recovery 
Act, our new TANF emergency fund is helping families during the 
economic downturn, including significant investments in 
subsidized employment. States have plans to create more than 
200,000 jobs for needy adults and youth by September. Given the 
difficult fiscal choices that States are facing in an economy 
that still has high unemployment, we strongly urge the Congress 
to take action now so that all States can continue to access 
the emergency fund in fiscal year 2011.
    Research suggests that the most stable families consist of 
two parents who are involved and invested in their children's 
success. The President is committed to promoting responsible 
fatherhood and helping fathers meet their obligations by 
ensuring that they have the broad range of services, including 
job, relationship, and parenting skills training that they need 
to be successful. The vision of the President's Fatherhood 
Initiative, in conjunction with services offered through our 
child support enforcement, child care, and TANF programs, offer 
an integrated set of strategies to bolster the economic 
security of especially vulnerable families and their children.
    Under your committed leadership, Mr. Chairman, significant 
strides have been made in understanding where we are most 
challenged in improving the state of American children and 
targeting funding and attention to policies that seek to 
address these challenges. We look forward to continued efforts 
to ensure that legislative changes and key investments are made 
to further improve the lives of America's children. I look 
forward to answering questions after their testimony.
    [The prepared statement of Mr. Hansell follows:]

                 Prepared Statement of David A. Hansell

    Chairman Dodd, Ranking Member Alexander, and members of the 
subcommittee, I am pleased to appear before you today to discuss the 
state of Children in America. I would first like to take this 
opportunity to express my thanks to you, Mr. Chairman, for your long-
standing commitment to improving the lives of our Nation's children and 
your tireless efforts on their behalf.
    From expanding child care and strengthening Head Start to 
addressing child abuse and domestic violence, this subcommittee has 
made enormous contributions to children across the Nation, and we are 
grateful for your steadfast dedication and efforts. You have been 
influential in targeting funding for services to improve the lives of 
children through these and a wide range of other programs in the 
Administration for Children and Families (ACF), including the Community 
Services Block Grant, the Low Income Home Energy Assistance Program, 
the Assets for Independence Program and the Developmental Disabilities 
Program.
    For purposes of today's hearing, I will limit the focus of my 
testimony to early childhood development; the safety, permanence, and 
well-being of our most vulnerable children; and, fatherhood and 
economic security (which play a major role in the lives of children and 
their families) and how ACF programs are contributing to these efforts.
    I would like to begin by sharing some significant statistics 
regarding the state of many children in this country.

                      STATE OF CHILDREN IN AMERICA

    While in many respects American children are doing well, ACF has 
particular stewardship of programs for children and families most at 
risk for negative outcomes. As you are keenly aware, there are far too 
many in need of our services.

    <bullet> Poverty--Between 1993 and 2000, the child poverty rate 
declined from 22.7 percent to 16.2 percent due in substantial part to a 
near full-employment economy and rising employment among single 
mothers.\1\ Unfortunately, since 2000 these positive trends have not 
been sustained. By 2008, nearly 1 in 5 children lived in poverty and 8 
percent of children (5.9 million) lived in extreme poverty, defined as 
living in a family with income less than one-half of the poverty 
threshold. These are the highest percentages of children living in 
poverty since 1998. About 22 percent of children lived in households 
that were food insecure at times in 2008, an increase from 17 percent 
in 2007 and the highest percentage recorded since monitoring began in 
1995.\2\
---------------------------------------------------------------------------
    \1\ U.S. Census Bureau, ``Table 3. Poverty Status of People, by 
Age, Race, and Hispanic Origin: 1959 to 2008,'' available at: http://
www.census.gov/hhes/www/poverty/data/historical/hstpov3
.xls.
    \2\ Federal Interagency Forum on Child and Family Statistics. 
America's Children in Brief: Key National Indicators of Well-Being, 
2010. Washington, DC: U.S. Government Printing Office.
---------------------------------------------------------------------------
    <bullet> Family Structure--In 2008, 67 percent of children ages 0-
17 lived with two married parents, down from 77 percent in 1980. Among 
the 2.8 million children (4 percent) not living with either parent in 
2008, 54 percent (1.5 million) lived with grandparents, 25 percent 
lived with other relatives, and 21 percent lived with non-relatives. Of 
children in non-relative homes, 38 percent (228,000) lived with foster 
parents.\3\ The percentage of children exiting foster care to a 
permanent home through adoption or guardianship has been increasing. 
Over 40 percent of births in the United States were outside marriage in 
2008.\4\
---------------------------------------------------------------------------
    \3\ Federal Interagency Forum on Child and Family Statistics. 
America's Children in Brief Key National Indicators of Well-Being, 
2010. Washington, DC: U.S. Government Printing Office.
    \4\ Ibid.
---------------------------------------------------------------------------
    <bullet> Child Care--Many children spend time with a caregiver 
other than their parents. The majority of children (61 percent) ages 0-
6 received some form of non-
parental care on a regular basis in 2009.\5\ At the same time, the 
parents of more than 28 million school-age children work outside the 
home.\6\ For both young children and those in school, the cost of care 
and the lack of support too often do not allow families the ability to 
access high quality care, particularly for very young children. The 
average annual price of care for an infant in a center ranged from 
$4,560 in the least expensive State to $15,895 in the highest. A recent 
report from the Carsey Institute found that, among working families who 
made child care payments for their young children, families living in 
poverty paid 32 percent of their monthly family income for child care--
nearly five times more than families at 200 percent of poverty or 
higher.
---------------------------------------------------------------------------
    \5\ America's Children in Brief: Key National Indicators of Well-
Being, 2010 (Childstats.gov).
    \6\ U.S. Department of Labor, 1998 (www.afterschoolalliance.org).
---------------------------------------------------------------------------
    <bullet> Child Maltreatment--In 2008, the rate of substantiated 
reports of child maltreatment was approximately 10 per 1,000 children 
ages 0-17. Younger children are more frequently victims of child 
maltreatment than older children. Neglect is the predominant form of 
maltreatment for all children and the youngest children are most at 
risk. In 2008, there were 22 substantiated child maltreatment reports 
per 1,000 children under age 1, compared with 12 for children ages 1-3, 
11 for children ages 4-7, 9 for children ages 8-11, 8 for children ages 
12-15, and 5.5 for adolescents ages 16-17.\7\
---------------------------------------------------------------------------
    \7\ Federal Interagency Forum on Child and Family Statistics. 
America's Children in Brief Key National Indicators of Well-Being, 
2010. Washington, DC: U.S. Government Printing Office.
---------------------------------------------------------------------------
                       ADMINISTRATION PRIORITIES

    While many children across the country are thriving, these 
statistics show that far too many children today are growing up in 
poverty, without adequate family support, and without access to quality 
care and education. The President and the Secretary have established a 
number of priority initiatives to address these challenges. The first I 
would like to discuss focuses on early learning and school readiness.

                      EARLY CHILDHOOD DEVELOPMENT

    Recognizing that children's early experiences are critical in 
shaping the foundation for their long-term learning, development and 
growth, one of the Secretary's highest priorities is early childhood 
development. We know that with nurturing and responsive relationships 
with parents and caregivers and with engaging learning environments in 
early care and education settings, young children are capable of 
tremendous growth and resilience in the face of adversity. That is why 
we are focused both on raising the bar on quality in early childhood 
programs--including child care and Head Start--and on expanding access 
to high quality programs so more children can participate in them.
    Early childhood programs are critical to breaking the cycle of 
poverty in the United States, and are vital to the country's workforce 
development, economic security, and global competitiveness. The early 
childhood programs administered by ACF are designed both to assist low-
income working parents with the cost of child care, and to fund 
programs that provide enriching early childhood experiences that 
promote the long-term success of disadvantaged children.
    Child care subsidies are provided to 1.6 million children 
nationally through the Child Care and Development Fund to reduce the 
burden of high child care costs for low-income working families. 
Additionally, Head Start funds over 1,600 grantees in our poorest 
neighborhoods to provide enriching early childhood experiences and 
health services to nearly 1 million children in poverty.
    Evidence continues to mount regarding the profound influence 
children's earliest experiences have on their later success. Because of 
the strong relationship between early experience and later success, 
investments in high quality early childhood programs can pay large 
dividends.
    Recognizing this, the Congress significantly increased funding for 
both the Child Care and Head Start programs through the American 
Recovery and Reinvestment Act (Recovery Act). The Recovery Act included 
$2.1 billion to fund expansions in Head Start, Early Head Start, 
investments in teachers, classroom materials, and services and supports 
for State Advisory Councils on Early Childhood Development and 
Education. The program will be serving nearly 50,000 additional 
children in Early Head Start and over 13,000 additional children in 
Head Start. Child Care funding increased by $2 billion in the Recovery 
Act, and the providers will serve an estimated 200,000 more children 
than would otherwise have been supported by the program.
    While this is important progress, far too many children still do 
not have access to high quality early childhood services. Head Start 
serves just over half of poor children, Early Head Start serves less 
than 5 percent, and the Child Care and Development Fund serves only one 
in six eligible children. Further, for those receiving services, the 
quality of their experiences has not received adequate attention to 
produce the benefits that all children need and deserve.
    As we move forward, we have a number of goals for our early 
childhood programs including, improving the quality of child care and 
Head Start programs, fostering the integration of ACF's early childhood 
programs with other early learning programs and social services, 
vertically aligning programs with the elementary and secondary 
education system, and strengthening program integrity.
    Using the Child Care and Development Block Grant's (CCDBG) 
mandatory 4 percent quality set-aside, we are helping States build a 
systematic framework for quality investments. This effort includes 
taking actions to strengthen the quality of child care programs by 
expanding the number of States with Quality Rating and Improvement 
Systems (QRIS). The QRIS includes a set of standards that define each 
level of quality, an incentive and support system to help programs meet 
higher standards, and outreach to inform parents of what the ratings 
mean.
    There is much more that can and should be done to raise the quality 
of child care for America's children. We look forward to working with 
Congress to craft a child care reauthorization framework, including 
needed reforms to ensure that children receive high quality care that 
fosters healthy child development and meets the diverse needs of 
families. The President's fiscal year 2011 budget request proposed an 
increased investment of $1.6 billion for child care and outlined a set 
of principles for reauthorization focusing on serving more low-income 
children in safe, healthy, nurturing child care settings that are 
optimally effective in promoting learning, child development and school 
readiness. The Early Learning Challenge Fund (ELCF) also remains a 
priority of the Administration and we look forward to working with 
Congress to make the ELCF a reality.
    In addition, because high quality early childhood education spans 
the ages of birth to age 8 and involves the transition of children from 
early childhood programs into our Nation's schools, continued 
collaboration between the Department of Health and Human Services and 
the Department of Education is essential. Secretary Sebelius and 
Secretary Duncan have been working very closely, and the two 
Departments have a number of joint efforts currently underway. We have 
formed working groups consisting of the best minds in both Departments 
to address the most pressing issues in the early childhood field, 
including creating a more educated, better trained early childhood 
workforce; better connecting the early education and health systems; 
and improving the way data are collected and used to improve early 
childhood systems at the State level. The two Departments also co-
hosted listening sessions across the country to hear from the foremost 
experts and early childhood practitioners concerning these issues. The 
Departments consult regularly on the early childhood initiatives 
underway in each Department and will continue to collaborate on future 
initiatives and legislation that are vital to the development and 
education of our Nation's youngest children, especially efforts to 
improve the quality of these programs and services with the goal of 
improving child outcomes.
    We also continue to improve Head Start using the tools provided to 
us by the Improving Head Start for School Readiness Act of 2007. As you 
may recall, in January of this year ACF released the findings of the 
Head Start Impact Study which showed that at the end of 1 program year, 
access to Head Start positively influenced children's school readiness. 
When measured again at the end of kindergarten and first grade, some of 
these benefits persisted, but the Head Start children and the control 
group children were at the same level on many of the measures studied. 
While the Head Start program has significantly changed since the study 
was conducted in 2002, we are using the findings of the Head Start 
Impact Study and that of other studies to improve the program.
    We have developed a set of initiatives outlined in a planning 
document entitled, The Head Start Roadmap to Excellence. These 
initiatives will strengthen Head Start programs in preparing poor 
children for success in school and life. The initiatives in the Roadmap 
significantly increase the expectations for what Head Start programs 
should achieve, provide the necessary supports to meet those 
expectations, and strengthen the accountability provisions for programs 
that do not meet expectations. Specifically:

    <bullet> To increase what we expect from Head Start programs, we 
are strengthening the Head Start Program Performance Standards. These 
standards provide a standard definition of quality services for all 
Head Start grantees. The revised program performance standards will 
institute best practices in the field of early education and child 
development and ensure that Head Start programs meet the educational, 
health and nutritional needs of the children and families they serve, 
along with improving program integrity and fiscal management.
    <bullet> To provide additional support to programs, we are 
reinventing the training and technical assistance system. The new 
system will provide ``cascading levels of support'' for Head Start 
programs with National Centers providing information about best 
practices to State Centers, and mentor coaches helping programs to 
implement these best practices at the program level.
    <bullet> Finally, to strengthen accountability, we will implement a 
system that injects competition into Head Start by requiring low 
performing programs to compete for continued funding as required by 
this subcommittee in the Head Start reauthorization. This recompetition 
process is absolutely central to raising the bar on quality not only by 
getting rid of poor performers but in providing significant new 
incentives for programs to improve their performance and offer quality 
services. We are working hard to craft a system that is fair and 
transparent and that will result in a significant improvement in 
program quality. We anticipate publishing the proposed rules later this 
year.

    Program integrity is one of HHS's key priorities and applies to all 
programs administered by HHS. The President has charged each Federal 
agency with launching rigorous audits and conducting ``annual 
assessments to determine which of their programs are at risk of making 
improper payments . . .'' In response, Secretary Sebelius recently 
established the Council on Program Integrity, which will look at all 
areas within the Department--from Medicare and Medicaid, to Head Start 
and Child Care, to LIHEAP--to conduct risk assessments of programs or 
operations most vulnerable to fraud or abuse; enhance existing program 
integrity initiatives or create new ones; share best practices on 
program integrity throughout HHS; and measure the results of our 
efforts.
    ACF already has taken steps to enhance program integrity in all of 
our programs, including our early childhood programs. For example, the 
Office of Head Start has created a fraud hotline that will allow 
information on inappropriate behavior to be reported directly to the 
Assistant Secretary. It also initiated unannounced visits of Head Start 
programs and is developing new regulations to strengthen program 
integrity at the grantee level.
    I would like to turn now to our priority goals for ensuring the 
safety, permanence and well-being of children.

       SAFETY, PERMANENCY, AND WELL-BEING OF VULNERABLE CHILDREN

    The Administration is committed to working with States to reduce 
the incidence of child abuse and neglect and provide safe and permanent 
homes for all of America's children. The children facing challenges to 
safety and permanency are among the most vulnerable children in our 
country. Our efforts to prevent the maltreatment of children, mediate 
children's exposure to violence, find permanent placements for those 
children who cannot safely return to their homes, and provide temporary 
or transitional placements and services for older youth are critical to 
ensuring that America's children grow into healthy, stable adults.
    The impact of not addressing the needs of these vulnerable children 
is far-reaching. Maltreatment in general is associated with a number of 
negative outcomes for children, including lower school achievement, 
juvenile delinquency, substance abuse, and mental health problems.\8\ 
Certain types of maltreatment can result in long-term physical, social, 
and emotional problems, and even deaths.\9\ Children who witness 
domestic violence are at a greater risk of developing behavioral and 
emotional problems, cognitive and attitudinal issues, and long term 
problems.\10\ Children who witness domestic violence in their homes are 
more likely to justify their own use of violence in their 
relationships.\11\ It is imperative that we seek solutions that build 
on promising practices to address the needs of these children.
---------------------------------------------------------------------------
    \8\ Administration for Children and Families, Office of Planning, 
Research and Evaluation. (2004b). Children ages 3 to 5 in the child 
welfare system. NSCAW Research Brief No. 5. Washington, DC: Author.
    English, D.J., Widom, C.S., & Brandford, C. (2004). Another look at 
the effects of child abuse. NU journal, 251,23-24.
    \9\ Fellit, V.J. (2002). The relationship of adverse childhood 
experiences to adult health: Turning gold into lead. Zeitschrift fur 
Psychosomatische Medizin and Psychotherapie 48(4), 359-69. Retrieved 
June 18, 2007, from www.acestudy.org/docs/GoldintoLead.pdf.
    Flaherty, E.G., et al. (2006). Effect of early childhood adversity 
on health. Archives of Pediatrics and Adolescent Medicine, 160, 1232-
38.
    \10\ Stapleton, J.G., Phillips, K.G., Moynihan, M.M., Wiesen-
Martin, D.R., Beulieu, A.L. (2010) New Hampshire endowment for health 
planning grant final report: The mental health needs of children 
exposed to violence in their homes. Retrieved July 26, 2010 from http:/
/www.nhcadsv.org/Maureen/EFHReportFINAL.pdf.
    \11\ Singer, M.L., Miller, D.B., Guo, S., Slovak, K and Frieson, T. 
(1998) The Mental Health Consequences of Children's Exposure to 
Violence. Mandel School of Applied Social Sciences, Community Health 
Research Institute, Case Western Reserve University, Cleveland, OH: 
Cuyahoga County.
    Jaffe, P.G., & Geffner, R. (1998). Child custody disputes and 
domestic violence: Critical issues for mental health, social service, 
and legal professionals. In G. Holden, R. Geffner, & E. Jouriles 
(Eds.), Children exposed to marital violence: Theory, research, and 
applied issues (pp. 371-408). Washington, DC: American Psychological 
Association.
---------------------------------------------------------------------------
    We have been working closely with this subcommittee on 
reauthorization of two programs offering support for these 
populations--the Child Abuse Prevention and Treatment Act and the 
Family Violence Prevention and Services Act. We look forward to 
continuing these efforts and finalizing enactment of these key pieces 
of legislation.
    At the same time, this Administration has placed a significant 
priority on the development and implementation of evidence-based and 
evidence-informed research and practice. We are committed to investing 
in programs and strategies that have proven effective through rigorous 
evaluation, building on promising practices, and promoting innovation 
to expand the body of knowledge all of which increase the portfolio of 
interventions proven to positively impact children's safety, permanence 
and well-being. Proven strategies are particularly important in the 
child welfare and well-being arenas because the stakes for children are 
so high.
    The Administration recently demonstrated its commitment to 
identifying and replicating best practices for children who stay in 
foster care the longest by proposing a $20 million grant program to 
fund innovative strategies for moving these children to permanent 
homes. The first year of funds for these grants will be awarded in 
September and the President's Budget proposes continued funding for 
these grants to identify effective practices for our most vulnerable 
children. The goals of the innovative approaches to foster care program 
are to: implement innovative intervention strategies that are informed 
by the relevant literature; reduce long-term foster care stays and 
improve child outcomes; and rigorously evaluate these efforts to 
provide substantial information about the effectiveness of the 
programs, interventions, and practices in reducing long-term foster 
care. State projects that meet negotiated targets will be eligible for 
incentive payments that will be awarded above and beyond the base award 
amount and will be given flexibility in using the incentive payments to 
enhance project-related activities. This initiative to reduce long-term 
foster care is a significant step toward improving services and 
outcomes for vulnerable children who pass through, and often remain in, 
the child welfare system.
    Another example of the President's commitment to targeting funds 
towards evidence-based approaches and testing innovation is the new 
Home Visiting program created in the Affordable Care Act. Just last 
week, HHS released $88 million for development and implementation of 
high-quality, evidence-based statewide home visiting programs, to 
assure effective coordination and delivery of critical health, 
development, early learning, child abuse and neglect prevention, and 
family support services to young children and families.
    Additionally, the President's fiscal year 2011 budget requests a 
$10 million increase in child abuse discretionary activities. These 
funds will be used to establish a new competitive grant program for 
States to support increased use, and high quality implementation, of 
evidence-based and evidence-informed child maltreatment prevention 
programs and activities. The competitive grant program is intended to 
encourage States to use existing funding streams to support community-
based prevention activities rooted in a strong evidence base. Funds 
also will be used to insure that child maltreatment prevention and 
family support is integrated with other State systems for children and 
youth.
    With the current condition of the economy putting additional stress 
on families, States are seeing an increase in child abuse and neglect 
and domestic violence. At a time of increasing pressure on State 
budgets it is imperative that funding is targeted to evidence-based and 
evidence-informed approaches to maximize every dollar spent protecting 
and supporting children and families. Further, the cost of addressing 
the consequences of abuse and neglect after maltreatment has happened 
far exceeds the cost of investing in evidence-based interventions that 
prevent abuse from occurring or effectively mitigate the consequences 
of the abuse.\12\
---------------------------------------------------------------------------
    \12\ Pew/PCA, ``Time for Reform: Investing in Prevention, Keeping 
Children Safe at Home.'' See http://www.pewtrusts.org/uploadedFiles/
wwwpewtrustsorg/Reports/Foster_care_reform/time
_for_reform.pdf.
---------------------------------------------------------------------------
    The last priority area impacting the state of our Nation's children 
that I would like to discuss is advancing economic security and 
fatherhood.

              ECONOMIC SECURITY AND RESPONSIBLE FATHERHOOD

    There is no question that families are the core support for 
children. Children's well-being depends on financial and emotional 
support from both parents, and parental employment is the key to long-
term economic security for families. To help families succeed in the 
workforce, we seek to connect parents not only with work, but also with 
educational opportunities and other supports to help them move into 
better jobs, child care to help meet the costs of work and basic needs, 
and with services to address the barriers that sometimes make work 
difficult for some individuals.
    The Temporary Assistance for Needy Families Program (TANF) provides 
assistance and work opportunities to needy families and is one of the 
Nation's primary safety net programs for low-income families with 
children. Under this $16.5 billion block grant program, States have 
broad flexibility to design programs that strengthen families and 
promote work, personal responsibility, and self-sufficiency. Within 
certain Federal requirements, States can determine their own 
eligibility criteria, benefit levels, and the type of services and 
benefits available to TANF recipients.
    As with child care, Head Start, and Child Support, the Recovery Act 
included significant investments to bolster the safety net for low-
income children and families. This legislation affected the TANF 
program in several key ways, including the establishment of a new $5 
billion Emergency Contingency Fund for States, Territories, and Tribes 
for fiscal year 2009 and fiscal year 2010. This Emergency Fund was 
structured with the recognition that there are multiple ways to help 
families during an economic downturn by expressly providing additional 
funding for basic assistance, short-term needs, and subsidized 
employment. To date, ACF has awarded over $4 billion in TANF Emergency 
Funds to 47 States, 17 Tribes, the District of Columbia, and the 
Territories of the Virgin Islands and Puerto Rico.
    The TANF Emergency Fund has played a crucial role in allowing TANF 
jurisdictions to respond to the needs of vulnerable children and 
families during this economic downturn. TANF jurisdictions have taken 
advantage of the opportunities provided by the Emergency Fund to 
implement programs and provide benefits that specifically target 
children. For example, ACF has awarded Emergency Fund dollars for 
benefits such as back-to-school clothing allowances, scholarships for 
summer camps, and services provided through partnerships with local 
agencies that operate Summer Food Service Programs, and community 
organizations, such as The Boys and Girls Club.
    Further, as of July 25, 34 States, the District of Columbia and the 
Virgin Islands have established subsidized employment programs using $1 
billion in Emergency Funds. These States have plans to create nearly 
200,000 jobs by September. This is an unprecedented use of funds for 
subsidized employment programs. In January, the Department of Labor and 
HHS issued a joint letter encouraging workforce and human services 
agencies to work together to explore all funds available for the 
creation and expansion of subsidized summer employment programs for 
low-income youth. Taking advantage of this opportunity, and in the 
absence of additional Workforce Investment Act (WIA) funding for this 
purpose, 21 States and the District of Columbia are using emergency 
funds to expand and develop programs specifically designed for youth; 
some have even partnered with their local WIA One Stop Centers in order 
to maximize recruitment and implement effective practices. Since youth 
employment is at a 60-year low, this is a crucial investment in 
supporting a robust economic recovery.
    Given the difficult fiscal choices States are facing in an economy 
that still has high unemployment, and the recent extremely positive 
activity by States, we strongly urge Congress to take action so that 
all States can access the Emergency Fund in 2011 when, unfortunately, 
unemployment and poverty are likely to remain elevated in the aftermath 
of the recession. By extending the Emergency Fund through fiscal year 
2011 and providing additional funding, Congress can help States 
continue their innovative efforts to expand employment and strengthen 
the safety net so desperately needed by many low-income children and 
families. In addition, the Department of Labor's fiscal year 2011 
request includes second-year funding for their Transitional Jobs 
Program to demonstrate and evaluate program models, which combine 
short-term subsidized or supported employment with a well-designed 
suite of supportive services and job search assistance during and after 
the transitional job to help individuals with significant barriers to 
obtain the skills they need to secure unsubsidized jobs. Fiscal year 
2010 funding will be used to support and rigorously test transitional 
jobs programs targeting non-custodial parents, a group whose employment 
outcomes are likely to have an important effect on children.
    While employment is a key element of providing support to children, 
research suggests that the most stable families consist of two parents 
who also are involved and invested in their children's success. 
Children who have a quality relationship with their father are more 
likely to stay in school and pursue higher education and are less 
likely to be sexually active, or give birth out of wedlock at a young 
age.\13\ Unfortunately, too many fathers today are not engaged and 
participating in their children's lives. They are not making the 
emotional and financial contributions they could and are, therefore, 
not having the kind of impact that promotes family and child well-
being.
---------------------------------------------------------------------------
    \13\ The Effects of Father Involvement: A Summary of the Research 
Evidence. Sarah Allen, MSc and Kerry Daly, Ph.D., University of Guelph 
(2002) (http://www.ecdtp.org/docs/pdf/IF%20
Father%20Res%20Summary%20(KD) pdf.)
---------------------------------------------------------------------------
    Responsible fatherhood programs can help fathers find work and stay 
engaged in their children's lives, allowing fathers to provide the 
emotional and financial support every child needs. The President is 
committed to promoting responsible fatherhood and helping fathers meet 
their obligations by ensuring that they have the broad range of 
services (including job, relationship, and parenting skills training) 
that they need to be successful. On Father's Day this year President 
Obama said,

          ``Now, I can't legislate fatherhood--I can't force anybody to 
        love a child. . . . What we can do is come together and support 
        fathers who are willing to step up and be good partners and 
        parents and providers. . . .''

    The vision of the President's fatherhood initiative in conjunction 
with services offered through Child Support Enforcement, Child Care and 
TANF offers an integrated set of strategies to bolster the economic 
security of especially vulnerable families and their children. Our 
fiscal year 2011 budget request to create a new Fatherhood, Marriage 
and Family Innovation Fund would build a strong evidence base around 
what service intervention models work to remove barriers to employment 
and increase family functioning and parenting capacity, and identify 
best practices that could be replicated within TANF, Child Support 
Enforcement, and other State and community-based programs. The 
Innovation Fund will provide for comprehensive programs that can meet 
the multiple needs that fathers and their families face.
    A guiding premise for us is that children need and deserve the 
financial and emotional support of both of their parents. Accordingly, 
we have placed a high priority on the effective operation of the Child 
Support Enforcement program. Child Support Enforcement is integral to 
family economic security and, of course, is an important aspect of our 
responsible fatherhood efforts. This program serves 17 million children 
overall, and half of all poor children. Most families in the program 
are low-income working families and the majority of children are born 
outside of marriage. Forty-five percent of these families formerly 
received TANF and 13 percent are currently in the TANF program.
    In fiscal year 2008, the Child Support Enforcement Program 
collected $26.6 billion in child support, while the total Federal 
contribution to costs was $4.1 billion. By securing support from non-
custodial parents, the Child Support Enforcement Program lifts a 
million people out of poverty every year and helps families avoid the 
need for public assistance. Child support provides about 30 percent of 
income for the poor families who receive it, and over 90 percent of the 
child support money collected by the program is distributed directly to 
children and families. This represents a shift in programmatic mission 
that began with welfare reform, to move the program from one that 
sought to reimburse the Federal and State Governments for public 
assistance paid to families. Distributing more of the support collected 
to families increases and stabilizes family income and strengthens 
positive outcomes for families. The emerging mission of the child 
support program is to improve child well-being by working with both 
parents to improve parental capacity to support their children.
    The Recovery Act temporarily restored Federal matching funds for 
State expenditures made with child support incentive payments--a long-
standing policy that was ended by the Deficit Reduction Act of 2005. In 
the past, State programs relied heavily on this authority to fund 
operations, and we estimate that program expenditures would be cut by 
over 10 percent without the continued matching funds, since it is 
unlikely that States could afford to make up the reduction in Federal 
funding. The President's fiscal year 2011 budget requests a total of 
$4.3 billion for the Child Support Enforcement Program and includes 
several legislative proposals, the most significant being a 1-year 
continuation of the Recovery Act provision.

                               CONCLUSION

    With the work of this subcommittee, and under your committed 
leadership, Mr. Chairman, significant strides have been made in 
understanding where we are most challenged in improving the state of 
American children and targeting funding and attention to policies that 
seek to address these challenges. As I have discussed in my testimony, 
the Administration has developed an integrated set of strategies to 
bolster ongoing efforts. Where we can, we are making policy changes and 
targeting resources to effect the change that is needed, but as I have 
outlined there are a number of key areas where we need your help. We 
look forward to working with the Congress to ensure that legislative 
changes and key investments are made to continue to improve the lives 
of children in America.
    Thank you for the opportunity to address the subcommittee today. I 
would be happy to answer any questions.

    Senator Dodd. Thank you very, very much, Mr. Hansell. I 
appreciate your testimony.
    Dr. Melendez, welcome and welcome to the committee.

STATEMENT OF THELMA MELENDEZ DE SANTA ANA, ASSISTANT SECRETARY, 
 OFFICE OF ELEMENTARY AND SECONDARY EDUCATION, U.S. DEPARTMENT 
                  OF EDUCATION, WASHINGTON, DC

    Ms. Melendez de Santa Ana. Thank you very much, Chairman 
Dodd, and thank you, Senator Casey and Senator Merkley. It is a 
wonderful opportunity, actually my first, to testify on behalf 
of the U.S. Department of Education. Mr. Chairman, I especially 
want to thank you, as others have done, for the decades of 
leadership in Congress as a champion for our country's most 
vulnerable children and families and the founder of the 
Senate's first Children's Caucus.
    As you know, I am the Assistant Secretary of Elementary and 
Secondary Education, and I come to this position with 
experiences as a superintendent, as a principal, and as a 
classroom teacher, and most recently, as you mentioned, as 
superintendent of the Pomona Unified School District.
    I appreciate your leadership in convening these hearings on 
the State of the American Child. It is critical that we are all 
aware of the challenges facing the Nation's children and 
families, particularly in these tough economic times.
    Many of us believe that education is the one true way out 
of poverty for disadvantaged students. In fact, education is 
critical, not just for the success of the individual child, but 
also for the success of this country. There is no doubt that an 
educated workforce is the key to remaining competitive in a 
global economy and necessary to ensuring the prosperity of our 
communities.
    While we have made great strides as a Nation, we still have 
a lot of work to do. The achievement gap between economically 
disadvantaged students and their more affluent peers is far too 
wide and it starts before kindergarten. In 2005, only 59 
percent of poor 4-year-olds participated in preschool education 
compared to 72 percent of nonpoor 4-year-olds. This gap 
continues as children get older.
    When we look at NAPE scores of both 4th and 8th graders, we 
continue to see very significant gaps between low-income 
students and their more affluent peers, as well as minority and 
nonminority students.
    Additionally, far too many young people fail to graduate 
from high school on time, especially young African-American, 
Latino, and Native American students. Nationally about 70 
percent of students graduate from high school on time with a 
regular diploma, but just over half of African-American and 
Latino and American Indian students earn diplomas within 4 
years of entering high school. And only 13 percent of Latinos 
and 17.5 percent of African-Americans hold a bachelors degree. 
We must do better.
    That is why the President and Secretary Duncan announced 
the Administration's program to reduce America's high school 
dropout rate with General Colin Powell and Alma Powell, the 
chair of the America's Promise Alliance, who testified at your 
first in this series of hearings. Mr. Chairman, the President 
has set an ambitious goal that by 2020 we will once again have 
the highest proportion of college graduates in the world.
    This goal is the basis of this Administration's cradle-to-
career strategy for education reform. Our plan begins with 
stronger early learning programs and services and continues 
with rigor and high expectations to ensure that more students 
enter high school on the path to graduate, prepared for college 
and a career. And finally, we must work to make sure that more 
students earn a college degree that prepares them for a 
meaningful career.
    The reauthorization of the Elementary and Secondary 
Education Act is an essential means to an end. Our proposal for 
reauthorization, the Blueprint for Reform, includes a focus on 
high-quality teaching and learning, improving equity and 
excellence, and building capacity at the State and local 
levels. The Blueprint is focused on closing the achievement 
gap, raising the bar for all students, and as you know, this is 
a moral and an economic imperative. Early learning from birth 
through 3rd grade is an essential part of our strategy for 
meeting the President's 2020 goal. Research demonstrates that 
learning begins at birth and that high-quality early learning 
programs help children, especially high-needs children, arrive 
in kindergarten ready to succeed in school and life, as Mr. 
Hansell mentioned.
    That is why the Administration's fiscal year 2011 budget 
request included $9.3 billion over 10 years for the Early 
Learning Challenge Fund to support States in strengthening 
their early learning settings. We recognize the difficult 
fiscal challenges and appreciate the work of the Senate 
Appropriations Subcommittee on Labor, Health and Human 
Services, Education, and Related Services for including $300 
million for this important priority in the fiscal 2011 mark. We 
remain committed to working with Congress to advance funding 
for this initiative and continuing our work on early learning 
with the Department of Health and Human Services.
    We are also setting high expectations and improving 
teaching and learning in our K-12 schools. Our approach builds 
on the efforts of the Nation's Governors and the State chief 
school officers by supporting State-developed college- and 
career-ready standards. But improving teaching and learning 
does not end with standards. It only begins there. We have got 
to support high-quality assessments, State and locally 
developed curricula, and professional development for teachers 
and principals that are aligned to these standards.
    Research tells us that teachers are the most important in-
school factor in student success, but access to effective 
teachers is not equal. High-poverty, high-minority schools and 
students get short-changed. We need to make sure that the best 
teachers teach where they are needed the most. Our proposal 
provides funds to spur the creation of more effective teacher 
preparation pathways, meaningful career ladders, and stronger 
supports to retain great teachers and programs to reward them 
for all that they do.
    To address the greatest achievement gaps and the lowest 
graduation rates, our proposal drives resources to our lowest 
performing schools. We have all set a goal of turning around 
5,000 of our lowest performing schools, the bottom 5 percent in 
each State in the country. There are schools where achievement 
has been low for years and is not improving. In fact, 2,000 of 
our high schools produce a majority of our Nation's dropouts 
and approximately 75 percent of our Latino and our African-
American dropouts.
    Thanks to the Recovery Act and annual appropriations, we 
have already committed $4 billion in school improvement grants 
to support local turnaround efforts. Through our Blueprint and 
our annual budget request, we will continue to seek resources 
and support to turn around these lowest performing schools.
    Our plan recognizes that diverse learners, including 
English learners, migrant, rural, and homeless students and 
students with disabilities, have specific needs that must be 
addressed through additional support.
    Further, thanks to your efforts, we are increasing college 
access and opportunities for more students, providing $40 
billion in increased Pell Grants to help more students go to 
college. And the Department has undertaken, over the past 2 
years, to simplify the student aid application process so that 
all students can get the aid for which they are eligible.
    And finally, our proposal strives to build capacity at the 
State and local levels through our initiatives like Race to the 
Top which includes grants to States for systemic reforms, 
Investing in Innovation, or i3, which provides grants to 
districts and nonprofits to develop and scale up promising 
practices. We need to make great improvements and pioneer new 
models. Our proposal also supports a comprehensive approach to 
student needs through Safe and Healthy Students and support for 
afterschool programs.
    We also want to increase support for strong family and 
community engagement in education. So we propose to double 
title I funding for family engagement and require districts and 
schools to implement strong family and community engagement 
efforts.
    Through his fiscal year 2011 budget request, the President 
has demonstrated that he is absolutely committed to children 
and to improving their education. He has proposed historic 
increases for education, the largest increase ever requested 
for ESEA, to ensure that students can succeed and that our 
country can maintain its place as a global leader.
    I think we can all agree that the current state of 
education is not good enough, especially when our most 
vulnerable children and families continue to struggle. We must 
all do better. We must continue to work together in a 
bipartisan way to reauthorize and improve ESEA as soon as 
possible. Our children simply cannot afford to wait.
    Once again, thank you, Chairman Dodd. Thanks to the 
committee for this opportunity to testify, and I look forward 
to answering any questions that you may have.
    [The prepared statement of Ms. Melendez de Santa Ana 
follows:]

           Prepared Statement of Thelma Melendez de Santa Ana

    Thank you, Chairman Dodd, Ranking Member Alexander, and members of 
the subcommittee for this opportunity to testify on behalf of the U.S. 
Department of Education. Mr. Chairman, I especially want to thank you 
for your decades of leadership in Congress, as a champion for our 
country's most vulnerable children and families, and the founder of the 
Senate's first Children's Caucus.
    My name is Thelma Melendez de Santa Ana, and I currently serve as 
the Assistant Secretary for Elementary and Secondary Education. I come 
to this position with experiences as a superintendent, a principal, and 
a classroom teacher, most recently as the superintendent of the Pomona 
School District in California. In each position I've held, I have been 
focused on what will improve teaching and learning, to help ensure the 
success of all of our children.
    I appreciate your leadership in convening these hearings on the 
``State of the American Child.'' It's critical that we all be aware of 
the challenges facing the Nation's children and families, particularly 
in these tough economic times. We have to see the roadblocks in order 
to overcome them.
    Many of us believe that education is the one true way out of 
poverty for disadvantaged children. In fact, education is critical not 
just to the success of an individual child, but also to the success of 
the country. There's no doubt that an educated workforce is the key to 
remaining competitive in a global economy and that an educated 
citizenry is necessary to ensure national prosperity and the common 
good.
    While we have made great strides as a nation, we have a lot of work 
to do. The achievement gap between economically disadvantaged students 
and their more affluent peers is far too wide. And far too many young 
people fail to graduate from high school on time--especially young 
African-American, Latino, and Native American students.
    Nationally, about 70 percent of students graduate from high school 
on time with a regular diploma, but just over half of African-American 
and Latino and American Indian students earn diplomas within 4 years of 
entering high school. In many States, the graduation gap between white 
and minority students is stunning; in several, it is as much as 40 or 
50 percentage points. And, only 13 percent of Latinos and 17.5 percent 
of African-Americans hold a bachelor's degree. We must do better. That 
is why the President and I announced the Administration's program to 
reduce America's high school dropout rate, which we announced with 
General Colin Powell and Alma Powell, the chair of the America's 
Promise Alliance--who testified at your first in this series of 
hearings. Our goal is that by 2020, we will once again have the highest 
proportion of college graduates in the world--and reaching that goal 
will require focusing attention not only on high school dropouts, but 
all along the educational continuum.
    This goal is the basis of this Administration's cradle-to-college-
and-career strategy for education reform. Our plan begins with stronger 
early learning programs and services, making sure children enter school 
ready to learn. Further, we must ensure that more students enter high 
school with strong grounding based on high standards and effective 
teaching in elementary and middle school, so they are on a path to 
graduate from high school ready to succeed in college and a career. 
And, finally, we must work to make sure that more students earn a 
college degree that prepares them for a meaningful career.
    The reauthorization of the Elementary and Secondary Education Act 
(ESEA) is an essential means to this end. Our reauthorization Blueprint 
for Reform includes a focus on high-quality teaching and learning, 
improving equity and excellence, and building capacity at the State and 
local levels. We've centered the goals of the Blueprint on closing the 
achievement gap and raising the bar for all students. This is a moral 
and economic imperative.
    The years prior to kindergarten are critical in shaping a child's 
foundation for later school success. Research demonstrates that 
learning begins at birth and that high-quality early learning programs 
help children, especially high-need children, arrive in kindergarten 
ready to succeed in school and in life. Early learning is an essential 
part of our strategy for meeting the President's 2020 goal. As the 
Secretary says, we have to get schools out of the catch-up business.
    The Department's early learning agenda focuses on children from 
birth through third grade, with seamless transitions between preschool 
and elementary school. Our proposal for reauthorizing ESEA supports a 
continuum of learning that will help to close the achievement gap and 
ensure that every student graduates from high school ready to succeed 
in college and a career.
    Our approach builds on the great efforts of the Nation's governors 
and the chief State school officers by supporting implementation of 
State-developed college- and career-ready standards. But improving 
teaching and learning doesn't end with standards--it only begins there. 
We've got to support high-quality assessments, State and locally 
developed curricula, and professional development and communities of 
collaborative support for teachers and principals that are aligned to 
those standards. And we need to ensure fair and rigorous 
accountability, measuring every student's growth towards college and 
career readiness, as growth and progress are critical elements of any 
picture of how our schools are doing.
    In order to close the achievement gap between economically 
disadvantaged students and their more affluent peers, we must provide 
better educational opportunities for all students.
    High quality early learning programs and services are so important 
to ensuring equity and excellence for a child's educational future. 
Studies show that at least half of the achievement gap between poor and 
more affluent children already exists when they enter kindergarten. The 
larger the gap, the harder it is to close later on. That is why the 
Administration's fiscal year 2011 budget request included $9.3 billion 
over 10 years for the Early Learning Challenge Fund, to support and 
encourage States to reform and raise the bar across their early 
learning settings. Many in Congress worked to include the Early 
Learning Challenge Fund in the Healthcare and Education Reconciliation 
Act earlier this year. We remain committed to working with Congress to 
advance funding for this important initiative in fiscal year 2011.
    Research also tells us that teachers are the most important in-
school factor in student success, but access to effective teachers is 
not equal. We all know that high-poverty and high-minority schools are 
being short-changed--often being taught by less experienced, less well-
prepared, and less-effective teachers. We need to make sure that the 
best teachers teach where they are needed the most. We want to spur the 
creation of more effective pathways for preparation of teachers, 
meaningful career ladders and stronger efforts to retain great 
teachers, and we want to support educators in their instructional 
practice and reward them for all they do. Our proposal will provide 
funds to develop and support effective teachers and leaders and make 
sure that every child has the opportunity to learn from excellent 
teachers.
    In order to address the greatest achievement gaps and the lowest 
graduation rates, our proposal drives efforts and resources to our 
lowest performing schools.
    We have set a goal of turning around 5,000 of our lowest performing 
schools--the bottom 5 percent in each State in the country. These are 
schools where achievement has been low for years and isn't improving. 
Many of these schools produce a disproportionate percentage of our high 
school dropouts. In fact, fewer than 15 percent of all high schools, 
about 2,000 schools, produce a majority of our Nation's dropouts and 
approximately two-thirds of Latino and African-American dropouts.
    Thanks to the Recovery Act and annual appropriations, we have 
already committed $4 billion to support local efforts to turn around 
these lowest performing schools through School Improvement Grants--up 
to $6 million to help each of these schools. Through our Blueprint and 
our annual budget request, we will continue to seek resources and 
support to turn around our lowest-performing schools.
    Our plan also recognizes that diverse learners, including English 
Learners, migrant, rural, and homeless students, students with 
disabilities, and other vulnerable populations have specific needs that 
must be addressed through additional support. For example, to better 
support English Learners (EL), we are encouraging states to develop 
English language proficiency standards and high-quality assessments 
that prepare EL students to succeed. We also expect schools to 
understand the diversity of their EL populations and better 
differentiate their supports for subgroups of EL students.
    Further, thanks to SAFRA, we are increasing college access and 
opportunities for more students, providing $40 billion in increased 
Pell Grants to help more students go to college. And, the Department 
has undertaken efforts over the past 2 years to simplify the Federal 
student aid application process so that all students can get the aid 
for which they are eligible.
    Finally, our proposal strives to help build capacity at the State 
and local levels for making the reforms necessary to close the 
achievement gaps. Our plan recognizes that capacity is a critical 
element as States, districts, non-profit organizations, and communities 
undertake major changes to improve education for all their students. 
Through our initiatives, like Race to the Top, which provides grants to 
States for systemic reforms, and Investing in Innovation, or i3, which 
provides grants to districts and non-profits to develop and scale up 
promising instructional practices, strategies and supports, we can make 
great improvements and pioneer new models. Our proposal supports a 
comprehensive approach to students' needs, including through Safe and 
Healthy Students and support for afterschool programs. We maintain 
important formula funding, and structure competitive programs to target 
the areas that most need those funds.
    We also propose to increase support for strong family and community 
engagement and efforts to create open, welcoming avenues for parents to 
engage with teachers, schools, and programs. We believe that family and 
community engagement should be a requirement for schools and districts, 
especially as they seek to improve. And that's why we propose to double 
title I funding for family engagement. In addition, through Promise 
Neighborhood grants, we will support the development and implementation 
of a continuum of effective community services, strong family supports, 
and comprehensive education reforms in high-need communities, to 
improve children's education and life outcomes.
    Through his fiscal year 2011 budget request, the President has 
demonstrated that he is absolutely committed to children and to 
improving their education--he has proposed historic increases for 
education programs--the largest increase ever requested for ESEA--to 
ensure that students can succeed and that our country can maintain its 
place as a global power.
    I think we can all agree that the current state of education is not 
good enough, especially when certain segments of our population, our 
most vulnerable children and families, continue to struggle. We must 
all do better. And that's why we must continue to work together in a 
bipartisan way to reauthorize and improve ESEA as soon as possible. Our 
children simply can't afford to wait.
    Once again, thank you Chairman Dodd, and thanks to the committee 
for this opportunity to testify. I look forward to answering any 
questions you may have.

    Senator Dodd. Doctor, thank you very, very much. I 
appreciate your testimony.
    Dr. Koh, welcome.

 STATEMENT OF HOWARD K. KOH, M.D., M.P.H., ASSISTANT SECRETARY 
   FOR HEALTH, U.S. DEPARTMENT OF HEALTH AND HUMAN SERVICES, 
                         WASHINGTON, DC

    Dr. Koh. Thank you very much, Chairman Dodd, Senator Casey, 
Senator Merkley. It is a great honor to be here today to 
address the state of children's health and to review the 
activities of the Department of Health and Human Services to 
advance the health and well-being of America's children.
    The youth of today are tomorrow's workers, parents, and 
leaders, and we must provide them with every opportunity to 
reach their full potential for health. So this hearing is of 
great importance to the Nation and to me personally as the 
Assistant Secretary for Health, as a physician who has cared 
for patients for over 30 years, and as a father of three.
    First, Mr. Chairman, thank you for your extraordinary 
service to our Nation's children and families. Over the past 3 
decades, you have demonstrated an outstanding commitment to 
promoting the health of children and guaranteeing essential 
health services. You have led so many efforts to build a 
foundation for health for the youngest and most vulnerable in 
our society. Most importantly perhaps, you have long recognized 
that children's health is shaped by a constellation of 
interconnected factors outside of the realm of individual 
biology of disease, including education, economics, family 
environment, policy change, and many other dimensions. Our 
Department views health through the same broad lens, and we 
share your commitment to a broad societal interconnected 
approach to health to respond to these needs.
    And on a personal note, Mr. Chairman, since I grew up in 
New Haven, CT, attended college and medical school there, and 
have felt your personal support of me and my brother, Legal 
Advisor Harold Koh of the State Department, as we both entered 
public service on the Federal level, I want to thank you for 
everything you have done not just for my family but for so many 
families across this country.
    The public health future of our children rests on more 
culturally competent health care and a major focus on 
prevention and wellness. And we are very proud to be in an 
administration where those priorities are upheld by the 
President and Secretary Sebelius.
    We know that there will be major demographic shifts over 
the coming decades. By 2050, we have projected 107 million will 
live in the United States, 25 million more than today, and also 
diversity will expand, as you have heard from my fellow 
speakers. So in these and many other ways, the population of 
children will grow and change and we must be ready to address 
these challenges with new opportunities.
    In that spirit, the definition of children's health has 
expanded and is now viewed broadly. In fact, in 2004, an 
Institute of Medicine report proposed a new definition saying,

          ``Children's health should be defined as the extent 
        to which an individual child or groups of children are 
        able or enabled to develop and realize their potential, 
        satisfy their needs, and develop the capacities that 
        allow them to interact successfully with their 
        biological, physical, and social environments.''

    So we embrace this broader definition, and it highlights 
not just the physical health aspects but also mental health and 
social well-being dimensions of true health or, as the World 
Health Organization has stated, ``Health is a state of complete 
physical, mental and social well-being and not merely the 
absence of disease or infirmity.''
    I am very pleased to tell you, Mr. Chairman and 
subcommittee members, that the health status of children as a 
whole has improved in many ways over the last several 
generations. When we look at Healthy People 2010, the Nation 
has either progressed toward or met many targets that were set 
a decade ago. For example, let me cite a few.
    For childhood immunizations, we are at near record high 
levels, including those related to diphtheria, polio, 
hepatitis, meningitis, pneumococcal infections, and 
meningococcal disease.
    For Sudden Infant Death Syndrome, we have clear reductions 
in that category.
    For perinatally acquired AIDS, we have had a decreasing 
number of new cases.
    Breastfeeding rates have increased.
    We have an increase in health insurance coverage rates for 
children, although we need much more.
    We have a decline in adolescent birth rates after a 2-year 
increase and a decline in percentage of preterm births for the 
second straight year.
    However, we at the Department and so many others across the 
country are aware of the many, many health challenges that 
remain. For example, childhood obesity. You have already heard 
that theme from my fellow speakers. Preterm births, infant 
mortality with the recent stall in the decline of rates and 
striking disparities. Injury and violence remain leading causes 
of death for adolescents. Conditions such as asthma, autism, 
and other developmental disorders impact quality of life. 
Tobacco, alcohol, and other drugs remain major challenges for 
our children. Early sexual activity leads to sexually 
transmitted disease and unintended pregnancy. And mental health 
disorders deserve special attention.
    So at Health and Human Services, we are committed to 
working with you and so many others across the country to 
address these challenges. And there are many, many 
opportunities and let me just cite a few.
    With your great leadership, Mr. Chairman, we have 
reauthorized the Children's Health Insurance Program and also 
the Affordable Care Act will have such far-reaching 
implications for generations to come. And we are delighted that 
through these two efforts, coverage will be expanded, 
prevention will be highlighted, and kids will be healthier for 
the future.
    We are particularly pleased that in the Affordable Care 
Act, there are $15 billion dedicated over the next 10 years in 
a new Public Health and Prevention Fund and also a dedicated 
effort for a new public health and prevention strategy that is 
going to emphasize reaching full potential for adults and 
children.
    Allow me to comment further on three areas: tobacco, 
obesity, and emotional well-being.
    On June 22, 2009, we entered a new era of prevention and 
tobacco control when the President signed the Family Smoking 
Prevention and Tobacco Control Act into law. Mr. Chairman, I 
remember very fondly being in the Rose Garden with you and 
thanking you for your leadership then, and I want to thank the 
subcommittee members who have all been so supportive on tobacco 
control and launching the country to a new era in public health 
due to the passage of this law.
    As you have heard, we are also partnering with the First 
Lady on the Let's Move! campaign to solve childhood obesity in 
the next generation, and we have many activities in the 
Department to support that work, new dietary guidelines coming 
out for Americans in the very near future, and the Affordable 
Care Act promotes many activities about prevention that will 
focus on obesity.
    And then finally, on emotional and mental health for our 
kids moving forward, last year a very important Institute of 
Medicine report entitled, Preventing Mental, Emotional, and 
Behavioral Disorders in Young People, articulated the issues 
and offered broad strategies for moving forward with respect to 
treatment, recovery and prevention, and we are embracing those 
approaches at the Department.
    So in summary, Mr. Chairman and subcommittee members, thank 
you for the opportunity for this brief presentation. By 
expanding opportunities for our kids, building the right 
infrastructure, focusing on prevention and wellness, we have 
many, many opportunities for the future, and we look forward to 
broadening and strengthening our partnerships with you and so 
many others across the country. Thank you very much.
    [The prepared statement of Dr. Koh follows:]

           Prepared Statement of Howard K. Koh, M.D., M.P.H.

                              INTRODUCTION

    Good morning Chairman Dodd, Ranking Member Alexander and members of 
the subcommittee. It is my honor to be here today to review the state 
of children's health and to present the activities of the Department of 
Health and Human Services (HHS) to advance the health and well-being of 
America's 74.5 million children. The young people of today are 
tomorrow's workers, parents and leaders. We must provide them with 
every opportunity to reach their full potential, which, in turn, 
requires good health.
    First, Mr. Chairman, thank you for your extraordinary service to 
our Nation's children and families. Over the last 36 years, you have 
demonstrated an outstanding commitment to developing policies that 
promote children's healthy development and guarantee essential health 
resources. Your leadership has helped millions of poor children receive 
the care they deserve. You have led so many efforts to build the 
foundation for health for the youngest and most vulnerable among us. 
More importantly perhaps, you have long recognized that children's 
health is shaped by a constellation of interconnected factors outside 
of the traditional health realm, including education, family 
environment and community settings. HHS views ``health'' through the 
same broad lens. We share your commitment to ensuring that values of 
interconnectedness and shared responsibility are part of all of our 
continuing efforts to respond to the health needs of infants, children, 
adolescents and their families.
    I am pleased to say that the health status of children as a whole 
has improved significantly over the last few generations. Expanded 
access to health care and increased commitment to the development of 
comprehensive and coordinated child health initiatives across life 
stages have led to this improvement. We at HHS are acutely aware of the 
many challenges that remain such as childhood obesity prevention, 
tobacco control and the onset of mental health disorders, and we are 
working with our Federal, State and local partners to address them. 
That's why one of the first things President Obama did was sign into 
law a reauthorization of the Children's Health Insurance Program 
(CHIP)--a down payment on comprehensive health insurance reform. And in 
March of this year, the President signed the Affordable Care Act, 
putting in place comprehensive reforms that will hold insurance 
companies more accountable, lower health care costs, guarantee more 
health care choices, and enhance the quality of health care for all 
Americans. These new laws will have far reaching positive impacts on 
our healthcare system and on children's health and lives for 
generations to come.

  EXPANDING ACCESS AND IMPROVING QUALITY: CHILDREN'S HEALTH INSURANCE 
    PROGRAM REAUTHORIZATION ACT (CHIPRA) AND THE AFFORDABLE CARE ACT

Expanding Access to Private and Public Coverage
    CHIPRA and the Affordable Care Act greatly expand resources and 
coverage for CHIP and seek to improve the quality of care, including 
shifting toward a greater focus on prevention. CHIPRA and the 
Affordable Care Act combine to provide an additional $69 billion in 
Federal CHIP allotments through fiscal year 2015. The Centers for 
Medicare and Medicaid Services (CMS) shows that in fiscal year 2009, 8 
million children were enrolled in CHIP, and the funding increases in 
CHIPRA and the Affordable Care Act will allow States to cover millions 
more children in both Medicaid and CHIP.
    Additionally, Secretary Sebelius has initiated the Secretary's 
Challenge: Connecting Kids to Coverage, a 5-year campaign that will 
challenge Federal officials, governors, mayors, community 
organizations, tribal leaders and faith-based organizations to enroll 
the nearly 5 million uninsured children who are eligible for Medicaid 
or CHIP but are not currently enrolled.
    The Affordable Care Act builds on these commitments. Children will 
benefit from new rules of the road that insurance companies have to 
follow, comprehensive reforms that expand access to health coverage, a 
new emphasis on the quality of children's care, and important new 
policies and programs that will put prevention first.
    Beginning this year, health insurance companies will be prohibited 
from excluding children from coverage because of pre-existing 
conditions. Additionally, insurance companies will no longer be allowed 
to impose lifetime dollar limits on essential benefits, nor will they 
be permitted to cancel coverage when an individual gets sick just 
because of a mistake in her paperwork.
    To move toward a system where all children have access to health 
insurance, the new law not only extends CHIP through Fiscal Year 2015 
and provides additional funding, but also strengthens both Medicaid and 
CHIP by raising Medicaid's Federal income eligibility floor to 133 
percent of the Federal poverty level in 2014 and maintaining existing 
levels of coverage for children in CHIP. Furthermore, in 2014, families 
who are not eligible for other affordable coverage will be able to use 
State insurance exchanges to obtain coverage for themselves and their 
children.

Improving Quality of Health Care
    To address quality improvement in children's health care, the 
Affordable Care Act creates quality priorities and promotes quality 
measurement for children, as well as reporting requirements for care 
children receive. The act outlines provisions to ensure there are an 
adequate number of medical providers to meet increased future needs. 
And, coverage in the new State-based insurance exchanges will include 
children's dental and vision coverage--two critical forms of coverage 
that are often not included in coverage packages for children.
    Children will also benefit from unprecedented investments in 
prevention at both the individual and community levels, as essential 
prevention services are more fully integrated between the clinic and 
community. At the individual level, new health plans are required to 
cover recommended preventive services with no cost-sharing for the 
enrollee. These recommended services include regular well-baby and 
well-child visits, routine immunizations, and other screenings that are 
important to keep kids healthy. Additionally, the Affordable Care Act 
makes a major investment--$1.5 billion over 5 years--in evidence-based 
home visitation programs designed to improve outcomes--including 
maternal and child health and development outcomes--for pregnant women 
and families with young children.
    To ensure quality and safety of pediatric medications, the Best 
Pharmaceuticals for Children Act and the Pediatric Research Equity Act 
have stimulated pediatric studies of therapies intended for the 
pediatric populations. As a result, labeling has been changed for 
almost 400 medications to include information to guide safe use in 
children. Before 1997, a majority of medications (approximately 80 
percent) that were prescribed to pediatric patients were not studied in 
children.
    At the community level, the Affordable Care Act invests $15 billion 
over the next 10 years in public health and prevention programs through 
the creation of the Public Health and Prevention Fund to promote 
improved health outcomes. Its activities will complement the work of 
the first-ever National Prevention and Health Promotion Strategy, which 
will emphasize prevention and well-being--identifying and prioritizing 
actions across government and between sectors to benefit Americans of 
all ages.
    By expanding and sustaining the necessary infrastructure to prevent 
disease, detect it early, and manage conditions before they become 
severe, HHS is working to transform our health care system to keep 
children healthy and reduce the likelihood that children will develop 
chronic disease later in life. As part of this historic commitment, the 
Department has leveraged the Communities Putting Prevention to Work 
(CPPW) program, funded through the American Recovery and Reinvestment 
Act (ARRA). This program expands the use of evidence-based strategies 
and programs, mobilizes local resources at the community-level, and 
strengthens the capacity of States. Through its four distinct but 
unified initiatives, CPPW will: increase levels of physical activity; 
improve nutrition; decrease obesity rates; and decrease smoking 
prevalence, teen smoking initiation, and exposure to second-hand smoke. 
The initiative's strong emphasis on policy and environmental change at 
both the State and local levels supports an expanding definition of 
``health'' for the public.

                DEFINING ``HEALTH'' AND HEALTHY CHILDREN

    The definition of ``health'' in childhood has evolved significantly 
over time. A century ago, when infectious diseases posed the greatest 
threat, ``health'' was viewed as the absence of disease or premature 
mortality. Today, ``health'' in general, and children's health in 
particular, is now viewed in a broader developmental context. A 2004 
Institute of Medicine (IOM) report, Children's Health, The Nation's 
Wealth, proposed a new definition to reflect these new realities:

          Children's health should be defined as the extent to which an 
        individual child or groups of children are able or enabled to: 
        (a) develop and realize their potential; (b) satisfy their 
        needs; and (c) develop the capacities that allow them to 
        interact successfully with their biological, physical, and 
        social environments.

    This broader definition incorporates not only the physical absence 
of disease, but also highlights healthy development throughout life 
stages which recognizes the critical roles of mental and social well-
being. As shown in the Centers for Disease Control and Prevention's 
(CDC) Adverse Childhood Experiences study, psychologically difficult 
events in childhood are linked with a range of later physical and 
behavioral health problems, including smoking, suicide, heart and lung 
disease, physical injury, diabetes, obesity, unintended pregnancy, 
sexually transmitted diseases, and alcoholism (Felitti, et al. 2002). 
Indeed, as noted by the World Health Organization (WHO), ``Health is a 
state of complete physical, mental and social well-being and not merely 
the absence of disease or infirmity.''
    This ``social determinants'' approach to health is the vision 
behind the Department's Healthy People initiative--a national health-
promotion and disease-prevention agenda that, for the last three 
decades, has articulated overarching goals, emerging public health 
priorities and tracked movement toward specific targets. In the coming 
decade, Healthy People 2020 proposes four overarching goals: (1) 
achieve health equity, eliminate disparities and improve health for all 
groups; (2) eliminate preventable disease, disability, injury and 
premature death; (3) promote healthy development and healthy behaviors 
across every life stage; and (4) create social and physical 
environments that promote good health for all. As we prepare for the 
next decade, implement the Affordable Care Act, and enter a new era of 
prevention, HHS will continue using the Healthy People framework as a 
public health roadmap to unify our national dialogue about health, 
including children's health, motivate action, and encourage new 
directions in health promotion.
    Wrapping up Healthy People 2010 activities permits an assessment of 
the status of children's health in relation to targets set a decade 
ago. Preliminary analyses indicate that the Nation has either 
progressed toward or met the target on a number of objectives for 
children. These figures, detailed below, reflect movement on a host of 
diseases, conditions, risk factors, and behaviors for the growing 
population of U.S. children.

 STATE OF CHILDREN'S HEALTH: DATA SNAPSHOT AND PROGRESS TOWARD HEALTHY 
                          PEOPLE 2010 TARGETS

    The number of children in the United States is increasing. In 2009, 
there were 74.5 million children in the United States, 2 million more 
than in 2000. This number is projected to increase to 101.6 million by 
2050. In 2009, the population of children was evenly divided over three 
age groups: 0-5 years (25.5 million), 6-11 years (24.3 million), and 
12-17 years (24.8 million). Children's racial and ethnic diversity is 
projected to grow in the decades to come: by 2023; less than half of 
all children are projected to be White, non-Hispanic. By 2050, 39 
percent of U.S. children are projected to be Hispanic (up from 22 
percent in 2009), and 38 percent are projected to be White, non-
Hispanic (down from 55 percent in 2009).
    Similar to the Healthy People framework which is used to motivate 
action on children's health activities and improve health outcomes, the 
Forum on Child and Family Statistics releases an annual report using 
statistical data from 22 Federal agencies on the well-being of U.S. 
children and families. This year's report demonstrates a number of key 
positive trends including: a decline in the percentage of pre-term 
births (for the second straight year); an increase in health insurance 
coverage rates for children; a decline in the adolescent birth rate 
after a 2-year increase; and teen smoking rates at their lowest levels 
since data collection began for the report.
Maternal, Infant and Child Health and Early and Middle Childhood
    Perhaps the most notable development is that following years of 
increases, the Nation's pre-term birth rate declined for the second 
straight year, from 12.8 percent in 2006 to 12.7 percent in 2007 to 
12.3 percent in 2008. Decreases in pre-term birth rates between 2007 
and 2008 were seen for each of the three largest race and ethnicity 
groups: White, non-Hispanic; Black, non-Hispanic; and Hispanic women. 
Still, one out of every eight babies in the United States are born pre-
term, and the U.S. pre-term birth rate is higher than in most developed 
countries.
    After decades of decline, the recent stagnation in the U.S. infant 
mortality rate has generated concern among researchers and 
policymakers. The U.S. infant mortality rate did not decline 
significantly from 2000 to 2005, showed a slight decline from 2005 to 
2006, and a non-significant increase from 2006 to 2007. In 2007, a 
total of 29,138 infant deaths occurred in the United States, and the 
U.S. infant mortality rate was 6.75 infant deaths per 1,000 live 
births, compared with 6.89 in 2000. Furthermore, there persist 
significant disparities in infant mortality rates among racial and 
ethnic minorities.
    Maintaining and enhancing the success of childhood vaccination is 
crucial to ensuring children's long-term health and public health. 
Increased immunization rates over the last century have improved 
children's health and increased life expectancy. Today, childhood 
vaccination rates are at near record high levels but they can still 
improve.
    Autism is more prevalent than previously believed, affecting 1 out 
of every 110 American children.
    Chronic diseases continue to affect a large percentage of children. 
For example, nearly 1 in 10 children (9 percent) have asthma, which 
includes children with active asthma symptoms and children with well-
controlled asthma. The percentage of children with current asthma 
increased slightly from 2001 to 2008.
    Childhood obesity is another major public health challenge: 1 in 3 
U.S. children are over-weight or obese. Additionally, a third of 
children born in 2000 are expected to develop weight-related diabetes 
in their lifetime. Combined data for the years 2005-8 indicate that 
Mexican-American and Black, non-Hispanic children were more likely to 
be obese than White, non-Hispanic children. Obesity impacts children in 
almost every facet of their life, not just health. According to the 
White House Task Force on Childhood Obesity's Report to the President, 
severely obese children have a level of health-related quality of life 
(a measure of their physical, emotional, educational and social well-
being) well below their peers that are not overweight. Obesity rates 
are related to poor eating patterns: in 2003-4, on average, children's 
diets were out of balance, with too much added sugar and solid fat and 
not enough nutrient-dense foods, especially fruits, vegetables, and 
whole grains. The average diet for all age groups met the standards for 
total grains, but only children ages 2-5 met the standards for total 
fruit and milk.
    Unintentional injuries--such as those caused by burns, drowning, 
falls, poisoning and road traffic--also remain the leading cause of 
morbidity and mortality among children in the United States. Each year, 
among those 0 to 19 years of age, more than 12,000 people die from 
unintentional injuries, and more than 9.2 million are treated in 
emergency departments for nonfatal injuries.

Adolescent Health
    Injury and violence are the leading causes of death for 
adolescents. For example, motor vehicle crashes are the leading cause 
of death for U.S. teens, accounting for more than one in three deaths 
in this age group. In 2008, 9 teens ages 16 to 19 died every day from 
motor vehicle injuries. Per mile driven, teen drivers ages 16 to 19 are 
four times more likely than older drivers to crash. Fortunately, teen 
motor vehicle crashes are preventable, and proven strategies can 
improve the safety of young drivers on the road. In 2008, about 3,500 
teens in the United States aged 15-19 were killed, and more than 
350,000 were treated in emergency departments for injuries suffered in 
motor vehicle crashes. Young people ages 15-24 represent only 14 
percent of the U.S. population; however, they account for 30 percent 
($19 billion) of the total costs of motor vehicle injuries among males 
and 28 percent ($7 billion) of the total costs of motor vehicle 
injuries among females.
    Today's adolescents face a variety of challenges and stresses. By 
far, the largest challenges to this age group are the dangers of drugs 
and alcohol, and the onset of mental health disorders. Illicit drug use 
among youth remained unchanged from 2008 to 2009. In 2009, 8 percent of 
8th graders, 18 percent of 10th graders, and 23 percent of 12th graders 
reported illicit drug use in the past 30 days. These statistics 
represent declines from peaks of 15 percent for 8th graders and 23 
percent for 10th graders in 1996 and 26 percent for 12th graders in 
1997. However, the proportion of 8th graders who disapprove of trying 
marijuana or hashish once or twice increased from 69 percent in 1998 to 
76 percent in 2004, exceeding the Healthy People target of 72 percent. 
An emerging substance use issue of concern is the non-medical use of 
prescription drugs among teens. Past-year nonmedical use of substances 
such as Vicodin and OxyContin increased during the last 5 years among 
10th graders and remained unchanged among 8th and 12th graders. Nearly 
1 in 10 high school seniors reported non-medical use of Vicodin; 1 in 
20 reported abuse of OxyContin.
    Alcohol use is an ongoing public health concern. Between 1999 and 
2009, heavy drinking declined from 13 percent to 8 percent among 8th 
graders, from 24 percent to 18 percent among 10th graders, and from 31 
percent to 25 percent among 12th graders. For students in grades 9 
through 12, riding with a driver who has been drinking achieved its 
Healthy People target. In addition, a nationwide legal standard of .08 
percent blood alcohol concentration (BAC) maximum levels for driving 
while intoxicated (DWI) enforcement and prosecution was achieved. This 
standard represents an effective tool in the effort to combat drunk 
driving. Research has found that passage of a 0.08 percent BAC per se 
law (which makes it an offense in and of itself to drive with a BAC 
measured at or above .08, whether or not the driver or operator 
exhibits visible signs of intoxication), particularly when accompanied 
by publicity, results in a 6 percent to 8 percent reduction in alcohol-
related fatalities. In spite of these gains, underage drinking remains 
a serious threat to the health and safety of adolescents. On average, 
28 percent of youth aged 12 to 20 drank alcohol in the past month. 
These underage drinkers consumed, on average, more drinks per day (4.9) 
on the days they drank than persons aged 21 or older (2.8).
    Also, despite progress in reducing tobacco use, nearly 3,900 kids 
try their first cigarette each day, and 1,000 of those children become 
daily smokers. Tobacco dependence is recognized as a pediatric disease 
because 90 percent of tobacco users begin using before 18 years of age. 
Recent Morbidity and Mortality Weekly Report data from CDC on tobacco 
found that for three measures of cigarette use (ever smoked cigarettes, 
current cigarette use, and current frequent use), rates among high 
school students began to decline in the late 1990s, but the rate of 
decline slowed during 2003-9. However, indicators of exposure to 
second-hand smoke in children have decreased from 88 percent in the 
years between 1998 and 1994 to approximately 53 percent in 2007-8. But 
this still represents a significant risk because routine exposure to 
second-hand smoke increases the probability of lower respiratory tract 
infections, asthma, and sudden infant death syndrome.
    Mental health disorders also often have their onset during the teen 
years. In 2008, 8.5 percent of youth aged 12-17 years old had a major 
depressive episode in the past year. In fact, half of all lifetime 
cases of mental illness begin by age 14 and by age 24. In this sense, 
adolescence is a particularly vulnerable period for the onset of mental 
disorders.
    Early sexual activity is also associated with emotional and 
physical health risks. Youth who engage in sexual activity are at risk 
of contracting sexually transmitted infections (STIs) and becoming 
pregnant. In 2007, 48 percent of high school students reported ever 
having had sexual intercourse. In the same year, among those reporting 
having had sexual intercourse during the past 3 months, 16 percent 
reported the use of birth control pills to prevent pregnancy before the 
last sexual intercourse, and 62 percent reported use of a condom during 
the last sexual intercourse.

The Healthy People Midcourse Review
    At the Healthy People 2010 midcourse review, progress was made 
toward achieving or exceeding targets for the Nation's maternal, 
infant, and child health objectives. We can cite achievements 
throughout the life course of the young child through to young 
adulthood, including:

    <bullet> Preconception care--Folic acid intake: The proportion of 
women of child-bearing age consuming the recommended daily intake of 
folate increased. Median red blood cell (RBC) folate levels for non-
pregnant females aged 15 to 44 years exceeded the Healthy People target 
of 220ng/ml.
    <bullet> Preconception care--Smoking cessation: The proportion of 
women who have abstained from smoking during pregnancy increased, 
moving toward the target of 99 percent.
    <bullet> Perinatally acquired HIV: The target for the number of new 
cases of perinatally acquired AIDS was exceeded: new cases declined 
from a baseline of 82 new cases in 2002 to 57 cases in 2003, surpassing 
the target of 75 cases. Prevention of perinatal HIV transmission 
requires routine HIV screening of all pregnant women and the use of 
appropriate antiretroviral and obstetrical interventions that begin 
during the pregnancy and continue through the first few months of the 
infant's life. Together, these actions can reduce the rate for mother-
to-child HIV transmission to 2 percent or lower.
    <bullet> Breastfeeding: Rates increased for immediate and 6- and 
12-months post partum.
    <bullet> Immunizations: A number of Healthy People vaccination 
objectives reached their targets, including those related to 
diphtheria, polio, hepatitis, bacterial meningitis, pneumococcal 
infections, and meningococcal disease (for adolescents). Perinatal 
hepatitis B prevention programs and the routine hepatitis B vaccination 
of children have also resulted in a decline of cases of chronic 
hepatitis B virus infections in infants and children aged 2 years and 
under--achieving 63 percent of the targeted change. Additionally, just 
as the objectives related to the vaccinations themselves are important, 
so are the objectives related to evidence-based strategies for raising 
vaccination coverage rates. The proportion of public and private health 
care providers who have measured childhood vaccination coverage levels 
and the proportion of children participating in population-based 
immunization registries moved toward their targets.
    <bullet> Sudden infant death syndrome (SIDS): Despite significant 
declines in rates since 1990, SIDS remains the third leading cause of 
infant death. Clear reductions occurred in infant deaths and deaths 
attributed to sudden infant death syndrome. Reported rates for SIDS 
declined by 15 percent between 1999 and 2002. From its original 
baseline of 35 percent, the proportion of infants being put to sleep on 
their backs met the Healthy People target of 70 percent.

            HHS ACTIVITIES TO IMPROVE CHILD HEALTH OUTCOMES

    Multiple agencies within HHS are working to maximize the impact of 
available resources to respond to the current and emerging physical, 
mental and social health needs of children and their families. In the 
rest of the testimony, we use the life-span framework to review the 
current status of these activities:

Maternal, Infant, and Child Health and Early to Middle Childhood
Current Program Activities and Accomplishments
    Infant mortality: HHS is analyzing reasons for the recent 
stagnation in infant mortality rates, possible causes of pre-term 
birth, issues in the coding and reporting of sudden and unexplained 
infant deaths, and strategies for preventing maternal illness and 
death. Given the high pre-term birth rate, and the lack of substantial 
decline in the infant mortality rate in the United States, a 
comprehensive public health research agenda that investigates the 
social, genetic, and biomedical factors contributing to pre-term birth 
and existing racial and ethnic disparities would inform policies and 
activities. A National Summit on Preconception Care was convened by CDC 
and its partners in June 2005, and there have been subsequent 
conferences focused on preconception care in 2008 and preconception 
health in 2010. National recommendations to coordinate services are 
forthcoming and are expected to lead to improved pregnancy outcomes and 
reduce costs associated with adverse perinatal outcomes.
    SIDS: The national ``Back to Sleep'' campaign is educating 
physicians and caregivers about the risks associated with prone 
sleeping (sleeping with stomach facing down). As a result of the 
campaign and other SIDS prevention education, the proportion of infants 
being put to sleep on their backs has doubled since the baseline in 
1996, but the rate has leveled off in recent years.
    Prenatal care: HHS is a partner for Text4Baby, a free mobile 
information service designed to promote maternal and child health. An 
educational program of the National Healthy Mothers, Healthy Babies 
Coalition (HMHB), Text4Baby provides pregnant women and new moms with 
information to help them care for their health and give their babies 
the best possible start in life. Women who sign up for the service by 
texting BABY to 511411 (or BEBE in Spanish) will receive free text 
messages each week, timed to their due date or baby's date of birth. 
CDC is also promoting the Baby-Friendly Hospital Initiative, a global 
program sponsored by the WHO and the United Nations Children's Fund 
(UNICEF), to encourage and recognize hospitals and birthing centers 
that offer an optimal level of care of lactation according to the WHO/
UNICEF Ten Steps to Successful Breastfeeding for Hospitals.
    Folic acid intake: Consumption of folic acid by women of 
childbearing age has been shown to reduce the rate for neural tube 
defects (NTD). HHS, through the Food and Drug Administration (FDA) and 
CDC, has emphasized food fortification with folic acid to help prevent 
NTDs. In addition to food fortification, CDC has several ongoing folic 
acid education projects designed to reach affected populations.
    Smoking cessation: Federal partnership activities aimed at reducing 
tobacco use among pregnant women are under way, including efforts to 
strengthen States' capacities to develop, implement, and evaluate 
tobacco prevention and cessation programs for women of reproductive 
age.
    Perinatally acquired HIV: The Health Resources and Services 
Administration (HRSA) continually monitors the number and proportion of 
babies tested who are born to HIV-positive mothers enrolled in programs 
funded under Title XXVI (HIV Health Care Services Program) of the 
Public Health Service Act, the number of children receiving care and 
treatment, the number of pregnant HIV-positive women in care, and the 
number of pregnant women on prophylaxis. The reduction of babies born 
infected with HIV is also apparent in programs authorized under title 
XXVI. This decline is attributable, in part, to the emphasis placed on 
testing high-risk women of child-bearing age, enrolling those women 
testing positive into primary care, and ensuring that pregnant women 
are provided with appropriate primary care for therapy and prenatal 
care through providers under title XXVI.
    Breastfeeding: Multiple initiatives support breastfeeding, from the 
Federal level down to the community level. Among Federal initiatives 
that encourage breastfeeding are the ``National Breastfeeding Awareness 
Campaign,'' the Healthy Start Initiative, and HRSA's Title V Maternal 
and Child Health Block Grant Program. Additionally, the Affordable Care 
Act requires employers to provide a reasonable break time and place for 
breastfeeding mothers to express milk for 1 year after their child's 
birth. HHS is working with other Federal departments and public and 
private employers to help mothers receive the support they need to 
breastfeed in the workplace.
    Immunizations: HHS, led by CDC, supports State-based immunization 
efforts that make vaccines available to financially vulnerable children 
and adolescents, as well as adults when funds are available. 
Additionally, a significant investment $300 million was made through 
ARRA in supporting State- and local-based programs to ensure 
vaccination efforts reached underserved groups. Funds will also support 
programs to increase public awareness and knowledge about the benefits 
of vaccination, as well as the risks of vaccine-preventable diseases. 
Additional funds were also allocated to assess the impact and 
effectiveness of newly recommended vaccines and monitor vaccine safety.
    HRSA's Title V Block Grants for maternal and child health: HRSA's 
Maternal and Child Health (MCH) Block Grant program is a key Federal 
effort that focuses solely on improving the health of all mothers and 
children. The partnership between the Federal Government and States 
ensures that the needs of mothers and children, including children with 
special health care needs, are addressed. Specifically, the program 
seeks to: (1) assure access to quality care, especially for those with 
low-incomes or limited availability of care; (2) reduce infant mortality; 
(3) provide and ensure access to comprehensive prenatal and postnatal 
care to women (especially low-income and at-risk pregnant women); (4) 
increase the number of children receiving health assessments and 
follow-up diagnostic and treatment services; (5) provide and ensure 
access to preventive and child care services as well as rehabilitative 
services for certain children; (6) implement family-centered, 
community-based, systems of coordinated care for children with special 
healthcare needs; and (7) provide toll-free hotlines and assistance in 
applying for services to pregnant women with infants and children who 
are eligible for Medicaid. The program's wide range of activities 
include support for MCH research, training of MCH providers, genetic 
services and newborn screening and follow-up, sickle cell disease, 
hemophilia, universal newborn hearing screening, and early childhood 
systems of services that bring together health, education and social 
services.
    In working to improve access to healthcare, the MCH Block program 
has been able to increase both the number of children served by the 
States under title V (to 35 million in fiscal year 2008) and the number 
of children receiving services under Title V of the Social Security Act 
who have Medicaid and CHIP coverage. Increased coverage under Medicaid 
and CHIP for children receiving title V services better assures access, 
availability, and continuity of care to a wide range of preventive and 
acute care services.
    Childhood Obesity: HHS is partnering with the First Lady in 
promoting the ``Let's Move!'' campaign to end the epidemic of childhood 
obesity in the next generation. Based on four pillars of helping 
parents make healthy choices, creating healthy schools, providing 
access to healthy and affordable food, and promoting physical activity, 
the initiative is helping schools, communities and families address the 
epidemic.
    HHS's early actions to implement elements of the White House 
Childhood Obesity Task Force Plan include efforts to prevent childhood 
obesity in child care settings--a pivotal phase in children's lives. 
While each State creates and enforces its own child care licensing 
standards, HHS, through the Administration on Children and Families, 
plans to roll out guidance and suggested standards for physical 
activity and nutrition for child care later this summer. Also, as part 
of the Head Start Body program, HHS will provide individual grants to 
Head Start programs to improve or construct playgrounds and outdoor 
play spaces under the Head Start Body Start National Center for 
Physical Development and Outdoor Play. HHS is also empowering parents 
and caregivers with nutritional knowledge, tools and resources to make 
healthy choices. Over the next year, HHS will: in partnership with the 
Department of Agriculture, release the new Dietary Guidelines for 
Americans that provides science-based advice about making food choices 
to promote health; develop a new Front of Pack labeling system to make 
it easier for consumers, with a quick glance, to make healthy and 
informed food choices; and oversee the implementation of menu labeling 
provisions authorized by the Affordable Care Act. The Affordable Care 
Act requires owners of retail chain restaurants and vending machines 
(with more than 20 locations) to post caloric information, which will 
empower consumers to make healthier choices.
    HHS is also implementing community demonstration projects 
authorized by CHIPRA; the Department will award $25 million in grants 
to select communities for health care providers to work with schools, 
community programs, recreation centers and other groups to build 
seamless community-clinical systems to reduce and prevent obesity among 
child residents. Additionally, since the White House Task Force 
established a goal of 100 percent of primary care physicians assessing 
body mass index (BMI) at well-child and adolescent visits by 2012, HHS 
will outreach to State Medicaid Directors to help them better 
understand the scope of prevention services they should provide to 
children and encourage BMI assessment and follow-up. Also, HRSA has 
launched a learning collaborative to significantly increase the health 
of children and families. Over the next year (through July 2011), 
faculty experts are helping to design, implement and test information 
that communities, including grantee community health centers, can use 
to help children achieve and maintain a healthy weight.
    Additionally, HHS is updating the President's Challenge program to 
ensure consistency with the Physical Activity Guidelines and make it 
easier for schools to implement the program. The First Lady has set a 
goal of doubling the number of children in the 2010-11 school year who 
earn a President's Active Lifestyle Award (PALA). HHS will lead our 
Nation toward achieving this goal. The modernization of the President's 
Challenge Youth Fitness Test will begin this year, and HHS will double 
the number of children in the 2010-11 school year who earn a PALA 
award.
    Obesity research also continues across the Department. For example, 
the National Institutes of Health's (NIH) National Collaborative of 
Childhood Obesity Research (NCCOR), launched in 2009 in partnership 
with the CDC and the Robert Wood Johnson Foundation, is accelerating 
research progress and translating findings into effective solutions at 
the societal level. NCCOR is designed to coordinate funding efforts, 
pooling members' resources for large projects that might not be 
feasible otherwise. NCCOR recently launched the Envision project ($15 
million), which aims to help us understand the complexity of childhood 
obesity and virtually test environmental and policy interventions 
through sophisticated computational, systems models. During Fiscal Year 
2010, NCCOR also will begin funding a nationwide study to determine the 
effectiveness of existing community-based strategies and programs.
    Childhood Injury Prevention: Through public health surveillance 
efforts, research and implementation of effective strategies, CDC is 
working to protect young Americans from the threat of injury and 
violence. CDC prioritizes its work for children and adolescents by 
focusing on: (1) child maltreatment prevention and (2) prevention of 
child/adolescent motor vehicle related injuries.
    Motor Vehicle Injury Prevention: CDC's research and prevention 
efforts are focused on improving seat belt use and reducing impaired 
driving, and helping groups at risk: child passengers and teen. 
Examples include raising parents' awareness about the leading causes of 
childhood injury in the United States and how they can be prevented. 
For example, CDC launched the initiative titled, Protect the Ones You 
Love: Child Injuries Are Preventable. CDC is also supporting States in 
the implementation of optimal graduated licensing laws (GDL). CDC's 
research and prevention efforts are focused on improving seat belt use 
and reducing impaired driving, and helping groups at risk: child 
passengers and teens.
    Autism and Developmental Disabilities: Through ARRA, funding for 
autism research increased from $118 million in Fiscal Year 2008 to $196 
million in Fiscal Year 2009. Several HHS agencies and offices are 
addressing autism spectrum disorders through research, surveillance, 
public education, and service delivery. HHS and the White House co-
hosted a meeting with external stakeholders in recognition of World 
Autism Awareness Day on April 2, 2010, to learn more about the gaps in 
addressing the needs of people with autism. The Interagency Autism 
Coordinating Committee (IACC), a Federal advisory committee established 
in 2006 through the Combating Autism Act, advises the HHS Secretary and 
coordinates all efforts within the Department concerning autism. The 
IACC released the second edition of the Strategic Plan for Autism 
Spectrum Disorder Research in January 2010. The 2010 Plan adds 32 new 
research objectives and more fully addresses the needs of people with 
autism spectrum disorder across the spectrum, from young children to 
adults, and places new emphasis on both non-verbal and cognitively-
impaired people with autism spectrum disorder. On April 30, 2010, 
Secretary Sebelius announced appointment of five new members to the 
IACC who add a breadth of expertise and perspectives to the committee.
    In an effort to better understand risk factors and potential causes 
of ASD, CDC is currently conducting one of the largest studies in the 
United States to help identify factors that may put children at risk 
for ASD and other developmental disabilities. This study, being 
conducted across a six site network known as the Centers for Autism and 
Developmental Disabilities Research and Epidemiology (CADDRE), is 
called SEED, the Study to Explore Early Development. SEED is now 
nearing the close of the enrollment phase and first publications will 
be in Fiscal Year 2011.
    Asthma Control Programs: CDC's National Asthma Control Program is 
reducing the number of deaths, hospitalizations, emergency department 
visits, school or work days missed, and limitations on activities due 
to asthma. Funding for health departments in 34 States, the District of 
Columbia, and Puerto Rico to conduct asthma surveillance, maintain and 
expand partnerships, implement statewide comprehensive asthma plans 
with their partners, implement interventions to reduce the burden of 
asthma, and develop and implement an evaluation plan. CDC also funds 
the State health departments in California, Michigan, Minnesota, 
Mississippi, Missouri, New York, Oregon, Rhode Island and Washington to 
conduct in-depth surveillance projects (three of them using Medicaid 
data), disparities assessments, and interventions, implementation and 
evaluation.
    Surveillance efforts continue: In 2005, CDC implemented its 
National Asthma Survey (NAS) data collection effort as a call-back 
survey subsequent to the Behavioral Risk Factor Surveillance Survey 
(BRFSS). By 2009, participation in the Asthma Call-back Survey (ACBS) 
had expanded to 35 States, the District of Columbia and Puerto Rico. In 
2010, 40 States will use the ACBS to collect data. Before CDC initiated 
the NAS and ACBS, none of this information was available at the State 
level. The ACBS data are used by the States to track Healthy People 
goals, evaluate programs, and plan future activities at the State 
level.
    Early Hearing Detection and Intervention: Prior to the 
authorization of the Early Hearing Detection and Intervention (EHDI) 
program in 2000 (under the Children's Health Act), less than half of 
the infants in the United States were being screened for hearing loss. 
CDC's EHDI program provides support on the development and 
implementation of State-level tracking and surveillance systems to 
ensure that infants and children with hearing loss are identified early 
and receive services as soon as possible. Collaborative work with State 
EHDI programs and other partners to ensure infants receive recommended 
follow-up diagnostic and intervention services in a timely manner to 
realize the benefits of newborn hearing screening.
    Food allergy: Food allergy is an emerging major health problem that 
affects approximately 4 percent of U.S. adults and 5 percent of 
children under 5 years old, and its prevalence seems to be increasing. 
Despite the risk of severe allergic reactions to food, and even death, 
there is no current treatment other than allergen avoidance and 
treating the symptoms associated with severe reactions. NIH's National 
Institute of Allergy and Infectious Diseases (NIAID) remains committed 
to basic research and clinical studies to advance our understanding of 
food allergy. NIAID-supported clinical trials continue to demonstrate 
the potential for immunotherapy to prevent or reverse established food 
allergies, such as peanut allergy, in children. NIAID also is leading 
an effort to develop ``best practice'' clinical guidelines for 
healthcare professionals for the diagnosis, management, and treatment 
of food allergies. The guidelines are expected to be published before 
the end of 2010.
    National Children's Study (NCS): Efforts to promote health and 
prevent disease are predicated on understanding the causes and timing 
of, and triggers for, events that affect children's health. The NIH, 
joined by a consortium of Federal partners, has begun to pilot test 
recruitment strategies for the NCS, a large, multi-year research study 
with the goal of discovering and exploring the relationships between 
the environment (broadly defined), genetics, growth, development and 
health on 100,000 children from before birth through age 21. Complex 
environmental interactions and their relationships with critical growth 
and development periods will be studied, and it is expected that the 
data gathered will be utilized by researchers for many decades to come, 
providing insight into what constitutes children's health, but also 
childhood precursors of many adult chronic conditions.
    Additional research and healthcare quality improvement projects for 
children: HHS's Agency for Healthcare Research and Quality (AHRQ) 
current projects include: testing approaches to deliver effective 
treatments for children with mental health problems; making medication 
management child-centered; implementing evidence-based care processes 
for infants with fever; using computers to automate developmental 
surveillance and screening; preventing adverse effects of medications 
during pregnancy; comparative safety and effectiveness of stimulant 
medication for children with ADHD; and effectiveness of ADHD treatment 
in at-risk preschoolers. In addition, AHRQ is working collaboratively 
with CMS to implement CHIPRA through the identification of evidence-
based healthcare quality measures for use by public and private 
programs, and other activities related to improving quality.

Adolescent Health
Current Program Activities and Accomplishments
    Tobacco control: On June 22, 2009, the President signed the Family 
Smoking Prevention and Tobacco Control Act (Tobacco Control Act) 
(Public Law 111-31) into law. The Tobacco Control Act grants the FDA 
important new authority to regulate the manufacture, marketing and 
distribution of tobacco products to protect the public health generally 
and to reduce tobacco use by children and adolescents. HHS is directly 
supporting FDA's regulation of tobacco products and is promulgating 
regulations that limit the sale, distribution, and marketing of 
cigarettes and smokeless tobacco to protect the health of children and 
adolescents. FDA has also implemented provisions that prohibit the use 
of certain characterizing flavors in cigarettes, and prohibit 
manufacturing tobacco products with the descriptors ``light,'' 
``mild,'' or ``low'' or similar descriptors.
    CDC provides national leadership for a comprehensive, broad-based 
approach to reducing tobacco use. Essential elements of this approach 
include State-based, community-based, and health system-based 
interventions; cessation services; counter-advertising; policy 
development and implementation; tobacco product research; surveillance; 
and evaluation. A key goal of CDC's tobacco control program is to 
reduce the initiation of tobacco use among children, adolescents, and 
young adults. CDC will continue to encourage effective, evidence-based 
efforts to reduce youth smoking rates in the United States. These 
include strategies such as counter-advertising mass media campaigns; 
higher prices for tobacco products through increases in excise taxes; 
tobacco-free environments; programs that promote changes in social 
norms; comprehensive community-wide and school-based tobacco-use 
prevention policies to help reduce smoking; reductions in tobacco 
advertising, promotions, and commercial availability of tobacco 
products through implementation of FDA's regulatory authority; and 
effectively countering tobacco industry marketing influences.
    Division of Adolescent School Health: CDC's Division of Adolescent 
and School Health addresses six critical types of adolescent health 
behavior that research shows contribute to the leading causes of death 
and disability among adults and youth. These behaviors usually are 
established during childhood, persist into adulthood, are interrelated, 
and are preventable. The Division focuses on collecting data to better 
understand the risks and challenges facing the adolescents of today, as 
well as develop strategies to prevent disease and promote overall well-
being wherever possible.
    Office of Adolescent Health: Consistent with the directive 
contained in the Fiscal Year 2010 Consolidated Appropriations Act 
(Act), a new Office of Adolescent Health (OAH) has been established 
within the Office of Public Health and Science of the HHS Office of the 
Secretary. The President's budget for Fiscal Year 2010 proposed a new 
Teenage Pregnancy Prevention initiative to address high teen pregnancy 
rates by replicating evidence-based models and testing innovative 
strategies. The Act provides $110 million to support the TPP Program 
with not less than $75 million for funding the replication of programs 
that have been proven effective through rigorous evaluation and not 
less than $25 million for funding demonstration programs to develop and 
test additional models and innovative strategies.
    In the short term, OAH will focus primarily on the implementation 
of the Teen Pregnancy Prevention program. However, HHS envisions that 
the Office of Adolescent Health will also address many of the 
interrelated health needs of adolescents such as mental health, injury 
and violence prevention, substance abuse, sexual behavior, pregnancy 
prevention, nutrition, physical activity, and tobacco use, as 
authorized. The OAH is planning to work with other HHS agencies, 
including the Substance Abuse and Mental Health Services Administration 
(SAMHSA), to coordinate adolescent activities within the Department and 
address the recommendations contained in recent IOM reports on the 
health needs of adolescents.
    Addressing onset of mental health problems: A 2009 IOM report 
Preventing Mental, Emotional and Behavioral Disorders in Young People, 
clearly articulated that we have many programs that can prevent 
problems including substance use and mental disorders. Current SAMHSA 
programs focusing on prevention, treatment and recovery for youth 
include:

    <bullet> The Drug-Free Communities Program and Sober Truth on 
Preventing Underage Drinking (STOP Act): Fund communities to develop 
coalitions across different sectors of the community--schools, law 
enforcement, businesses and merchants, health and behavioral healthcare 
providers, media, faith-based, community leaders--to prevent and reduce 
substance abuse among youth using a strategic prevention framework and 
evidence-based population prevention practices.
    <bullet> Safe Schools Healthy Students Program: Addresses the 
common risk factors associated with substance use and school violence 
while strengthening factors that promote good mental health. These 
grants, jointly funded by the Departments of HHS, Education, and 
Justice, enable local educational agencies to partner with their local 
mental health, law enforcement, and juvenile justice agencies to 
support a comprehensive, coordinated plan of activities, programs, and 
services. Local comprehensive strategies must address five elements, 
including early childhood social and emotional learning programs. 
Results from this program indicate a 15 percent decrease in number of 
students involved in violent incidents (17,800 in Year 1 of grant to 
15,163 in Year 3); decreases in number of students experiencing or 
witnessing violence, and improved overall sense of safety in the 
school.
    <bullet> Community Mental Health Services for Children and their 
Families Program (Children's Mental Health Initiative): This treatment 
program for youth with serious emotional disorders has had an impact in 
nearly 22 percent of the 3,177 counties in the United States and has 
served over 88,000 children with disabling mental health conditions. 
The program is based on a system of care approach which provides 
individualized, comprehensive and coordinated, community-based wrap-
around services to maintain children in their homes and communities and 
to prevent more costly and restrictive institutional care. Key outcomes 
from this program include reductions in negative symptoms, improved 
functioning in school, less involvement with the juvenile justice 
system, and reduced family stress.

                                CLOSING

    Thank you Mr. Chairman for the opportunity to present this overview 
about the state of children's health and well-being in the United 
States. HHS is committed to expanding access to health care and 
increasing our coordination of child health initiatives with our 
Federal, State and local partners to devise, test and implement 
solutions to the challenges and opportunities ahead. I would be glad to 
answer any questions you may have.

    Senator Dodd. Thank you very much, Doctor, and I thank all 
of you for your work, your dedication to these issues, and the 
efforts you are making today to improve the quality of life for 
these kids and their families.
    Let me begin. Some of you have suggested this already, but 
it is something that is so important. It can get dizzying, 
obviously, when we start listening to all the various programs 
and ideas at the local level, State level, obviously, the 
national level as well. And the question that comes to mind, 
obviously, is the ability to coordinate.
    I am particularly grateful to the Administration, as chair 
of the Banking Committee. Jeff Merkley and I serve together on 
that committee. Bob Casey, in fact, was on that committee with 
us. And looking at the issue of how do we bring efforts 
together on the issue of livable communities. To the 
Administration's great credit, they have now formed an 
interagency task force with the Department of Energy, the 
Department of Housing, and the Department of Transportation. So 
they begin to coordinate efforts in that regard.
    It occurs to me, obviously, this is a similar set of cases 
we are talking about here, the ability to have some sort of an 
interagency involvement so that there is the debate about whose 
jurisdiction. I mean, there has been an age-old debate since 
1965. Does Head Start belong in the Department of Education or 
the Department of Health and Human Services? In fact, we had 
yesterday a conversation. Bob Casey and I spent an hour or so 
together talking about these issues with Tom Harkin, the 
chairman of the committee, and we spent about 20 minutes just 
talking about that very point, about jurisdiction when it comes 
to these questions.
    So it seems to me it is important, without resolving the 
issues and getting into the internecine battles that can occur 
over who has jurisdiction over which programs, if you can sort 
of leapfrog over all of that and end up with that sort of 
coordinated effort, then the fact that it exists in one 
Department or another becomes less significant in my view if, 
in fact, there is a highly coordinated way of dealing with 
these questions.
    And as you point out, Dr. Koh, there is so much of this, 
that each of these Departments represented here today--and I 
will include the Council of Economic Advisers as well. The 
ability to coordinate those efforts and looking holistically at 
how this child or the children are developing on a social, on a 
health, on an educational basis--and I wonder if any of you 
want to pick up on that point and let me know what is going on 
in terms of our ability to coordinate these activities.
    Who would like to start? We will start with you, Mr. 
Hansell.
    Mr. Hansell. Well, Mr. Chairman, you are raising a very 
important issue, and it is one I am happy to say I think has 
been a hallmark of this Administration. I have to say, having 
served previously in State and local government, I have never 
seen a level of interdepartmental collaboration as I have seen 
in the Obama administration. And it is for exactly the reasons 
you say, which is that while we have multiple siloed programs 
and funding streams, the goals, the outcomes we want to achieve 
are common to them, and we have to make sure that they are 
working together and not at cross purposes.
    Actually I can give two examples that relate to the 
colleagues on my left and my right which I think are wonderful 
illustrations of this.
    Dr. Melendez and I both talked in our testimony about how 
we are working very closely between ACF and the Department of 
Education to create a real birth to 8 continuum of early 
childhood programs, and we have a number of initiatives 
underway to do that. The Early Learning Challenge Fund, which 
we proposed, we think would be important in bringing States to 
the table to really partner with us on that, but the work is 
already going on. We very strongly believe and I know that Dr. 
Melendez and her colleagues do as well that all of the 
programs, those we administer, the child care and Head Start 
programs, as well as the K-12 programs that the Department of 
Education administers, must have a common set of outcomes, a 
common framework, a common set of data elements so that we can 
make sure that as we achieve gains early on for children, those 
gains are sustained as they move into the educational system 
and onward into adulthood. So that is one example.
    Another has to do with our work with the Department of 
Labor and the Employment and Training Administration. We have 
focused very heavily this year on the summer youth employment 
program which has traditionally been funded through the 
Workforce Investment Act funding. But many States were 
challenged this year because their Recovery Act funding for 
that purpose had been largely exhausted. So we worked with 
Assistant Secretary Oates in the Employment and Training 
Administration to issue guidance to States very early this year 
on how they could use the new TANF emergency funds to bolster 
their WIA funding to make sure that they could sustain and, in 
many cases, even expand their summer youth employment programs 
because, again, that is a key to helping youth get sort of on 
the right track so that they can develop the kind of workplace 
skills that they are going to need as they move into adulthood.
    And I am delighted to say that States have taken this up 
with gusto. We now have 21 States and the District of Columbia 
that are using the TANF funds to supplement their WIA funds to 
support summer youth programs this summer. Tens of thousands of 
slots have been created.
    So those are, I think, from our perspective very important 
but only very early examples of the kinds of collaboration that 
we hope to accomplish. But I think they are illustrative of the 
work that is going on in this Administration.
    Senator Dodd. Do either of you, Mr. Harris or Dr. Melendez, 
want to comment on that at all? Do you have any other thoughts 
you might share?
    Mr. Harris. I can only agree. What we have found in this 
Administration is that collaboration rises up organically 
between the Departments. It is not imposed from above. As a 
result, I think it is much, much more effective.
    We could talk also about a collaboration we have with ACF 
with respect to transitional jobs. We are in cooperation with 
the Education Department in creating a K through work data 
quality initiative that will include job training initiatives 
and postsecondary education. So I think it has worked very 
well.
    There are areas, I think, where we could do more with 
respect to, for example, data sharing. When we, for example, 
regulate in the child labor area, we work very closely with the 
National Institute of Occupational Safety and Health, but 
building a larger database and building integrated databases of 
information on what is going on in child health both in the 
workplace and outside I think would be a helpful step. But that 
is something I think that will grow up organically as we 
continue to address these issues together. So I agree 
completely with Assistant Secretary Hansell.
    Senator Dodd. That is very good.
    Yes, Dr. Koh.
    Dr. Koh. Mr. Chairman, I can cite another example. We have 
a health promotion target-setting process, Healthy People that 
I alluded to, and this is a very important year. Healthy People 
2010 is concluding this year, and we are about to launch 
Healthy People 2020, so targets for the country for the next 
decade. In that target-setting process, we have a Federal 
interagency work group that reaches across Government and it 
sets targets for the whole country to shoot for and involves so 
many partners across the Federal Government and across every 
community in the country. So that is one proactive way of 
aligning a lot of resources and mobilizing resources.
    Senator Dodd. That is good to hear.
    My lead-off witness in Connecticut the other day at the 
Yale Child Study Center was Ed Zigler. I can see the smiles 
occurring on all the faces. The audience cannot see it, but for 
those of you not familiar with the name Ed Zigler, he is sort 
of the high priest of early childhood development issues, the 
author and the founder of the Head Start program back in 1965 
and has written extensively and been engaged now for so many 
years in the subject matter.
    He cites the four touchstones for him in dealing with these 
issues. Parental involvement, direct health issues, education 
issues, and child care are the four touchstones he uses.
    I would like to pick up on the parental involvement issue. 
This to me is one of the more perplexing set of issues. When 
you look at the children in Head Start programs and even at my 
State level the amount of afterschool programs, obviously, they 
do not reach everyone. To a large extent, the parents who are 
aware of the existence of programs, who make an effort, have a 
substantial lead on others who are not aware or are so stressed 
out trying to cope every day just to put food on the table, 
where they live. It makes it harder and harder to engage these 
families in providing for the needs of their children. They 
care no less about their children in my view. They still have 
the same desires that their children get the best they can 
possibly give them. But it is overwhelming. It is just 
overwhelming.
    It perplexes me to a great deal on almost every level we 
talk about of how do we engage parents more. It obviously 
begins there. From the very moment of conception, obviously at 
child birth, all of these efforts, if you can just engage at 
the earliest possible stage of a child's development, then the 
results just dramatically improve proportionately to the extent 
you are involved early.
    I wonder, Dr. Melendez--because one of the difficulties is 
how do we get parents involved--Head Start requires that 
parents be involved. So that is one of the conditions of the 
Head Start program. We get participation by parents in Head 
Start. It drops significantly by the 1st grade and beyond--
parental involvement--generally speaking. I think it goes back 
to the point, Dr. Rouse, you made earlier. When you have 
children who come from affluent or relatively secure economic 
means, those numbers are vastly better in terms of parental 
involvement, and as the economics worsen, then the parental 
involvement, engagement declines substantially.
    I wonder what thoughts are being given on how we can do a 
better job of reaching out to parents of children. Any thoughts 
you might have on this at all I would be interested in. Let me 
begin with you, Dr. Melendez.
    Ms. Melendez de Santa Ana. Absolutely. And if I may say 
just to add a little bit to a conversation earlier, part of the 
work that we are engaged in with HHS is to really build on that 
transition between early learning programs and kindergarten. 
That is a critical transition period. As it plays out when it 
comes to parental engagement, that is critical.
    Having been in the classroom, having been a principal and 
worked in different levels, you are absolutely right. At the 
elementary level, you see the parents around. Having worked in 
middle school, you see less of them. In high school, you see 
even less.
    What we are trying to do in the Department through our use 
of title I funds in our proposal is to say, look, let us double 
the amount of money and put in, in terms of our proposal, 
opportunities for parents, for schools to take responsibility 
for being welcoming environments for parents, ensuring that 
parents are welcomed, ensuring that they have a voice in the 
decisions that are being made.
    We are also asking in our proposal for a set-aside of 1 
percent so we can find those innovative programs so that States 
can compete out funds for nonprofits and school districts to 
identify them. You know, it is very difficult for school 
districts to think about ways in which they can do that, but 
there are many examples across the country where that is 
happening, where there are ways in which parents are brought 
in. There are training programs. There are ways in which they 
can be engaged.
    And so we look forward to further conversation in which we 
can work together across our agencies and work together with 
Congress to be able to identify because that is critical. If a 
parent is not there, if a parent is not supportive, it is very, 
very difficult, yet not impossible.
    Senator Dodd. Home visiting. I think a lot of times too--
particularly in poorer families, it is not uncommon that their 
parents themselves had their own--the school environment was 
not the most welcoming. Therefore, to engage them to come to a 
place which was in some cases seen as almost a hostile 
environment, it makes it even harder.
    Ms. Melendez de Santa Ana. Absolutely, or language, whether 
they have access to that.
    We had a program in which we asked teachers to go out to 
the homes of the students, and the teachers were absolutely 
amazed. They had no idea how they lived, the type of 
environment they had. And it really helped in terms of 
understanding the types of strategies and ways in which they 
can interact with the students and their parents.
    Senator Dodd. Have there been any national programs you are 
aware of? I mean, you talked about it with Pomona, I gather, as 
superintendent.
    Ms. Melendez de Santa Ana. Yes.
    Senator Dodd. But I wonder if there have been any unique 
examples where a community or a county has been successful in 
these home visiting programs because I could not agree more. I 
think if a teacher can see where a child lives and the 
circumstances in which they live, that is a very different 
relationship the following morning in terms of looking at that 
child and how that child learns and what that child is 
grappling with. I just think the dynamic is fundamentally 
different as a result of that experience.
    But I am wondering if there has been any examples at a 
State or local level where this has worked particularly well.
    Yes, Doctor.
    Dr. Koh. Mr. Chairman, you probably know that in the 
Affordable Care Act there are new resources for HRSA, the 
Health Resources and Services Administration, to promote home 
visiting programs. That just got unveiled in the last several 
weeks. I think it is $1.5 billion over the next 5 years. So 
these programs are evidence-based. There is a scientific 
database to show that they are effective and it is targeted 
particularly for young parents. So we could not agree with you 
more that the home visiting theme is effective for education 
but also for health as well.
    Senator Dodd. Yes, Dr. Rouse.
    Ms. Rouse. If I may, I would just add that certainly while 
there is an important role for encouraging parental involvement 
at the earliest stages and at a fundamental level, I think the 
lack of workplace flexibility for many workers makes it--even 
for those workers that want to be able to go to the school and 
meet with the teacher, but are not able to get time off from 
work--and that is especially true for low-skilled workers who 
have the least flexibility.
    Senator Dodd. Well, we have tried. We have authored some 
legislation over the years to try and provide leave from work 
for parents. Everyone sort of gets the notion of FMLA now. It 
took forever, but on family and medical leave where you have an 
illness. And everyone bought into the illness ultimately. It 
took 7 years, but they got to the point where they understood 
that an illness warranted having a parent be able to spend some 
time with a child. We have had a much more difficult time 
convincing my colleagues that the ability to be able to make 
that school visit, to take that hour or 2 is a harder sell.
    I have to ask you too, Dr. Melendez, because I mentioned in 
my opening comments about my concerns over what happened in the 
appropriations committee with afterschool programs. The 
extended day issue I also like. It is very important. You get 7 
hours for that. I get 15 hours with the afterschool programs. 
And the extended day is a very expensive program. What I do not 
like is the idea of taking money out of afterschool programs to 
pay for that. There are other means, and afterschool is just 
very critical.
    Again, you talk about adolescents. The statistics and data 
of the problems that children get into during that period 
between 2 p.m. and 6 p.m. in the afternoon is stunning.
    Can you share with me any thoughts on whether or not the 
Administration is going to be supportive of at least trying to 
maintain some static funding, or are we going to start having 
competition between extended day and afterschool?
    Ms. Melendez de Santa Ana. Well, first of all, I just want 
to say thank you because as the superintendent, we had an 
afterschool program funded by the Federal Government, and it 
was a wonderful program at a middle school and with a 
nonprofit. So I know how important it is to have programs that 
support students especially in impoverished areas and the 
important role that they play.
    We are looking at how we can extend the day and give school 
districts the opportunity to figure out how they can embed 
afterschool programs and extend the day as a coherent program. 
That is part of what we are thinking through and would be more 
than happy to work with you as we move toward reauthorization 
and have conversations with you about this topic.
    Senator Dodd. Well, yesterday the Appropriations Committee 
cut the funding, and now they are going to go to full committee 
today. To the extent you can weigh in at all between now and 
this afternoon--you know, this is not down the road. This is 
now happening as we are talking here. So to the extent someone 
can weigh in--again, I do not like to see us competing because 
I think the extended day idea has a great value. Just at the 
same time, I am looking at what families struggle with. You go 
back to that working family and the conditions and having good 
afterschool programs make a huge difference. And they also 
support. I mean, it is not just a place for child care, but the 
idea that it becomes an educational place, all sets of skill 
sets and so forth are developed during that time. So I just 
raise the issue. I cannot resist raising the issue since you 
are here.
    Ms. Melendez de Santa Ana. Of course.
    Senator Dodd. Dr. Rouse, I want to go back, if I can, 
because these economic statistics are troubling to me. A recent 
report issued at the end of June by the Congressional Budget 
Office highlighted the fact that income inequality has tripled 
in the last 30 years to levels not seen since 1928 in our 
country. Given your expertise as an economist, what is the 
impact of this growing income gap on the well-being of 
children? And what are the roots of the growing inequality? And 
have there been economic policies which have increased the 
inequality in the United States in your view?
    The Urban Institute--Brookings Institution Tax Policy 
Center considers only the impact of tax policy changes and have 
provided data that indicate that the tax cuts enacted in 2001 
and 2003 have widened income inequality in the country.
    Ben Bernanke, who appeared before me the other day in his 
capacity as the Chairman of the Federal Reserve Board in coming 
before us on their annual report to Congress on the Humphrey-
Hawkins issue--and Ben Bernanke is a rather unique and 
fascinating choice that was made by President Bush I do not 
think in anticipation of what was going to occur shortly after 
he gets the job. But he wrote his doctoral dissertation, and 
his real expertise is the depression era and what happened in 
it.
    I asked him the other day to comment, if he would, based on 
his expertise and his own doctoral studies, about the impacts 
of long-term unemployment on people. He was very direct. Once 
you get people back to work, which obviously we all want to see 
happen, there are implications beyond that that affect that 
child, affect those families, and there are long-term effects 
as well.
    I wonder if you might just expand on that a bit in your 
capacity on the Council of Economic Advisers.
    Ms. Rouse. Sure, I am happy to.
    In terms of the impacts of increasing inequality, I 
certainly know of no studies that suggested increasing 
inequality is helpful to the well-being of children, and 
especially when it is that the wealthier families are becoming 
wealthier and the struggling families are even struggling more, 
it would be inconceivable really that it is going to be helpful 
to the well-being of children.
    The prospects of long-term unemployment are certainly of 
concern in terms of the impacts on children. One of the most 
interesting and compelling studies on this is evidence from 
Canada, but it is evidence that looks at plant closures. And 
what the researchers found is that children whose fathers had 
been displaced earned 9 percent lower earnings as adults--so 
this is the impact on the children for when they are adults--
than the children whose fathers had not been displaced. They 
were 3 percentage points more likely to ever be on public 
assistance as well. So we certainly do anticipate that there 
will be long-term impacts on the children from this recession. 
So I think it is something to be quite concerned about.
    Senator Dodd. Senator Merkley, you are back with us and 
thank you.
    Senator Merkley. Thank you very much, Mr. Chair.
    I appreciate the point that you are making, Dr. Rouse, and 
the loss of manufacturing jobs may well be one of the most 
profound impacts upon the well-being of our children.
    I was very struck when I went into a food bank a few months 
ago and the director immediately said to me the biggest 
positive change we have seen is that we used to have a stream 
of families coming in who had essentially been driven into 
desperation or poverty by payday loans, 500 percent interest 
rates, and that reforming those had ended that. They did not 
see families coming in in that situation. Then she proceeded to 
say, however, the unfortunate news is the unemployment now is 
driving a similar stream of folks to the food banks.
    One of the things that I wanted to raise specifically, 
because it is an issue that came up last year and I want to 
keep raising it, in relation to children's health is tobacco 
and specifically the tobacco industry's interest in pursuit of 
new products to drive addiction. Folks are well aware that when 
people take up tobacco in their 20's, they rarely become 
addicted to it. So to continue a customer base, if you will, 
that you need to drive addiction in children.
    So there is a series of new products that have come out. 
This is one that is being test-marketed in Portland and a 
couple other cities around the country called Orbs. It is in a 
little package like this, shaped like a cell phone so that when 
it is in a child's pocket, it will look like a cell phone 
rather than look like tobacco. It makes it very hard for 
teachers to know what is there. It has a very fancy little 
dispenser that pops out one tablet at a time kind of like a Pez 
dispenser. So it is a lot of fun. And they come in two flavors 
which are mint and caramel. To me this represents a huge threat 
to the future of our children.
    There are also two other similar products being tested. One 
are dissolvable breath strips. You have seen all these 
dissolvable breath strips that you put on your tongue. Well, 
these are finely ground tobacco dissolvable breath strips. And 
the third are toothpicks. So these are experiments in reaching 
children.
    We were able to get in a 2-year accelerated review by the 
FDA and the FDA controls tobacco of these products. But 
particularly for those of you who deal in health, I wanted to 
make a little of a pitch to focus on trying to stop these types 
of products because they will lead to a new generation of 
tobacco addiction and tobacco health issues. And I would just 
see if anyone has any comments about it.
    Dr. Koh. Senator, first of all, I want to thank you for 
your leadership on this issue, and I have seen many 
announcements of your passion on this issue and your leadership 
and press coverage of your attention to this emerging public 
health challenge. So thank you very, very much.
    As I alluded to in my comments, with the leadership of 
Chairman Dodd and yourself and so many others, we are 
revitalizing our efforts on tobacco control at the Department 
and across the country. As you aptly point out, as more and 
more States go smoke-free in this country--about 24 of the 50 
States have gone smoke-free in public places--the tobacco 
industry is creating more and more new, innovative products to 
put before adults and also young people. You have placed great 
attention to that, and we want to thank you for that.
    We do have a situation around the world where several dozen 
countries have completely smoke-free nations, and the tobacco 
industry is aware of that and they are trying to plan for the 
future. So these new products have hit the market. So with the 
new authority granted to the FDA and a new commitment to 
preventing addiction for kids, we need to track these trends 
very, very carefully.
    So thank you for your leadership on that.
    Senator Merkley. Thank you and thank you for your efforts, 
and I hope the Administration will continue to pursue this, 
especially after we get the results of this study from the FDA 
of these products.
    A second thing I wanted to address in the context of 
childhood obesity is that clearly children's play habits have 
changed dramatically. Having a 12-year-old and a 14-year-old, I 
see this firsthand. Video games have replaced everyone throwing 
their books in the door and running out to the neighborhood 
afterschool gathering.
    In that sense, a troubling thing to me is that a lot of 
school athletic extracurricular activities that were free--so 
whether I played basketball or tennis or ran cross country, it 
was free. There are now activity fees throughout our Nation, 
maybe not all schools, but certainly my impression is most 
schools try to make ends meet. That means children in poverty 
are less likely to participate. Not only are they less likely 
to participate in the neighborhood activities because the 
neighborhood gathering does not occur anymore, but then they 
are less likely to participate in organized athletic programs 
at the school because of the school activity fees.
    I wonder if any of you have insights on studies that have 
been done on this or things that we need to do to try to change 
that dynamic.
    Dr. Koh. I can comment again, Senator, if you wish. You are 
absolutely right that we need greater attention to policies to 
help promote exercise and prevent obesity in the next 
generation. This is a tremendous initiative that has been led 
by the First Lady, as a number of us have noted.
    Recently through the Affordable Care Act, the CDC has 
funded over 40 communities to look at policy changes in 
communities called Communities Putting Prevention to Work. It 
is focused on policy change for adults and kids to prevent 
tobacco addiction and to prevent obesity. So some of those 
policy changes that you are alluding to are being addressed by 
some of the communities being funded by this new initiative and 
we are eagerly awaiting some of those results in future years.
    Ms. Melendez de Santa Ana. Part of our proposal in the 
Blueprint is to expand the content areas to include physical 
education as competitive grants where States and local school 
districts can request grants around physical education in ways 
that they can ensure that students have programs that will 
support them, along with music and arts, environmental 
literacy, different areas like that, financial literacy.
    Mr. Hansell. And I might add, Senator, relating this to 
your earlier point, obviously we want to start kids out as 
early as possible with good health habits and not bad health 
habits. So we, in both our Head Start and our child care 
programs, are very involved with the First Lady's Let's Move! 
initiative, are working with providers to integrate both good 
nutrition and physical activity into those programs, and are 
working with them providing guidance, and providing technical 
assistance on how they can get the kids started with those 
kinds of good health habits as early as possible.
    Senator Merkley. Thank you very much, Mr. Chair.
    Senator Dodd. Thank you very much, Senator. I appreciate 
your emphasis on the tobacco issues. This was a great cause of 
Senator Kennedy, of course, who chaired the committee here for 
years, and with his illness, prior to his death, I was acting 
chairman of the committee with the help of Senator Merkley and 
others. I do not know, Bob, if you were involved with the 
committee at that juncture or not. But we went through a rather 
contentious markup of the bill and it passed overwhelmingly on 
the floor of the Senate. The House, obviously, had passed the 
legislation earlier.
    But the numbers are just breathtaking. I will turn to 
Senator Casey in a minute. I think we had 3,000 a day--3,500 
children under the age of 18 start smoking for the first time 
every day. So today before the day ends, keep that number in 
your mind, if you would. Just before today ends, somewhere 
between 3,000 and 4,000 children will pick up the habit. And we 
know, of that number, about 1,000--it is a lifetime habit. The 
good news is that some of them drop it, obviously, with the 
tremendous efforts being made today.
    Of course, the economic model is perfect because we lose 
about 3,500 to 4,000 people a day in the country as a result of 
smoking. So the business model is, as Senator Merkley has 
pointed out, if you do not get those kids starting every day, 
obviously if you lose 4,000 smokers a day, you would be out of 
business pretty quickly if you did not attract a new audience 
and a new constituency.
    I am terribly disappointed, by the way, with the industry 
because a major part of that bill was designed, obviously, to 
promote stopping the advertising and putting better labels and 
so forth. The industry has gone out and hired a bunch of first 
amendment lawyers to be able to kill all of the provisions of 
that part of the bill. I will just say editorially that I look 
at the U.S. Supreme Court and who is on it today, and some of 
the people in the past who represented other industries in the 
past when it came on first amendment arguments. I do not 
minimize first amendment arguments, but when you consider the 
damage being done.
    And if you want to talk to someone, talk to a parent who 
smokes about whether or not they want their children to smoke.
    So I appreciate your raising the issue. It is an important 
one.
    Senator Casey.
    Senator Casey. Thank you, Chairman Dodd. And I want to 
thank our witnesses. Sorry. After your testimony, I had to run 
and I did not hear the full measure of Senator Dodd's questions 
and Senator Merkley's, but I got a brief summary. So I do not 
want to plow the same ground.
    But I did want to say first that the substance of your 
testimony today individually and cumulatively is very helpful 
because too often what happens in Washington is that you have a 
lot of bills, even bills that deal with substantial subject 
matters, that pass and they fade away before anyone knows they 
passed, and we do not have a chance to really concentrate on 
what happened. The Recovery Act was a good example of that. It 
was so substantial in its impact in a very positive way, and 
yet, we up here have not done a very good job of telling people 
that.
    The same is true, I think, as it relates to children. When 
you went through, each of your testimonies pointed out the 
impact of programs and policies and new strategies employed 
since the early part of 2009 that are having a positive impact.
    One of the challenges we have is figuring out better ways 
to assemble all of these and put them into one narrative, one 
set of reporting for the American people, because sometimes 
they hear about this program or that program, and they are not 
sure that it is working.
    So what Senator Dodd has not only talked about, but worked 
on for years, is making sure that we are not just cataloging 
programs, we are trying to put them in an organized fashion. 
That is why having a report annually is so critical because it 
is not just the American people who do not get enough exposure 
to some of the achievements or some of the ways programs are 
actually working and getting results year after year, but even 
U.S. Senators do not pay enough attention sometimes to how 
programs are working or not and the results we are getting.
    So that is not a question. That is really a concern that I 
raise--that we have got to figure out better ways to let people 
know and to let all of us know the success of some of these 
programs.
    It leads me to a broader question which is very much 
related to what Senator Dodd started with in his questioning. 
It is not the same issue but it is related. This question about 
coordination and, frankly, strategy. I think if there is one 
thing missing now it is that we do not have nationally enough 
of a strategy. We have a lot of programs that are working. We 
are getting good results. But we need to have a strategy that 
we are all clear about.
    Then, of course, what is missing too is the political will. 
One report recently said that we are spending basically a dime 
out of a dollar on kids, roughly. That is not nearly good 
enough.
    So I wanted to ask you about whether--and this is really 
for anyone. I know you have a particular line of responsibility 
within your Department or within your jurisdiction, but how do 
we get to the point--and I think the Administration has tried 
with the Early Learning Challenge Fund to coordinate and have a 
more systemic approach--but how do we get to the point where we 
have an actual strategy in place which will dictate what we do, 
and if we do not have a strategy in place, we cannot really 
make the kind of progress we need to make? Does anybody have 
any thoughts on that in terms of the strategy?
    Mr. Harris. Well, I will begin, Senator. I think that your 
emphasis on outcomes is absolutely critical. For us to spend 
less time talking about programs and more time talking about 
how those programs change and improve people's lives in the way 
we have with some of the bills that Senator Dodd has driven 
through Congress, I know that has been a focus both for 
Secretary Sebelius and for Secretary Duncan. It has also been a 
focus for Secretary Solis at the Labor Department where we are 
working very hard to not only do a better job of articulating 
how our programs improve the lives of working people and their 
children, but also to use the information about how our 
programs achieve outcomes to improve the programs themselves. 
So in the focus that you hear from Secretary Duncan in 
particular, but also in the Labor Department, on innovation 
where we are data-driven in our decisionmaking, that is a 
critical part of assembling any strategy. And understanding how 
each element of what we do in our Department drives to the 
ultimate goal of improving the lives of working families, 
improving the lives of children is critical to that.
    I think unique, at least in modern history, among 
presidential administrations, this administration is deeply 
committed to social science research and to data-driven 
decisionmaking. So I have a lot of confidence that the building 
blocks of a national strategy, not just with respect to 
children, but with respect to working families--one of the 
themes I think you have heard today from everybody on the panel 
is how parents are critical to the stable economic support of 
their families and how their economic condition is going to 
drive outcomes for their children for decades to come. So I 
think as we focus on that more and focus on outcomes more, I 
think we are going to be more successful in building the kind 
of strategy that you are articulating.
    Senator Casey. Anybody else on this question? Doctor.
    Dr. Koh. First of all, Senator, it is good to see you 
again. I remember about a year ago joining you in rural 
Pennsylvania for an event on health reform and the Affordable 
Care Act.
    Senator Casey. That is right.
    Dr. Koh. So it is great to see you again.
    Because of your hard work in the passage of the act, there 
are several deliverables on national strategies that I think 
you will be very proud of.
    First, there is a requirement in the act to create a 
national prevention strategy to be submitted to you and other 
Members of Congress by next March. A baseline report on 
prevention was submitted July 1, but the follow-up report on a 
national prevention strategy is due next March. After this 
hearing I will go back and reemphasize to my colleagues that 
there should be a special part of that dedicated to prevention 
for kids and well-being for kids.
    Also, in the Affordable Care Act, there is the directive 
for a national health care quality strategy. So again in that 
report, there should be a dedicated part that is focused on 
health care in kids and quality.
    So I think those are two strategies, Senator, that you 
might want to track as we move forward with implementing the 
Affordable Care Act.
    Senator Casey. Well, I know in our discussions yesterday, 
Senator Dodd and Senator Harkin and I were wrestling with, 
among others, these kinds of questions. That is why having an 
annual report is I think vitally important.
    The good news is--and this is not recent, but I think the 
intensity or the commitment by CEOs and business leaders I 
think has been there, you could argue, for a while. I know in 
Pennsylvania, for example, in the late 1990s a lot more CEOs, 
including the State's business roundtables, were talking about 
early education as being a real focus. So I think there is 
support there, but I think all the more reason why we need some 
of those folks to support a strategy, just as they do in any 
kind of business planning or strategic planning.
    I was noting that along this line, we got a report 
yesterday. I want to talk about results and legislation. Dr. 
Rouse, you mentioned a couple of them today. You have all 
referred to the Recovery Act. You talked about the HIRE Act and 
a whole series of bills that were passed, but we just had a 
report yesterday from Mark Sandy and Dr. Alan Blinder from 
Princeton projecting and analyzing economic performance. And it 
said without any Government action, the downturn would have 
continued in 2011, and they give a report on what happened with 
the Government action. Real GDP would have fallen 7.4 percent 
in 2009 and another 3.7 percent in 2010. Now, it is hard to 
prove a negative. It is hard to prove that things would have 
been worse when the economic conditions are bad for a lot of 
people.
    The same is true, I think, when it comes to children. We 
have to figure out more and better ways to let people know 
about results, and the only way to get the kind of results we 
need is to have a strategy. So we did not solve that problem 
today, but I think we are informed about it more than we were.
    I know I am over, but Senator Dodd is willing to give us a 
lot more time today.
    Senator Dodd. Thanks, Senator, very, very much.
    By the way, let me correct myself. Earlier I mentioned the 
afterschool programs, and my staff very properly reminded me 
here that, first of all, they increased the funding for the 
21st Century Community Learning Centers. But what they did do--
and the point I was trying to make--is they are now allowing 
some of those resources to fund the extended learning time out 
of that program, which means you are going to add pressure in 
terms of the afterschools. So by adding a new program without 
the kind of increases we would all like to see because of the 
obvious restraints we are going through, you put pressure on 
the afterschool programs and therefore reduce it.
    So I should express my gratitude. They did increase some 
funding. By the way, they did it for Head Start as well and the 
child care development block grants as well, close to $1 
billion in either case, and in this environment I appreciate 
very much Senator Harkin's leadership on that as well.
    Let me get into the health issues with you too. I know, Dr. 
Koh, you talked a lot about this. Oral health is such a 
critical issue. It just amazed me the other day listening to a 
doctor in Connecticut. We have now 40 dentists that are 
beginning to work on oral health in our schools. And I was 
amazed at how 30 to 35 percent of 3-year-olds have tooth decay. 
I just found that stunning. I do not know. Maybe I should not 
be as surprised, given the poverty levels, but the idea that a 
3-year-old is already suffering from tooth decay seemed to me 
just a glaring statistic.
    The obesity issue we have talked about and I think properly 
talking about the First Lady's efforts in that regard are 
tremendous.
    I listened this morning to our colleague, Blanche Lincoln, 
who chairs the Agriculture Committee of the U.S. Senate, and 
she has proposed legislation now dealing with better nutrition 
and the standards being set for these various food programs 
that children depend upon. So many do.
    The exercise issue. Senator Murphy talked about the lack of 
exercise. We have had hearings on this. I have had hearings on 
the obesity issue. Senator Harkin has been a champion in 
talking about the quality of food and nutrition and the 
importance of those issues.
    And health has so much to do--we have talked about the 
parental issues. We talked about the education issues. But the 
health aspects, a child that does not get that good, healthy 
start and then maintain that healthy involvement, obviously you 
can put all of the other efforts and they begin to stumble if 
you do not get that kind of an effort.
    I mentioned this program in Connecticut called Help Me 
Grow, which has been replicated now throughout the State of 
Connecticut, in fact, being used in the southern States as 
well, where we link a variety of health, developmental, and 
community services together. You have got a one-stop. This is 
really the great advantage.
    I am going to turn to Dr. Koh because I think he is 
familiar with this.
    But I wonder if there are any other similar efforts at the 
national level or other States that are doing something like 
that because it seems so essential to me, given the array of 
services that are out there and how daunting that can be, going 
to Senator Casey's point, from a parental standpoint. So having 
a place where you can go and have the access of that 
information seems so critically important.
    So, Dr. Koh, I wonder if you might share some thoughts on 
that.
    Dr. Koh. Sure, I can start, Mr. Chairman. I am sure my 
colleagues can add.
    I think you have hit a very important theme, and as I 
mentioned in my remarks, what we value about your vision is 
taking the broadest possible view of health. And that is what 
you are alluding, I think, in your question. We need to view 
health broadly, look at not just causes of death in certain 
populations, but also impact on quality of life, emphasize 
prevention, try to eliminate disparities, talk about the 
emotional aspects of health, as well as the physical aspects of 
health. So I think your question is alluding to much of that.
    Senator Dodd. In fact, my staff reminded me that in the 
Affordable Health Care bill--and Bob Casey was involved in this 
as well, The National Quality Strategy--we fought very, very 
hard that children be a part of that.
    Dr. Koh. Great. That is wonderful.
    Senator Dodd. So that is now part of that examination. The 
good news is most children are doing pretty well. So it is not 
a huge audience, but it is an important one.
    So I apologize for interrupting.
    Dr. Koh. I can answer also broadly that the Affordable Care 
Act really tries to build better systems of care and prevention 
and link prevention to care and build a way to link clinic and 
community in many of the ways that you have alluded to.
    I will give you one example. For the community health 
centers, which really serve many of the underserved in this 
country, there has been tremendous investment in those 
community health centers, investment in a stronger primary care 
workforce, more investments in prevention, as I have mentioned 
before. Some of those will focus on oral health. There is 
language in the Affordable Care Act for greater emphasis on 
oral health. I think in general building better systems of 
prevention and treatment, especially in underserved 
communities, is a big theme from the Affordable Care Act moving 
forward.
    Senator Dodd. Does anybody else want to comment on that 
issue of the--and Healthy People 2010, by the way, I think is a 
terrific program. In fact, Lamar Alexander and I wrote the 
Preemie Act in 2006 to combat the increasing rates of preterm 
and low-birth weight children. That is up for reauthorization 
next year, and I will not be here, but I am looking at you, 
Bob, and others who are not here. I got a bucket list I am 
putting together here of things you are going to have to keep 
an eye on as we move along.
    Senator Casey. Can we consult you, though, for free?
    Senator Dodd. For free, absolutely.
    But again, the low-birth rate among nonHispanic African-
Americans over the past 15 years has remained about twice that 
of nonHispanic Caucasian women. Again, I wonder if you have any 
thoughts on this. I do not want to get that specific, but can 
you share with us any thoughts at all at the Federal level on 
the premature birth rate issue?
    Dr. Koh. Well, as I mentioned, the good news was that the 
rate has dropped this year, but we still have one out of eight 
children who are born prematurely. So that number is way too 
high. So, again, we are going to need more attention to a 
comprehensive approach for moms even before they become 
pregnant, making sure that they are getting coverage with 
health insurance, making sure they have good nutrition, making 
sure they have a health care provider to consult, and then 
taking good care of that child from the instant he or she is 
born, and making sure that wellness and prevention is 
emphasized from literally the first day of life.
    Senator Dodd. I am jumping around on you quickly because 
the vote just started, and I am not going to try and have you 
hang around for a half an hour or an hour until we come back 
again. So I will rush along and maybe leave the record open for 
some additional questions we have.
    But on the Family and Medical Leave Act, the Department of 
Labor--and I had a question in here regarding data. There has 
not been any updated information about how this is working 
right, if that is correct, in the last few years. When was the 
last time--2000? Was it that long ago?
    Mr. Harris. Yes, that is right, Senator.
    Senator Dodd. So the question then is I wonder if there is 
any effort being made here to bring us up to date on how this 
is going.
    Mr. Harris. Yes.
    Senator Dodd. I am trying to make a case, and I am not 
getting very far with it. But, obviously, look, I would have 
had a paid program if I could have. You have to stagger it a 
bit for all the obvious reasons we have thought about. But I 
cannot really get to that point unless I get more data on how 
we are doing with the present law.
    Mr. Harris. And that is precisely what we are intending to 
do. In 2011, we are going to be doing a study on Family and 
Medical Leave usage.
    But I do not want you to give up hope on paid leave. Let me 
just say you have been a critical leader on this, and when you 
talked about learning lessons from the States' experience, you 
know that before there was a Family and Medical Leave Act, a 
number of States had State family and medical leave acts that 
gave us the evidence that showed that not only would it work 
effectively for families, but it would be very low-cost for 
employers. The study we did in 2000 ratified that, and my 
expectation is that the study that we are going to do in 2011 
will show that it is a tremendous benefit to families at a 
fairly low cost to employers.
    But we are now seeing States or we have seen States over 
the last decade developing State-paid leave policies of varying 
sorts, temporary disability policies. In California, paid leave 
policies.
    So the President in his fiscal 2011 budget proposed a $50 
million fund to incentivize States or to pay for States' 
administrative costs in the creation of paid leave programs in 
those States. Earlier this week, the subcommittee on 
appropriations, the Labor Appropriations Subcommittee, included 
$10 million of those $50 million to get us started in 
incentivizing States to create State-paid leave programs.
    So we agree with you that that is the right direction to go 
in right now, that there are too many particularly low-wage 
workers who are unable to take the family and medical leave 
that they need because they simply cannot afford to go without 
a paycheck. We think the way to do that is to allow States to 
innovate in this space and for us to provide them with 
incentives to do that.
    Senator Dodd. Let me jump to another issue that I am 
interested in. While conducting these hearings, we learned a 
great deal about both State and local groups, and the Federal 
Government obviously measures. We talked about having this 
annual report. The National Longitudinal Surveys of Youth run 
by the Department of Labor Statistics is critical, obviously, 
for many of us up here. The most recent survey follows a group 
of children through adulthood to examine critical childhood 
well-being. The Bureau of Labor Statistics has not started 
collecting data on a new group of children since 1997. I wonder 
if you could share with us whether or not you intend to start 
surveying a new group of children. If so, when? And how would 
this type of data aid the Department in your view in 
understanding the efficacy of these programs?
    Mr. Harris. We do not yet have funding to create a new 
cohort for the National Longitudinal Survey, and that is part 
of the discussion for--we are just beginning our discussions 
about the fiscal 2012 budget, and it is part of that 
discussion. There will, however, be a new data release on the 
NLS cohort from 1997 that will come out in June 2011 that will 
provide us with more information about adolescents, young 
adults, and slightly older adults that are in that 1997 cohort. 
So we will have some more information, but we are taking a look 
at whether or not we can propose a budget that will fund an 
additional cohort.
    Senator Dodd. Terrific.
    Bob, do you have any additional quick questions? They will 
hold the vote for us.
    [Laughter.]
    Senator Casey. Nice to have a senior member who can hold 
votes.
    I had a couple more. One was one of the ways I try to think 
about these issues in a broad way--and those who know a lot 
more would frame this a little differently, but if we do four 
things well, I think we are getting close to a strategy. One is 
children's health insurance. Two is early learning. Three is 
nutrition and anti-hunger strategies, and fourth is just basic 
safety.
    I was reading--and this is in my prepared statement, but 
the college completion agenda--a recent report came out about 
25- to 34-year-olds who have an associates degree or higher. We 
are not doing so well across the world. But the first 
recommendation they made to improve the number of 25- to 34-
year-olds who have an associates degree or higher--
recommendation No. 1 was to make preschool education available 
to all. So we are finally linking what happens down the road to 
what happens in the dawn of a child's life.
    We have talked a good bit today about children's health, 
about early education, and Senator Dodd covered a lot of those 
topics, as well as the nutrition, which is part of what 
Chairman Lincoln is doing on our committee on the Child 
Nutrition Act, and we hope to get that done soon.
    But let me go to that fourth matter, which a number of you 
have touched on, which is just the protection element, abuse 
and all of the horrific stories we hear on a regular basis 
about children being abused or neglected. Anything that anyone 
wants to say about that issue, and then I think we have to go.
    Mr. Hansell. Well, that is one of our responsibilities, one 
we take very seriously, and we work with and fund States to 
implement programs to reduce child abuse and maltreatment. I 
guess what I would say in terms of the directions in which we 
are moving--a couple of comments. Through the formula funding 
we distribute to States under the CAPTA program, what we are 
trying to do is to work with States to move in the direction of 
using those funds--again, it is consistent with some of the 
things we have talked about this morning--to support evidence-
based and evidence-informed interventions. The things that we 
have documented, is evidence that will really make a difference 
in ideally, of course, preventing child abuse and maltreatment, 
by addressing the issues otherwise. And so that is what we are 
trying to focus States on with their core funding.
    But we also have added a discretionary component to the 
CAPTA program through which we are using $10 million to expand 
the evidence base, essentially to expand the compendium of 
interventions that we know will make a difference in preventing 
child abuse, child neglect, and child maltreatment. As we do 
that, we can then encourage States to draw from that evidence 
base in using the base resources, Federal and State, that they 
have to address these very, very important issues.
    Senator Casey. Thanks. We will submit some more questions 
for the record, but I do want to thank Chairman Dodd for this 
opportunity. Thank you.
    Senator Dodd. Well, thank you.
    That is obviously up for reauthorization. We are trying to 
get that done now in the next few weeks before we adjourn. I 
appreciate that as well.
    I would be remiss if I did not point out, by the way, that 
you always take great pride in your sort of official family, 
and Lloyd Horowitz who is sitting right behind you, Dr. 
Melendez, used to sit back up here behind me in this committee. 
It is a pleasure to see you, Lloyd, and thank you for all your 
service when you were on this side of the dais and now working 
on that side of the table. So I would be remiss if I did not 
thank you personally for the tremendous efforts you have made 
and what a great advocate in the educational field you have 
been. So thank you very, very much for that.
    To all of you, I thank you. I wish we could spend all day 
with you on these matters. You are so knowledgeable and 
thoughtful about all of this. We are very blessed to have 
quality people who care so deeply and bring a wealth of 
experience to these debates and discussions.
    It is a subject matter that historically some of my 
strongest--when I wrote the first child care development block 
grant program back in the early 1980s, my cosponsor was Orrin 
Hatch of Utah. When we did Family and Medical Leave, it was Kit 
Bond and Dan Coates of Indiana. Senator Alexander and I have 
done a lot of work on these issues of premature birth and 
infant screening. A former opponent of Bob Casey, Rick 
Santorum, and I worked on autism together. He had issues in 
Pennsylvania.
    On these issues we were able to build bipartisan support. I 
really worry in a way that we are losing that. It worries me. 
These were not issues that should divide people. We are talking 
about children in the country and how we do a better job and 
give them a decent start in life. My hope is again, as I get 
ready to leave town, that they get back to that spirit again 
when it comes to these issues. There are a lot of other reasons 
in which you can have ideological debates. This ought not to be 
a set of them. We are all aiming for exactly the same thing. We 
know how difficult it is for parents, for communities today to 
meet these challenges. We work on the assumption that every 
parent--every parent--wants to do the very best they can for 
their child. If you begin with that notion that we ought to be 
doing everything we can to make that a reality, as close to a 
reality as possible.
    So I am very grateful to all of you for years and years of 
your involvement in these issues and your knowledge and 
expertise. It would be tremendously helpful. So we look forward 
to your continuing work with us up here on this side and with 
people like Bob Casey who will be carrying on the challenges 
here and doing a great job at it as well.
    So the committee will stand adjourned and I thank you.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

                  Prepared Statement of Senator Coburn

    Mr. Chairman, I appreciate the subcommittee engaging in a 
timely discussion on the state of the American child and the 
impact of Federal policies on children. It is critical that we 
understand how the decisions we make here in Congress impact 
the futures of our children and grandchildren.
    Regrettably, the outlook of the American child is bleak.
    The current state of the American child is a $13.2 trillion 
national debt that is a direct result of Federal policies. The 
state of the American child is generational theft perpetrated 
by the hands of a Federal Government devoid of fiscal 
discipline. It is a theft carried out by members of both 
political parties.
    The witnesses testifying before the subcommittee offered 
compelling information and statistics concerning the challenges 
facing today's youth, but none of the formal testimony raised 
concerns about the impact that our national debt will have on 
our Nation's youth. Quite to the contrary, testimony submitted 
to the subcommittee largely advocated for more and bigger 
government programs which, of course, require yet more Federal 
spending.
    This is not to discount the real challenges pointed out by 
those who took the time to testify before the subcommittee, but 
it is a gross oversight that must be addressed.
    A few months ago I met a 3-year-old girl from Maryland 
named Madeline. I first came to know this precious little girl 
through a photograph. She was dressed head-to-toe in pink, had 
a little blond ponytail, a pacifier in her mouth and a sign 
weighing heavily around her neck that read: ``I'm already 
$38,000 in debt and I only own a dollhouse.''
    When Madeline was photographed, she was already $38,000 in 
debt. Nearly 7 months later, the national debt is now over 
$42,000 per man, woman and child in this country.
    If one were to extrapolate that rate of increase--from 
$38,000 to $42,000--to cover every 6-month period for the next 
20 years, it becomes clear that the future of today's youth is 
one saddled by debt. If you include unfunded liabilities--
Madeline will owe $1,113,000 when she turns 24.
    If you had a 6-percent interest rate on $1,113,000, 
Madeline is going to have to pay $66,000 a year in interest on 
the debt. She will pay that before she pays any taxes to run 
the government, defend the country, and pay for Medicare for my 
generation. These costs will impact her ability to continue her 
education, to own a home and to start and provide for her own 
family.
    We should not be proud of Federal policies that steal from 
our children. There is no more important question before the 
country today than whether or not we will continue stealing 
opportunity and freedom from the next generation.
    Sadly, Congress has repeatedly demonstrated that it is 
unwilling to prioritize spending. On multiple occasions this 
year the U.S. Senate rejected amendments to cut spending. 
Instead of trimming the fat for the benefit of future 
generations, Congress chose to raise the debt ceiling by $1.9 
trillion to $14.3 trillion. Instead of working to pay for 
programs by eliminating fractions of the hundreds of billions 
this country loses to waste, fraud and abuse in the government, 
Congress chose to instead violate PAYGO rules and add $266 
billion to the deficit this year alone.
    These choices have consequences on America's children.
    What has made this country great has been the heritage of 
sacrifice demonstrated by the generations that have come before 
us. We are now denying that heritage, but it is not too late to 
reverse course. Congress must reverse course and rein in 
spending. We must restore a bright and hopeful future for all 
of the Madeline's of this country.

     Prepared Statement of Kellyann Day, MSW, Executive Director, 
                     New Haven Home Recovery, Inc.

    Good morning Senator Dodd and distinguished guests it's an honor to 
be here. Thank you for inviting me to speak and thank you for great 
work on family and children's issues.
    Contrary to the stereotype of men sleeping in doorways or pushing 
overloaded shopping carts stuffed with their worldly belongings, 
families now comprise 40 percent of the homeless population in the 
United States. The percentage is closer to 50 percent in the State of 
Connecticut.
    Just 30 years ago, child and family homelessness did not exist as 
it does today. The numbers of homeless families in the United States 
are increasing at a rapid rate. According to the National Alliance to 
End Homelessness' Web site, ``Approximately 3.5 million individuals 
experience homelessness each year--about 600,000 families and 1.5 
million children. An additional 3.8 million adults and children are 
residing in doubled-up, overcrowded, or otherwise precarious housing 
situations.''
    Connecticut faces a significant and growing challenge of family 
homelessness, with a steadily increasing number of homeless families 
with children. We saw a 13 percent increase in homeless families from 
2007 vs. 2008 and a 33 percent increase between 2008 and 2009!
    Available shelter and housing for homeless families is decreasing. 
There is a rising demand for shelter and housing at a time when State 
and local government are unable to support the operations of shelters 
and are cutting budgets. The development of affordable and supportive 
housing has slowed significantly. Public housing authority lists are 
long and rarely open for new names.
    In 2007, the nationwide average shelter stay for a homeless family 
was 5 months. With the economy worsening in 2008 and 2009, the length 
of stay has been increasing. At NHHR we have seen a 17 percent increase 
in the number of days a family is living at the shelter.
    In a nationwide survey, 87 percent of homeless families cited a 
lack of affordable housing as the primary cause of their homelessness. 
Although most homeless families are headed by a single parent, families 
in 36 of the 50 States must work at least two full-time jobs in order 
to afford Fair Market Rent for a two-bedroom unit.

    <bullet> Overcoming homelessness is almost impossible without 
steady employment.
    <bullet> Over two-thirds of homeless parents are unemployed.
    <bullet> 53 percent of homeless mothers do not have a high school 
diploma.

    In 17 of 50 States, households must earn over $16/hour to afford 
the Fair Market Rent for a two-bedroom unit. According to the National 
Center on Family Homelessness' Stat Report Card, the minimum wage in 
Connecticut is $8.25. The average wage for renters is $16.53, but the 
hourly wage needed to afford a two-bedroom apartment is $21.11. That 
means someone working full-time at minimum wage earns only 39 percent 
of what is needed to afford the average two-bedroom apartment.
    Homeless children have less of a chance of succeeding in school. 
This year 35 percent of the 130 children sheltered in NHHR shelters 
were between 6 and 12 years old and attending school.

    <bullet> Homeless children are more likely than housed children to 
be held back a grade.
    <bullet> Homeless children have higher rates of school mobility and 
grade retention than low-income housed children.
    <bullet> Frequent school transfers are the most significant barrier 
to the academic success of homeless students.

    Homeless families are more vulnerable to serious health issues. 
While homeless, children experience high rates of acute and chronic 
health problems. The constant barrage of stressful and traumatic 
experiences also has profound effects on their development and ability 
to learn.
    Children experiencing homelessness are:

    <bullet> Four times more likely to show delayed development.
    <bullet> Twice as likely to have learning disabilities as non-
homeless children.
    <bullet> Sick four times more often than other children.
    <bullet> Have four times as many respiratory infections.
    <bullet> Have twice as many ear infections.
    <bullet> Five times more gastrointestinal problems.
    <bullet> Four times more likely to have asthma.
    <bullet> Go hungry at twice the rate of other children.
    <bullet> Have high rates of obesity due to nutritional 
deficiencies.
    <bullet> Have three times the rate of emotional and behavioral 
problems compared to non-homeless children.

    Violence plays a major role in the lives of homeless children.

    <bullet> By age 12, 83 percent had been exposed to at least one 
serious violent event.
    <bullet> Almost 25 percent have witnessed acts of violence within 
their families.
    <bullet> Homeless parents and their children are more likely to 
have experienced violence.
    <bullet> Domestic violence is the second most frequently stated 
cause of homelessness for families.
    <bullet> One out of three homeless teens have witnessed a stabbing, 
shooting, rape, or murder in their communities.

    Among youth aging out of foster care, those who subsequently 
experience homelessness are more likely to be uninsured and have worse 
health care access than those who maintain housing.
    Over 50 percent of all homeless mothers have a lifelong mental 
health problem.
    Homeless adults in family shelters, when compared to the general 
adult population, have three times the rate of tuberculosis and eight 
times more HIV diagnoses.
    Homeless parents and their children are more likely to be separated 
from each other.
    Homelessness is the most important predictor of the separation of 
mothers from their children.

    <bullet> 34 percent of school-aged homeless children have lived 
apart from their families.
    <bullet> 37 percent of children involved with child welfare 
services have mothers who have been homeless at least once.
    <bullet> 62 percent of children placed in foster care come from 
formerly homeless families.

    The deck is clearly stacked against homeless and the unstably 
housed. How do we focus on education when we don't have a stable place 
to sleep? Forty-five percent of the homeless children sheltered at NHHR 
shelters were under 6 years old. We have new born babies at the 
shelter, often!
    Of the 15 programs that NHHR operates I'd like to highlight two.
    The first is the Family School Connection (FSC) program, funded by 
the Connecticut Children's Trust Fund. It operates out of the Fair 
Haven K-8 School, which has the highest number of homeless families in 
the city. FSC is an intensive home visiting program that provides 
parent education and student advocacy. Children who are ``at risk'' of 
neglect because of excessive tardiness or truancy and/or academic or 
behavior challenges are referred to the program.
    Young children who are frequently tardy, absent, and disconnected 
from school are likely to be living in circumstances where family 
issues are interfering with their participation and opportunity to 
learn and achieve.
    Outcomes:

    <bullet> Significant drop in DCF referrals by the School 
(comparable to last year).
    <bullet> an increase in parental involvement.
    <bullet> 15 percent increase in grades for students enrolled in the 
program.

    On a cold morning in March, during the CMT's the FSC staff received 
a call from the school requesting assistance. When staff arrived, they 
found that a 3d grade boy was selling his Christmas toys to classmates 
to help his Dad pay for rent and food. A back pack full of food, a Stop 
and Shop gift card, toiletry items and warm clothing were provided to 
the child to bring home that day. Subsequently the family was informed 
about the program and enrolled. As of today, Dad is employed, engaged 
with the school and accessing community resources. The child is 
excelling socially and academically. This is a highly successful 
program and we have many families on the wait list.
    The Family School Connection program conducts universal screening 
of all its families. The program is prevention-based, and therefore, 
screens clients to make sure the State Department of Children and 
Families (DCF) is not involved with the family. The program also 
screens children for social and emotional development and refers those 
at risk for help.
    The vision of Family School Connection is that every child will be 
raised within a nurturing environment that will ensure positive growth 
and development.
    The mission of the Family School Connection (FSC) program is to 
work in partnership with parents of children ages 5 to 12 years old who 
are frequently tardy, absent or disconnected from school in order to 
strengthen the parent-child relationship, home-school relationship and 
the parent's role in their child's schooling.

                           GUIDING PRINCIPLES

    <bullet> Young children who are frequently tardy, absent, and 
disconnected from school are likely to be living in circumstances where 
family issues are interfering with the child's participation and 
opportunity to learn and achieve.
    <bullet> Developing a trusting and productive relationship between 
the program staff and the family is the foundation for strengthening a 
vulnerable family.
    <bullet> Consistent and reliable contacts are the most effective 
way of establishing a supportive and helpful relationship between the 
program staff and the family.

    The goals of the Family School Connection program are to:

    <bullet> Enhance nurturing parenting practices.
    <bullet> Reduce stress related to parenting.
    <bullet> Increase parental involvement in the child's education.

    The program works to achieve these goals by meeting the following 
objectives:

    <bullet> Increase primary caregiver's parenting skills, attitudes, 
and behavior.
    <bullet> Increase primary caregiver's ability to use community 
resources.
    <bullet> Increase communication between primary caregivers and 
school personnel.
    <bullet> Increase primary caregiver's involvement in the child's 
education and presence in the school.

    A growing body of intervention evaluations demonstrates that family 
involvement can be strengthened with positive results for children and 
their school success. To achieve these results, it is necessary to 
match the child's developmental needs, the parent's attitudes and 
practices, and the school's expectations and support of family 
involvement. Three family involvement processes for creating this match 
emerge from the evidence base:

    <bullet> Parenting consists of the attitudes, values, and practices 
of parents in raising young children.
    <bullet> Home-School Relationships are the formal and informal 
connections between the family and educational setting.
    <bullet> Responsibility for Learning Outcomes is the aspect of 
parenting that places emphasis on activities in the home and community 
that promote learning skills in the young child.

    The Family School Connection Program encompasses these processes in 
the design and structure of the program through three components aimed 
at reducing the risk of child abuse and neglect and increasing positive 
results for children and their school success:

                            HOME VISITATION

    Home visiting based on the concept of ``family-centered'' practice 
is the foundation of the Family School Connection program. This 
practice is designed to engage families as partners and is essential to 
the success of the program. Research has found that parents enrolled in 
the home visiting component experienced less stress, developed 
healthier interactions with their children, and became more involved in 
their children's academic lives during the time they participated. The 
program results also suggest that this home visiting is a promising way 
to decrease child abuse and neglect in families with school-aged 
children.
    Program participants are offered weekly home visits for as long as 
the family feels the visits are beneficial or until the child ages out 
of the program. At any time the frequency of the visits can be changed 
based on the family's needs and preferences. The first objective of the 
home visitor is to establish a relationship with the family. Often this 
is accomplished by addressing immediate and concrete needs identified 
by the family such as employment, child care, transportation, basic 
necessities, and other issues that might be making it difficult for the 
parent to attend to the child's need to be in school.
    The second objective is to establish a plan for assisting the 
family. The home visitor works with the family to create and implement 
a Family Action Plan that draws on the family's strengths, community 
resources, and the skills of the home visitor to:

    <bullet> strengthen parent-child relationships;
    <bullet> create linkages for the family to community resources;
    <bullet> support the parent in meeting their family's basic needs;
    <bullet> support the parent in attaining their own aspirations and 
needs; and
    <bullet> support the overall social-emotional needs of the parent 
and child.

    The clinical supervisor works with the home visitor to assess the 
family's needs and support the home visitor and parent in the creation 
and implementation of the family action plan. The clinical supervisor 
can also provide clinical intervention for the family if the need 
arises.

                            HOME-SCHOOL TEAM

    The program supports families by helping both the parent and child 
make a positive connection with the child's school. Program staff help 
the family connect with a host of school and community services. 
Program staff also work with school personnel to help the school better 
understand and support the needs of the family. Parent school 
involvement is an essential piece of the program and is encouraged by 
program staff at every opportunity.

                            FAMILY LEARNING

    Traditionally, school officials have found it challenging to get 
parents involved, especially in areas that have a large non-English 
speaking, immigrant population. This has been due, in large part, to 
language and cultural barriers experienced by non-English speaking 
parents. In order to accommodate this population, parent engagement 
strategies are modeled after those used by Brein McMahon High School in 
Norwalk, CT, where there is also a large immigrant population. 
Communication is also crucial to getting parents involved. Parents may 
not get involved because they lack direct and helpful information. 
Information needs to be provided consistently and in different formats 
to ensure the information is delivered in a clear and supportive style. 
Resources should be provided to parents who want to learn more about 
their children's education and activities. The FSC staff aid school 
staff trying to increase involvement by implementing these strategies.
    Program staff work with families help them understand and take 
responsibility for their children's learning outcomes. This is the 
aspect of parenting that places emphasis on activities in the home and 
community that promote learning skills for children. Responsibility for 
learning outcomes in the elementary school years falls into four main 
areas: supporting literacy, helping with homework, managing children's 
education, and maintaining high expectations.
    Program staff work in partnership with the school, community 
organizations, and arts and cultural institutions to engage families in 
family learning opportunities. Family learning opportunities can range 
scope and service but are all intended to extend to help the parent 
understand and under-take their role as the child's first and most 
important teacher. The home visitor works with the family to enroll 
them in family literacy programs, before and afterschool programs, 
tutoring services or parent workshops on topics that support and extend 
a child's learning to the home and community.
    Highlights this year:

    <bullet> 316 books were read between Oct 2009 to May 2010 by FSC 
enrolled students.
    <bullet> The FSC program was able to purchase school uniforms for 
children within the FSC program. FSC has become an active investor of 
Fair Haven School's ``uniform is unity'' policy.
    <bullet> FSC families participated in New Haven Home Recovery's 
holiday program, Adopt a Family, where 32 FSC families were adopted and 
given Christmas gifts this holiday season.
    <bullet> The FSC program co-sponsors the RIF program with The 
Fairhaven School to promote reading as well as connect families with 
the school. FSC staff and families participate in this school-wide 
presentation.
    <bullet> The FSC program participated in the Fair Haven School 
Advisory Program (Grades 7-8). The advisory program is an arrangement 
whereby one adult and a small group of students have an opportunity to 
interact on a scheduled basis in order to provide a caring environment 
for guidance and support, everyday administrative details, recognition 
and activities to promote citizenship. The purposes of advisory are to 
ensure that each student is known well at school by at least one adult 
who is that student's advocate (the advisor), to guarantee that every 
student belongs to a peer group, to help every student find ways to be 
successful, and promote coordination between home and school.
    <bullet> The FSC program had six target children graduate from the 
Fairhaven K-8 and all are registered to attend high school in the fall. 
In addition, as result of FSC involvement, parents reported school 
successes with their children.
    <bullet> All FSC families participated in the Homework Contract 
campaign. This assists families with becoming involved in their 
children's academics and build on parent-child school relationships.
    <bullet> During the fiscal year ending, June 30, 2009, FSC families 
participated in a series of family field trips with transportation and 
admission sponsored by NHHR. The field trips include: Duckpin bowling, 
Movie night Lake Compounce, Roller Magic Rink, Beauty and the Beast at 
the Chevrolet Theatre, Lighthouse Park, Norwalk Aquarium and Beardsley 
Zoo.

    FSC annual data:

    <bullet> 107 Families have been referred.
    <bullet> 53 Families were enrolled.
    <bullet> 85 Children participated.
    <bullet> 211 People total.

    The Second Program is the The Homeless Prevention and Rapid Re-
housing program, funded through the American Recovery and Reinvestment 
Act provides funding and services to families and individuals. NHHR 
serves families who are at imminent risk of homelessness, or who are 
literally homeless. Examples of assistance that may be provided 
include:

Financial Assistance
    <bullet> Rental assistance, including back rent.
    <bullet> Security and utility deposits.
    <bullet> Assistance with utility payments, including utility 
arrearages.
    <bullet> Moving cost assistance (not furnishings).

General Assistance
    <bullet> Referrals to other agencies/shelters when appropriate.
    <bullet> Legal services to assist appropriate person's to stay in 
their housing (not assistance with mortgages)

    Populations to be Served

    Programs will target people who would be homeless ``but for this 
assistance.''

    <bullet> Rapid Re-Housing:

    Includes people who are literally homeless (ex: living in a 
shelter, a motel, a car, etc.) who require more permanent housing.

    <bullet> Prevention with Re-location:

    Includes people who are at imminent risk of becoming homeless (ex: 
notice to quit, in the process of an eviction, institutional discharge, 
housing has been condemned, etc.), who are unable to repair their 
current housing situation and will need to relocate.
    <bullet> Prevention In Place:

    This includes people who are at risk of becoming homeless (ex: 
behind on rent, temporary loss of income, etc.), but who intend to stay 
in their current housing situation.
    The following is the program breakdown of those served through 
HPRP:

                                  HPRP
------------------------------------------------------------------------
                                                                Total in
                                                   Households  Household
------------------------------------------------------------------------
Admitted.........................................          15         56
Discharged.......................................          40         41
In progress......................................         183        569
                                                  ----------------------
  Total..........................................         238        766
Denied...........................................         138        438
------------------------------------------------------------------------

    For example, Jack and Diane were evicted from their home of 5 
years. Jack is a self-employed contractor. Diane is a stay at home 
mother of 6 children. Upon eviction, the family moved into a local 
homeless shelter, but one of their children's asthma became so severe 
they were forced to move to a motel. After two apartments fell through, 
the family finally found a house to rent. Unfortunately the timing was 
off and they had reached their limit on the credit card at the motel 
and were being put out on the street. Their only choice was to sleep in 
their car. HPRP prevented this from happening by providing funding for 
the motel and ultimately relocating them into a home.
    Mike and Gina were being evicted on the day they came to NHHR for 
help. Gina is pregnant and was recently laid off from her job. The 
couple has 3 young boys and Gina's elderly, disabled mother living with 
them. Dad was working and Gina had found an apartment to rent but they 
did not have the security deposit. The Connecticut Department of Social 
Services has closed the security deposit guarantee program. NHHR's HPRP 
program was able to pay the security deposit and part of the first 
month's rent in order to avoid this family moving into a shelter.
    Lastly, Juan and Julia, both college graduates, moved to NH from 
Puerto Rico in order to seek medication care for their son. Their 1-
year-old was ill and had recently undergone open heart surgery at Yale 
New Haven Hospital. In addition the boy was recovering from liver 
disease and other infections. The family was living in the Ronald 
McDonald House during the baby's hospitalization, but had no place to 
live upon discharge. A stay at a shelter, would have comprised the 
boy's fragile health. They considered going back to Puerto Rico, but 
funding was limited and they needed to remain close to necessary 
medical care. HPRP was able to assist them in finding housing, paying 
for security deposit and rental assistance. The family is stably housed 
and Juan and Julia are currently looking for work.
    These two programs are examples of excellent programs that need to 
and should continue.
    Please feel free to contact me with any questions or concerns 
regarding this testimony.

Prepared Statement of Beth Mattingly, Director, Research on Vulnerable 
                     Families, The Carsey Institute

    Subcommittee Chairman Senator Dodd, Ranking Member Senator 
Alexander, and all the subcommittee members, thank you for the 
opportunity to submit testimony on The State of the American Child: The 
Impact of Federal Policies on Children.
    My name is Beth Mattingly and I am the director of research on 
vulnerable families at the Carsey Institute at the University of New 
Hampshire. The Carsey Institute examines child poverty, how different 
family policies influence rural, suburban, and urban families and how 
families adjust their labor force behavior during times of economic 
strain.
    The Carsey Institute at the University of New Hampshire has 
conducted extensive policy-relevant research on the differences between 
rural, suburban, and central city families and children in order to 
better understand trends in child poverty and the implications of 
different policies. This document summarizes the findings of the Carsey 
Institute and some of the Federal policy recommendations that have 
emerged from this research.
    Research shows that poverty has negative impacts on the life 
outcomes of children through decreased access to quality health care, 
nutrition, child care, education, and other opportunities.\1\ Exposure 
to poverty in America is not uniform, but rather varies by region, 
State, and place type. Our research consistently shows that rural 
places have poverty rates that are about as high as those found in 
central cities, yet many continue to view poverty as primarily an inner 
city problem.\2\
---------------------------------------------------------------------------
    \1\ See Bradley, Robert H., Case, Anne, Angela Fertig, and 
Christina Paxson. 2005. ``The lasting impact of childhood health and 
circumstance.'' Journal of Health Economics 24:365-89, who examined the 
impact of prenatal conditions and child health at age 7 on various 
outcomes; Corwyn, Robert F., McAdoo, H. P., & Garcia Coll, C. G. 
(2001). The home environments of children in the United States part I: 
Variations by age, ethnicity, and poverty status. Child Development, 
72, 1844-86; Brooks-Gunn, Jeanne. and Greg. J. Duncan. 1997. ``The 
effects of poverty on children.'' The Future Of Children/Center For The 
Future Of Children, The David And Lucile Packard Foundation 7:55-71; 
Korenman, Sanders, Jane E. Miller, and John E. Sjaastad. 1995. ``Long-
term poverty and child development in the United States: Results from 
the NLSY.'' Children and Youth Services Review 17:127-55; McLoyd, 
Vonnie. C. (1998). Socioeconomic disadvantages and child development. 
American Psychologist, 53, 185-204.
    \2\ See Weber, Bruce, Leif Jensen, Kathleen Miller, Jane Mosley and 
Monica Fisher. 2005. ``A critical Review of Rural Poverty Literature: 
Is There Truly a Rural Effect?'' International Regional Science Review 
28:381; O'Hare, William P. 2009. ``The Forgotten Fifth: Child Poverty 
in Rural America.'' The Carsey Institute, Durham, NH.
---------------------------------------------------------------------------
    Recent estimates from the Carsey Institute suggest that more than 
one in five American children under age of 6 lived in poverty in 
2008.\3\ According to data from the American Community Survey (ACS), 
this rate is significantly higher in the rural South, where 
approximately one-third of children live in poverty.\4\ In no region 
across the United States did child poverty significantly decline from 
2007 to 2008, and in some places, including the Midwest, the rates 
increased.\5\ Some factors that increase the risk for poverty are:
---------------------------------------------------------------------------
    \3\ Mattingly, Marybeth J. 2009. ``Regional Young Child Poverty in 
2008: Rural Midwest Sees Increased Poverty, While Urban Northeast Rates 
Decrease.'' The Carsey Institute, Durham, NH.
    \4\ Ibid.
    \5\ Ibid.

    <bullet> Education, Wages and Work Hours. Both parental employment 
status and parental education influence children's risk of being poor. 
Non-metropolitan mothers of children under the age of 6 maintain higher 
rates of employment than their urban counterparts (69 percent and 63 
percent, respectively).\6\ Yet, despite these higher rates of work, 
rural mothers earn lower wages, have lower overall family incomes, and 
experience poverty rates nearly 4 percent higher than their urban 
counterparts (24 percent vs. 20 percent, respectively).\7\ Also, while 
non-metropolitan mothers appear to have higher rates of employment than 
urban mothers, on the whole, individuals living in non-metropolitan 
areas are more likely to be working part-time than those in 
metropolitan areas (21 percent vs. 18 percent respectively).\8\
---------------------------------------------------------------------------
    \6\ Smith, Kristin. 2007. ``Employment Rates Higher Among Rural 
Mothers Than Urban Mothers.'' Carsey Institute, Durham, NH.
    \7\ Ibid.
    \8\ Shattuck, Anne. 2009. ``Rural Workers Would Benefit from 
Unemployment Insurance Modernization.'' Carsey Institute, Durham, NH.
---------------------------------------------------------------------------
    <bullet> Fragile Family Structures. Data show that American family 
structures have been shifting since the 1990s, particularly in rural 
America.\9\ By 2008, only 68 percent of rural children were living in 
married couple families, down from the 1990 estimate of 73 percent.\10\ 
This shift has major implications for child poverty, as only 9 percent 
of married couple families are in poverty, compared with 21 percent of 
single father homes, and 43 percent of single mother homes.\11\ Family 
structure is part of the story behind extremely high child poverty 
rates in the rural South: there are high rates of divorce, out-of-
wedlock childbirth, and female-headed households,\12\ all of which are 
associated with higher risks of poverty.\13\
---------------------------------------------------------------------------
    \9\ O'Hare, William and Allison Churilla. 2008. ``Rural Children 
Now Less Likely to Live in Married-Couple Families.'' Carsey Institute, 
Durham, NH.
    \10\ Ibid.
    \11\ Ibid.
    \12\ Mattingly, Marybeth J. and Catherine Turcotte-Seabury. 2010. 
``Understanding Very High Rates of Young Child Poverty in the South.'' 
The Carsey Institute, Durham, NH.
    \13\ O'Hare, William, Wendy Manning, Meredith Porter, and Heidi 
Lyons. 2009. ``Rural Children Are More Likely to Live in Cohabiting-
Couple Households.'' Carsey Institute, Durham, NH.
---------------------------------------------------------------------------
    <bullet> Racial Composition. Rural, non-white children lived in 
low-income families at nearly twice the rate of white children, and 
nearly 2.5 times the rate of white children in central cities.\14\
---------------------------------------------------------------------------
    \14\ Churilla, Allison. 2008. ``Urban and Rural Children Experience 
Similar Rates of Low-Income and Poverty.'' Carsey Institute, Durham, 
NH.
---------------------------------------------------------------------------
      challenges for rural poverty and federal policy implications
Tax Credits and Income Needed for Basic Needs
    Poverty may be reduced by allowing families better and continued 
access to tax credits, including the Earned Income Tax Credit (EITC) 
and the 2009 Recovery Act's Child Tax Credit. The Child Tax Credit in 
particular is threatened by an approaching expiration date, a change 
that would have a detrimental effect on working rural families, with 
the loss of income affecting up to 3.3 million low-income rural 
children.\15\ Similarly important, the EITC is disproportionately 
accessed by rural families, representing 16 percent of tax filers, but 
20 percent of EITC claimants, translating into an average credit of 
$1,850 per family.\16\ These direct infusions of money into rural 
families can improve child outcomes by allowing parents to afford 
better quality food, child care, and educational materials.
---------------------------------------------------------------------------
    \15\ Sherman, Arloc and Marybeth J. Mattingly. 2010. ``Over 3 
Million Low-Income Children in Rural Areas Face Cut in Child Tax Credit 
if Recovery Act Improvement Expires.'' Carsey Institute and Center on 
Budget and Policy Priorities, Durham, NH/Washington, DC.
    \16\ O'Hare, William and Elizabeth Kneebone. 2007. ``EITC is Vital 
for Working-Poor Families in Rural America.'' Carsey Institute, Durham, 
NH.
---------------------------------------------------------------------------
    Research also suggests that the poverty threshold does not 
adequately reflect the incomes needed to provide for families' basic 
needs,\17\ \18\ and that a revision of the threshold would expand the 
eligibility guidelines for participation in assistance programs, such 
as supplemental nutrition plans,\19\ tax credits, health insurance, and 
child care subsidies.\20\
---------------------------------------------------------------------------
    \17\ Churilla, Allison. 2008. ``Urban and Rural Children Experience 
Similar Rates of Low-Income and Poverty.'' Carsey Institute, Durham, 
NH.
    \18\ Mattingly, Marybeth J. and Catherine Turcotte-Seabury. 2010. 
``Understanding Very High Rates of Young Child Poverty in the South.'' 
The Carsey Institute, Durham, NH.
    \19\ Wauchope, Barbara and Nena Stracuzzi. 2010. ``Challenges in 
Serving Rural American Children.
    \20\ Smith, Kristin and Kristi Gozjolko. 2010. ``Low Income and 
Impoverished Families Pay More Disproportionately for Child Care.'' The 
Carsey Institute, Durham, NH.
---------------------------------------------------------------------------
Limited Access to Childcare
    Higher employment rates among rural mothers means an increased 
demand for quality child care for the working day hours. Despite 
demand, however, rural mothers have fewer quality care providers 
available than their urban counterparts,\21\ and more obstacles to 
accessing it, such as a lack of transportation. Though urban families 
pay more for child care,\22\ perhaps due to the higher quality of 
available care, in the poorest families across regions, a staggering 
percentage of yearly income is spent on child care.\23\ Families below 
the poverty line dedicate 32 percent of their monthly income to child 
care, nearly twice what those just above the poverty line pay, and 
nearly five times the percentage that families 200 percent above the 
poverty line pay.\24\ As such, rural families tend to turn to informal 
non-relative care (e.g., a babysitter) at higher rates than their non-
rural counterparts (25 percent usage versus 20 percent usage, 
respectively),\25\ which may be of poorer quality, and may result in 
decreased child development.\26\ Far more families are in need of child 
care assistance than receive it, so additional funding for assistance 
through the Child Care Development Block Grant would be beneficial.\27\
---------------------------------------------------------------------------
    \21\ Smith, Kristin. 2006. ``Rural Families Choose Home-Based Child 
Care for their Preschool-Aged Children.'' Carsey Institute, Durham, NH.
    \22\  Ibid.
    \23\ Smith, Kristin and Kristi Gozjolko. 2010. ``Low Income and 
Impoverished Families Pay More Disproportionately for Child Care.'' The 
Carsey Institute, Durham, NH.
    \24\ Ibid.
    \25\ Smith, Kristin. 2006. ``Rural Families Choose Home-Based Child 
Care for their Preschool-Aged Children.'' Carsey Institute, Durham, NH.
    \26\ Smith, Kristin. 2007. ``Employment Rates Higher Among Rural 
Mothers Than Urban Mothers.'' Carsey Institute, Durham, NH.
    \27\ See Smith, Kristin and Kristi Gozjolko. 2010. ``Low Income and 
Impoverished Families Pay More Disproportionately for Child Care.'' The 
Carsey Institute, Durham, NH.
---------------------------------------------------------------------------
Poor Educational Outcomes
    Research suggests that rural children may have greater difficulty 
in the school system than urban students, beginning with things like 
letter and sound recognition in kindergarten.\28\ This disadvantage may 
be rooted in the poorer quality of rural children's pre-school 
childcare, as discussed above. Older rural students have fewer upper-
level mathematics courses available to them, as compared to urban 
students (one to three classes versus seven classes available, 
respectively).\29\ This limited availability translates into lower 
scores on standardized exams among rural students, which can limit 
students' capability and interest in related (and profitable) college 
majors and careers.\30\ In addition, experiencing poverty as a child, 
as many rural students do, is correlated with completing fewer years of 
school altogether than a student who hadn't experienced childhood 
poverty.\31\ \32\
---------------------------------------------------------------------------
    \28\ Smith, Kristin. 2006. ``Rural Families Choose Home-Based Child 
Care for their Preschool-Aged Children.'' Carsey Institute, Durham, NH.
    \29\ Graham, Suzanne E. 2009. ``Students in Rural Schools Have 
Limited Access to Advance Mathematics Courses.'' Carsey Institute.
    \30\ Ibid.
    \31\ Case, Anne, Angela Fertig, and Christina Paxson. 2005. ``The 
lasting impact of childhood health and circumstance'' Journal of Health 
Economics 24:365-89.
    \32\ McLoyd, Vonnie. C. 1998. Socioeconomic Disadvantages and Child 
Development. American Psychologist, 53, 185-204.
---------------------------------------------------------------------------
Increased Food Insecurity
    While food security is defined as regular, dependable access to 
enough quality food to sustain a healthy lifestyle,\33\ food insecurity 
means that ``access to adequate food is limited by a lack of money and 
other resources.'' \34\ Nearly 15 percent of American households were 
food insecure in 2008,\35\ with a disproportionate number of these 
families living in rural America.\36\ Many households in rural America 
are dependent upon Federal nutrition programs to reduce food 
insecurity,\37\ with higher rates of use of programs like food 
stamps,\38\ summer lunch programs,\39\ and the Women, Infants, and 
Children program \40\ than among their urban counterparts. 
Participation in most of these programs is highest in the South, 
particularly among families who are headed by a single, non-white 
female.\41\ Though these programs are key to maintaining the well-being 
of many poor families, anywhere from 92 percent to 55 percent of 
eligible people do not participate depending on the program in 
question,\42\ likely due to a lack of access to information about 
eligibility or the geographic isolation of their residence.
---------------------------------------------------------------------------
    \33\  Stracuzzi, Nena and Sally Ward. 2010. ``What's for Dinner? 
Finding and Affording Healthy Foods in New Hampshire Communities.'' 
Carsey Institute, Durham, NH.
    \34\ Ibid: 1.
    \35\ Ibid.
    \36\ Wauchope, Barbara and Nena Stracuzzi. 2010. ``Challenges in 
Serving Rural American Children through the Summer Food Service 
Program.'' Carsey Institute, Durham, NH.
    \37\ Smith, Kristin and Sarah Savage. 2007. ``Food Stamp and School 
Lunch Programs Alleviate Food Insecurity in Rural America.'' Carsey 
Institute, Durham, NH.
    \38\ Ibid.
    \39\ Wauchope, Barbara and Nena Stracuzzi. 2010. ``Challenges in 
Serving Rural American Children through the Summer Food Service 
Program.'' Carsey Institute, Durham, NH.
    \40\ Wauchope, Barbara and Anne Shattuck. 2010. ``Federal Child 
Nutrition Programs are Important to Rural Households.'' Carsey 
Institute, Durham, NH.
    \41\ Ibid.
    \42\ Ibid.
---------------------------------------------------------------------------
    Many rural families who are eligible to take part in child 
nutrition programs do not participate (43 percent).\43\ Policies 
wishing to address increased food insecurity should focus on obstacles 
that keep rural families from participating in governmental nutrition 
programs. For instance, rural families might have a more difficult time 
accessing child nutrition programs because of their increased 
remoteness from and lack of transportation to facilities that are able 
to help.\44\ Governmental programs have attempted to remedy some of the 
problems with transportation by creating programs where food is 
delivered to rural children in need. However, many of these programs 
suffer financially because of the same problem they are meant to 
alleviate; the remoteness of rural families in need.\45\
---------------------------------------------------------------------------
    \43\ Wauchope, Barbara and Anne Shattuck. 2010. ``Federal Child 
Nutrition Programs are Important to Rural Households.'' Carsey 
Institute, Durham, NH.
    \44\ Ibid.
    \45\ Wauchope, Barbara and Nena Stracuzzi. 2010. ``Challenges in 
Serving Rural American Children through the Summer Food Service 
Program.'' Carsey Institute, Durham, NH.
---------------------------------------------------------------------------
Access to Healthcare
    Nearly 10 percent of American children are without health 
insurance, with the highest numbers of uninsured in rural regions and 
southern cities.\46\ Of all children who are covered, 28 percent are 
covered by a public insurance plan, such as Medicaid or the State Child 
Health Insurance Plan (SCHIP).\47\ In addition to lower rates of 
insurance holdings among rural children, they are also more likely to 
be covered by these public plans than their suburban counterparts, 
highlighting the important role of public health insurance in rural 
America.\48\
---------------------------------------------------------------------------
    \46\ Mattingly, Marybeth J. and Michelle Stransky. 2009. ``Rural 
and Urban Children Have Lower Rates of Health Insurance Coverage and 
are More Often Covered by Public Plans.'' Carsey Institute, Durham, NH.
    \47\ Ibid.
    \48\ Ibid.
---------------------------------------------------------------------------
    The enactment of health care reform undoubtedly will change the 
picture of rural access to health care. The implementation should be 
monitored carefully to ensure that rural health care needs are met.
Risk for Child Maltreatment
    Research shows that there were nearly 2 million counts of alleged 
child maltreatment in the United States in 2007, mostly regarding 
suspected neglect.\49\ The types of maltreatment in rural areas are 
quite similar to those in urban areas, with families experiencing 
various stressors, such as alcohol abuse or mental health problems, 
which exacerbate the circumstances of family violence. However, rural 
families who have been reported to Child Protective Services are more 
likely to be facing additional stressors than urban families, including 
difficulty paying for basic needs, and high levels of family 
stress.\50\ In addition, rural families are more likely to have their 
children relocated into out-of-home placements than urban families.\51\ 
Higher rates of poverty, less access to additional resources, and 
higher populations of non-white residents are all common in rural 
areas, and are all independently related to higher risks of out-of-home 
placement.\52\
---------------------------------------------------------------------------
    \49\ Mattingly, Marybeth J. and Wendy A. Walsh. 2010. ``Rural 
Families with a Child Abuse Report are More Likely Headed by a Single 
Parent and Endure Economic and Family Stress.'' The Carsey Institute.
    \50\ Ibid.
    \51\ Mattingly, Marybeth J., Melissa Wells, and Michael Dineen. 
2010. ``Out-of-Home Care by State and Place: Higher Placement Rates for 
Children in Some Remote Rural Places.'' The Carsey Institute.
    \52\ Ibid.
---------------------------------------------------------------------------
    Reducing the risk for child maltreatment is complicated; however, 
some promising ideas include increasing family supports, particularly 
for those experiencing financial strains and family stressors that 
could manifest in poor outcomes like child maltreatment. Additionally, 
further understanding the stressors for unmarried couples,\53\ 
immigrants,\54\ or those experiencing multi-generational poverty could 
result in more appropriate responses to rural poverty, and help to 
close the persistent rural-urban gap.
---------------------------------------------------------------------------
    \53\ O'Hare, William, Wendy Manning, Meredith Porter, and Heidi 
Lyons. 2009. ``Rural Children Are More Likely to Live in Cohabiting-
Couple Households.'' Carsey Institute, Durham, NH.
    \54\ Johnson, Kenneth. 2006. ``Demographic Trends in Rural and 
Small Town America.'' Carsey Institute, Durham, NH.
---------------------------------------------------------------------------
    Thank you for the opportunity to identify some of the implications 
of Federal policy for rural children and families.

    [Whereupon, at 11:52 a.m., the hearing was adjourned.]


</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
